<html>
<title> - AMERICAN PUBLIC DIPLOMACY AND ISLAM</title>
<body><pre>[Senate Hearing 108-21]
[From the U.S. Government Printing Office]



                                                         S. Hrg. 108-21

                   AMERICAN PUBLIC DIPLOMACY AND ISLAM

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                            FEBRUARY 27, 2003

                               __________

       Printed for the use of the Committee on Foreign Relations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate



87-047              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                     COMMITTEE ON FOREIGN RELATIONS

                  RICHARD G. LUGAR, Indiana, Chairman

CHUCK HAGEL, Nebraska                JOSEPH R. BIDEN, Jr., Delaware
LINCOLN CHAFEE, Rhode Island         PAUL S. SARBANES, Maryland
GEORGE ALLEN, Virginia               CHRISTOPHER J. DODD, Connecticut
SAM BROWNBACK, Kansas                JOHN F. KERRY, Massachusetts
MICHAEL B. ENZI, Wyoming             RUSSELL D. FEINGOLD, Wisconsin
GEORGE V. VOINOVICH, Ohio            BARBARA BOXER, California
LAMAR ALEXANDER, Tennessee           BILL NELSON, Florida
NORM COLEMAN, Minnesota              JOHN D. ROCKEFELLER IV, West 
JOHN E. SUNUNU, New Hampshire            Virginia
                                     JON S. CORZINE, New Jersey

                 Kenneth A. Myers, Jr., Staff Director
              Antony J. Blinken, Democratic Staff Director

                                  (ii)

  


                            C O N T E N T S

                              ----------                              
                                                                   Page

Beers, Hon. Charlotte L., Under Secretary of State for Public 
  Diplomacy and Public Affairs, Department of State, Washington, 
  DC.............................................................     7
    Prepared statement...........................................    12
    Responses to additional questions for the record submitted by 
      Senator Biden..............................................    86
Biden, Hon. Joseph R., Jr., U.S. Senator from Delaware, prepared 
  statement......................................................     6
    Charts depicting listener data on Radio Sawa.................    28
Feingold, Hon. Russell D., U.S. Senator from Wisconsin, prepared 
  statement......................................................    46
Keith, Hon. Kenton W., senior vice president, Meridian 
  International Center, Washington, DC...........................    63
    Prepared statement...........................................    66
Kohut, Andrew, director, the Pew Research Center For The People & 
  The Press, Washington, DC......................................    58
    Prepared statement...........................................    60
Tomlinson, Hon. Kenneth Y., Chairman, Board of Broadcasting 
  Governors, Washington, DC......................................    15
    Prepared statement...........................................    19
    Article entitled ``U.S. Uses a Powerful Weapon in Iran: TV,'' 
      by Lynette Clementson and Nazila Fathi from the New York 
      Times, Arts & Ideas, December 7, 2002......................    16
    Paper submitted by the BBG entitled ``Broadcasting Board of 
      Governors--Broadcasting to Iran''..........................    50
Zaharna, Dr. R.S., School of Communication, American University, 
  Washington, DC.................................................    70
    Prepared statement...........................................    72

                                 (iii)

  

 
                       AMERICAN PUBLIC DIPLOMACY
                               AND ISLAM

                              ----------                              


                      THURSDAY, FEBRUARY 27, 2003

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met at 9:35 a.m., in room SD-419, Dirksen 
Senate Office Building, Hon. Richard G. Lugar (chairman of the 
committee), presiding.
    Present: Senators Lugar, Hagel, Brownback, Coleman, Biden, 
Feingold, and Nelson.
    The Chairman. This meeting of the Senate Foreign Relations 
Committee is called to order.
    Today the committee meets to review the challenges facing 
United States public diplomacy, an increasingly important 
component of American foreign policy. We will give special 
attention today to American efforts to communicate with the 
Islamic world, but American public diplomacy is a resource that 
must be applied in all parts of the world.
    We are fortunate in our quest to be joined by Charlotte 
Beers, Under Secretary of State for Public Diplomacy and Public 
Affairs, and Kenneth Tomlinson, Chairman of the Broadcasting 
Board of Governors. We look forward with anticipation to your 
testimony. They will be followed by a second panel of 
distinguished experts from academia and government who have 
thought deeply about public foreign strategies.
    Recently I outlined in a Washington Post article five 
campaigns for winning the war against terrorism. Two of those 
campaigns are at issue in today's hearing: strengthening 
American diplomatic capabilities and building democratic 
institutions in the world. American public diplomacy should be 
a powerful tool in advancing these campaigns.
    Since the terrorist attacks of September 11, 2001, we have 
examined more deeply and more frequently the standing of our 
Nation. Americans are troubled by examples of virulent anti-
American hatred in the Islamic world, and they are frustrated 
by public opinion in allied countries that seems increasingly 
ready to question American motives or blame American actions 
for a host of problems. In an era when allied cooperation is 
essential in the war against terrorism, we cannot afford to 
shrug off negative public opinion overseas as uninformed or 
irrelevant. The governments of most nations respond to public 
opinion, when it is demonstrated in the voting booth or in the 
streets.
    America's economic success has been aided by the magic of 
marketing, advertising, and public relations. It is logical to 
conclude these same skills could be employed to burnish and to 
defend the American image around the world. As my colleague, 
Chairman Henry Hyde of the House International Relations 
Committee, has said--and I quote--``How is it that the country 
that invented Hollywood and Madison Avenue has allowed such a 
destructive and parodied image of itself to become the 
intellectual coin of the realm overseas?'' End of quote of 
Chairman Hyde.
    This is a good question and a starting point for much 
debate. But as we discuss public diplomacy today, we must 
resist the temptation to believe that public relations wizardry 
alone can fix the American image overseas. Successful public 
diplomacy is not about manipulating people into liking us 
against their interests. Rather, it is about clearly and 
honestly explaining the views of the United States, displaying 
the humanity and generosity of our people, underscoring issues 
of commonality, and expanding opportunities for interaction 
between Americans and foreign peoples.
    Even the most enlightened public diplomacy will not succeed 
overnight, and success will require resources and hard work 
over a period of decades that focuses on supporting democratic 
institutions and a free press in the Islamic world and 
elsewhere. It will also require the United States to engage the 
world at every opportunity. The missing ingredient in American 
public diplomacy between the fall of the Berlin Wall and the 
September 11 attacks was not advertising cleverness. It was a 
firm commitment by the American people and the American 
leadership to do all the painstaking work required to build 
lasting relationships overseas and advance our vision of 
fairness and opportunity. The experience of September 11 jarred 
most of us out of complacency, but the committee is anxious to 
ensure that the best public diplomacy strategy is being 
developed now.
    In particular, I am concerned that our broader efforts at 
international development and democratization are not 
sufficiently coordinated with our public diplomacy. Public 
opinion overseas is driven by everything the United States does 
and says, and yet policies related to foreign assistance, 
military cooperation, alliance building, trade negotiations, 
and many other initiatives are formulated often with little 
reference to public diplomacy.
    We must also examine whether resources devoted to public 
diplomacy are sufficient. On February 6, this committee 
discussed the State Department budget with Secretary of State 
Powell. We noted at the hearing that for every $1 spent by the 
U.S. Government on the military, only 7 cents is spent on 
diplomacy, and out of that 7 cents, only about a quarter of a 
penny is devoted to public diplomacy.
    The public diplomacy budget includes funding for a wide 
array of activities, including State Department information 
programs, international academic and cultural exchange 
programs, and the U.S. Government's broadcasting initiatives. 
Yet the aggregate amount that we devote to communicating the 
American vision to the rest of the world, about $1.2 billion, 
is less than half of what some individual American companies, 
such as the Ford Motor Company or the Pepsi Corporation, spend 
on advertising each year.
    The Foreign Relations Committee will be interested in 
learning the recommendations of our panels on funding levels 
and effective strategies for our public diplomacy overseas. 
Your views are timely, as this committee is engaged in the 
process of writing the State Department authorization bill now. 
We want to support your efforts. We value insights that you 
wish to provide.
    It is my privilege at this point to yield to my 
distinguished colleague, Senator Biden.
    Senator Biden. Thank you, Mr. Chairman, and thank you for 
holding this hearing. We began this process last year to 
examine the issue of public diplomacy and what was lacking and 
what was needed.
    I welcome back the Under Secretary and the new Chairman of 
the BBG. He was not Chairman last time we were here--or two 
times ago, I should say.
    And I must say at the outset my statement is going to be 
more critical than I have been for some time, reflecting my 
frustration.
    I recall years ago, during another Presidential 
administration, when I was asked by a President to go visit 
then-Chancellor Helmut Schmidt, and it was during the period, 
as you will remember, Mr. Chairman, when we were talking about 
and debating and discussing with our European friends the so-
called neutron bomb. And there was a great split between 
Germany and the United States at that time, and there was a 
question whether a Democratic President handled it very well 
that time. I think he did not. But at any rate, I was sent 
over.
    I will never forget sitting in Chancellor Schmidt's office. 
He was a chain-smoker, frustrated, angry with us, would not 
speak to the President at the time. And he pounded his hand on 
his small conference table and he said, ``but you do not 
understand, Joe. Every time America sneezes, Europe catches a 
cold.'' And the point I think should be well taken.
    We have a public diplomacy problem with our European 
friends right now, let alone the Arab community worldwide, the 
Muslim community. We know we have a problem. We have as much of 
a problem now in Europe, in Asia, as we do in the Muslim world, 
or almost as much.
    Just as American foreign policy cannot be sustained at home 
without the informed consent of the American people, I would 
argue it cannot succeed abroad unless it can be explained, not 
only to Presidents and Prime Ministers, but also to foreign 
publics. We must deal with a very simple fact. Many foreign 
governments are constrained by their ability to support 
American foreign policy if their own people oppose U.S. foreign 
policy. We have to engage with foreign audiences in a dialog 
about the objectives of American foreign policy.
    In the immediate aftermath of the terrorist attacks on 
September 11, support and sympathy for the United States was 
nearly universal. The French, with whom we have a very strained 
relationship at the moment--the French newspaper, Le Monde, 
proclaimed a giant headline, ``We Are All Americans.'' Hundreds 
of thousands of people filled public squares across Europe and 
Asia in support of the United States of America. It was 
spontaneous. NATO, without our prompting, invoked article 5 of 
the North Atlantic treaty. Less than 18 months later, this 
enormous goodwill and energy has largely been squandered.
    Earlier this month, hundreds of thousands of people rallied 
in the streets of Europe and elsewhere to condemn American 
policy.
    A study conducted by the Pew Research Center indicates that 
the number of people in many foreign nations who have a 
positive view of the United States fell significantly between 
the years 2000 and 2002. In key countries with significant 
Muslim populations, the United States is viewed unfavorably by 
large majorities. In Pakistan and Egypt, 69 percent of the 
population had an unfavorable view of the United States. Just 6 
percent of the population in Egypt had a favorable view. In 
Turkey, a NATO ally, 55 percent of the population had an 
unfavorable view.
    A remarkable percentage of people in Europe believe U.S. 
policy in Iraq is driven by a desire for oil, which it is not. 
As many as three-quarters of the public in France and Russia 
believe this nonsense. And I am recalling from memory now, but 
about 10 to 12 months ago there was a poll in France conducted 
asking, can you think of anything good to say about Americans? 
Do not hold me to the number, but it was close to 70 percent 
who said, ``no,'' they could not think of anything good to say 
about America.
    Why this dramatic reversal? Well, I think there are several 
factors, not all of which can be dealt with by public 
diplomacy.
    First is our projected attitude. I would respectfully 
suggest that the administration has not followed the advice of 
its Presidential candidate and President in the year 2000 
during a Presidential debate. When asked about how the United 
States should be viewed or would be viewed abroad, then-
Governor Bush said--I am quoting--``It really depends upon how 
our Nation conducts itself in foreign policy. If we're an 
arrogant Nation, they'll resent us. If we're a humble Nation 
but strong, they'll welcome us . . . our Nation stands alone 
right now in the world in terms of power, and that's why we 
have to be humble.'' I have not heard anybody characterize the 
utterances of the administration in the last 8 months as 
humble. Humility is a term not familiar to many senior levels 
of the administration, I would argue, with the single exception 
of the Secretary of State. The administration has often been 
disdainful of the opinions of foreign governments on ranges of 
issues, from the abrupt abandonment of the Kyoto Protocol, 
which I did not support, to the provocative assertions of the 
doctrine of preemption just as diplomatic campaign was 
commencing on Iraq.
    There is another problem, it seems to me, and that is the 
way in which we seem to be willing to maybe inadvertently 
embarrass foreign leaders occasionally, from the first meeting 
with President Kim visiting Washington, to refusing assistance 
by our NATO partners in Afghanistan, to Secretary Rumsfeld's 
dismissal of our oldest partner in Europe as ``Old Europe,'' 
and to the administration's often taken-for-granted attitude 
about allied support. We kind of act as if we are never going 
to need any help again. We kind of act like we are not going to 
need any alliances in the future. This is not how, in my view, 
you win friends and influence people, which means your job is 
going to be a lot harder, both of you.
    I would suggest, third, that our outreach to the world 
since September 11 has been hampered by the slowness of our 
response and our failure to properly invest in public 
diplomacy. Soon after September 11, at the request of the 
President, with Henry Hyde in the Oval Office with me, the 
President asked for ideas and asked would we prepare for him a 
proposal for public diplomacy and how we should modernize it, 
upgrade it, change it. And so, I--and I imagine others did 
too--gave the President a detailed proposal. I am sure--I 
hope--Secretary Beers has seen it. I do not have any particular 
pride of authorship. As a matter of fact, many of your Board, 
Ken, helped to draft this. But I do not mind that it was not 
adopted. I mind that it was not discussed. I mind that it went 
nowhere. Not my proposal, any serious, substantive alteration.
    Soon after September 11, the State Department began 
planning for an advertising campaign to Muslim countries about 
the United States. It took them until October 2002 to reach the 
airways, and even then some of our allies in the Middle East 
refused permission for the advertisements to air.
    The administration does deserve credit for attempting to 
coordinate its message overseas through the White House Office 
of Global Communications, but organizational change is not 
policy, nor does it produce budgetary resources.
    The Broadcasting Board of Governors also deserves a great 
deal of credit for the innovative radio broadcasts to the 
Middle East and for proposing a Middle East television network 
in its budget for fiscal year 2004. But the administration's 
budget for fiscal year 2004 otherwise short-changes several 
major public diplomacy programs.
    For example, the request for international exchange 
programs, which are essential in exposing thousands of people 
to the United States and U.S. citizens, are reduced in the 
President's budget for fiscal year 2004. For example, the 
Fulbright program falls from $150 million to $141 million, 
instead of going up. Professional and cultural exchanges, $86 
million to $73 million. This will result in reductions of 
nearly 2,500 fewer participants in exchanges next year.
    Similarly, the budget request for the Broadcasting Board of 
Governors for fiscal year 2004 requires the elimination and 
reduction of broadcast by Voice of America or Radio Free 
Europe, Radio Liberty to several Central and Eastern European 
countries. We just hosted the Bulgarians in the Foreign 
Relations Committee. The one thing they mentioned was why are 
you not continuing to broadcast in our country. Now, we spent 
50 years fighting to get broadcasts into their country, and 
now, because of budgetary constraints, you are going to have to 
move resources to the Middle East--I assume that is where they 
are being moved--and no longer broadcast in Bulgaria. And the 
Bulgarian Government is asking us not to stop. Well, I cannot 
understand why we would go off the air or reduce broadcasts in 
places where there is a significant listenership, such as the 
Baltics and/or the Balkans.
    As our diplomatic efforts on Iraq have made plain, we 
cannot take allies, old or new, for granted. We must 
consistently engage them. We should expand our international 
broadcasting and international exchanges, not contract them. 
They are valuable tools to tell America's story to the world.
    And I would conclude, Mr. Chairman, by making one point in 
a little different way than you made it. Here after the first 
gulf war, we allowed over that period of time, from then to 
now, for the Arab world and many in the European world to 
become convinced that the reason why there were starving 
children, malnutrition, lack of medical supplies in Iraq was 
because of a U.S.-imposed embargo. Public opinion around the 
world assumed, instead of that madman Saddam taking the money, 
diverting it to weapons of mass destruction, building palaces 
and castles, and otherwise using the food money and the money 
he had through legal and illegal means to provide for the needs 
of his citizens, we were blamed. We were blamed. And that had 
nothing to do in my view with the failure to be humble or the 
failure to have the proper policy.
    The only reason I mentioned those two points at the outset 
is it makes your job harder. If our policy in and of itself, if 
known accurately, is disliked, all the public diplomacy in the 
world is not going to change anybody's mind. But it seems to me 
that we are never given a square deal, a fair shake, and in 
large part because we have not modernized our diplomacy and we 
have not modernized our public diplomacy via the use of the 
airways. So I hope this hearing will shed some light on that.
    And I hope, Mr. Chairman, that this committee will be able 
to convince the administration that prudent investment of more 
resources in public diplomacy is very, very, very much in our 
interest.
    [The prepared statement of Senator Biden follows:]

           Prepared Statement of Senator Joseph R. Biden, Jr.

    Mr. Chairman, I commend you for convening this hearing on America's 
public diplomacy efforts. Just as American foreign policy cannot be 
sustained at home without the informed consent of the American people, 
it cannot succeed abroad unless it can be explained, not only to 
Presidents and Prime Ministers, but also to foreign publics.
    We must deal with this simple fact: many foreign governments are 
constrained in their ability to support American policy if their own 
people oppose the U.S. position. We therefore must engage with foreign 
audiences in a dialog about the objectives of American policy.
    In the immediate aftermath of the terrorist attacks, support and 
sympathy for the United States was nearly universal. The French 
newspaper Le Monde proclaimed that ``We Are All Americans.'' Hundreds 
of thousands of people filled public squares across Europe and Asia in 
support of the United States.
    Less than eighteen months later, this enormous goodwill has been 
largely squandered. Earlier this month, hundreds of thousands of people 
rallied in the streets of Europe and elsewhere to condemn American 
policy on Iraq.
    A study conducted by the Pew Research Center indicates that the 
number of people in many foreign nations who have a positive view of 
the United States fell significantly between 2000 and the end of 2002.
    In key countries with significant Muslim populations, the United 
States is viewed unfavorably by large majorities. In Pakistan and 
Egypt, 69 percent of the population had an unfavorable view of the 
United States; just 6 percent of the population in Egypt had a 
favorable view. In Turkey, a NATO ally, 55 percent of the population 
had an unfavorable view. A remarkable percentage of people in Europe 
believe that U.S. policy on lraq is driven by a desire to control Iraqi 
oil--as many as three-quarters of the public in France and Russia 
believe this nonsense.
    Why this dramatic reversal? I would cite several factors.
    First, the administration has failed to heed the President's own 
advice, given in the second Presidential debate in 2000. When asked how 
the world should view the United States, then-Governor Bush said this:

          It really depends upon how our nation conducts itself in 
        foreign policy. If we're an arrogant nation, they'll resent us. 
        If we're a humble nation, but strong, they'll welcome us . . . 
        our nation stands alone right now in the world in terms of 
        power, and that's why we have to be humble.

    Humility is not a term familiar to many in senior levels of this 
administration, which has often been disdainful of the opinions of 
foreign governments on a range of issues--from the abrupt abandonment 
of the Kyoto Protocol to the provocative assertion of the doctrine of 
preemption just as the diplomatic campaign on lraq was commencing.
    Second, there is another problem the way in which we perhaps 
inadvertently embarrass foreign leaders. From embarrassing South Korean 
President Kim on his first visit to Washington to refusing offers of 
assistance by NATO partners in Afghanistan to Secretary Rumsfeld's 
dismissal of two of our oldest partners in Europe as ``old Europe,'' 
this administration has often taken allied support for granted.
    This is not how you win friends and influence people.
    Third, our outreach to the world since September 11 has been 
hampered by the slowness of our response and the failure to properly 
invest in public diplomacy programs.
    Soon after September 11, I suggested to the President a major 
expansion of U.S. international broadcasting to Muslim countries. I 
didn't mind that it wasn't adopted. I mind that it wasn't discussed.
    Soon after September 11, the State Department began planning for an 
advertising campaign to Muslim countries about the United States. It 
took until October 2002 to reach the airwaves, and even then some of 
our allies in the Middle East refused permission for the advertisements 
to air.
    The administration deserves credit for attempting to coordinate its 
message overseas through the White House Office of Global 
Communications. But organizational change is not a policy, nor does it 
produce budgetary resources.
    The Broadcasting Board of Governors also deserves great credit for 
the innovative radio broadcasts to the Middle East, and for proposing a 
Middle East Television Network in its budget for fiscal year 2004.
    But the administration's budget for fiscal 2004 otherwise 
shortchanges several important public diplomacy programs.
    For example, the request for international exchange programs--which 
are essential to exposing thousands of people to the United States and 
U.S. citizens, are reduced in the President's budget for fiscal year 
2004. For example, the Fulbright program falls from $150 million to 
$141 million, and professional and cultural exchanges falls from $86 
million to $73 million. This will result in real reductions--nearly 
2,500 fewer participants in exchanges next year.
    Similarly, the budget request for the Broadcasting Board of 
Governors for fiscal 2004 requires the elimination or reduction of 
broadcasts by the Voice of America or Radio Free Europe/Radio Liberty 
to several Central and Eastern European countries.
    But I cannot understand why we would go off the air or reduce 
broadcasts in places where there is a significant listenership, such as 
in the Baltics and the Balkans.
    As our diplomatic efforts on Iraq have made plain, we cannot take 
any allies--old or new--for granted. We must constantly engage them. We 
should expand our international broadcasting and international 
exchanges, not contract them. They are valuable tools to tell America's 
story to the world.

    The Chairman. Well, thank you very much, Senator Biden.
    Witnesses, with those scene-setters, you can see the 
challenge. We know you will rise to it. We are delighted you 
are here, and I would like to call upon, first of all, Under 
Secretary Beers and then Mr. Tomlinson.
    Under Secretary Beers.

STATEMENT OF HON. CHARLOTTE L. BEERS, UNDER SECRETARY OF STATE 
 FOR PUBLIC DIPLOMACY AND PUBLIC AFFAIRS, DEPARTMENT OF STATE, 
                         WASHINGTON, DC

    Ms. Beers. Thank you, Mr. Chairman and distinguished 
members of the committee. I think you are going to find my 
remarks a bit like an echo, but I can dimensionalize them from 
some very recent experiences that help put context in this same 
discussion that we have been having also.
    Before you is a report on CD-ROM and if you are not CD-ROM 
friendly, there is a paper-published report as well of our 
recent activities in the last year. You also have examples of 
booklets, and you have a copy of the new communication plan for 
the VISA program.
    I am going to depart a bit from my longer remarks with an 
overview that I think is relevant.
    The Chairman. Your full statement will be published in the 
record, and likewise Mr. Tomlinson's.
    Ms. Beers. Thank you very much.
    September 11 did give us a highly accelerated learning 
curve. I must tell you without the supplemental and the way we 
could redirect 2002 funds, we could never have initiated these 
programs I am going to discuss with you into Muslim audiences 
with whom we had had almost no discourse.
    Our job is to both inform and engage, but I must tell you 
inform is really the first job. I would say 60 or 70 percent of 
the efforts of our 800 people who are in the State Department 
in the United States work 24 hours a day to present, explain, 
and advocate our policies. Around the world then we link into 
our embassies' staff, some 16,000 who are the whole team, 600 
public diplomacy officers, and we touch them through Web, 
through e-mail, through cable, and our own embassy television 
channel. They can take our products and activate them locally 
in ways that we cannot. With roundtable interviews, they turn 
them into something very important in the local market.
    We also in the last year entered, through totally new 
channels of radio and television, in the Middle East, South 
Asia, and East Asia. Our officials were on those channels in 
record numbers as we discussed the kind of foreign policy 
issues we had and the context for those. We also had a number 
of op-ed pieces, personal interviews, and a great number of 
roundtables. Our Web site languages and products now include 
Arabic, Farsi, Urdu, and Pashtu. We have extremely able 
partners in this business of getting the word out in terms of 
BBG.
    But we have learned the power of a digital video conference 
with Ken Pollack, the writer who has produced ``The Threatening 
Storm,'' a very reasoned and interesting discussion of the pros 
and cons of Iraq. We asked him to interrupt his book tour and 
put him into nine countries in Europe where we needed that 
message, as Senator Biden points out. And it had a powerful 
effect. He is going back again in many other countries.
    I think this year we have gained great skills in public 
affairs. We no longer wait for people to produce our stories. 
We went into Afghanistan and we did an 18-minute documentary on 
the reconstruction of Afghanistan. And my proudest moment was 
when that ran on Pakistan TV on the 6 o'clock news.
    So one of the important lessons of this year is that the 
television channels, which are more crowded every year, and the 
radio channels will be very thirsty for programming, and there 
is an art form to getting them to use programming that we can 
produce and make available.
    The products we produce these days are very different from 
a few years ago. It requires good detective work. We have to go 
find the story that is not the story being written in that 
country in the headlines, which sometimes you wonder if you 
have been in a time warp because they do not cover any of the 
things that our people know so well, which explains the mystery 
sometimes about the gap between us and the rest of the world.
    In addition to good detective work, we have to have artful 
writers and photographers, and that is why those samples in 
front of you are an important comment. International 
information programs can now produce a four-color booklet 
translated in many languages. For example, ``Iraq: From Fear to 
Freedom.'' It talks about the horror of Hussein's regime, but 
also our deep desire for a democratic and unified Iraq. Believe 
me, in some places where we will send this in the world, this 
has never been heard, so it is important to assume that you are 
dealing with a great deal of lack of information.
    Our most recent program, ``Iraqi Voices for Freedom,'' is a 
great prototype of how the Policy Coordinating Committee, which 
was approved by the NSC and co-chaired by myself and the NSC, 
works. The international programs people did interviews of the 
exiles. Department of Defense did some other kinds of 
interviews. The Near East Bureau vetted these people and we 
launched this program offering the press not only the booklet 
but also the interviews in video which they can pick and use as 
B-roll on their television channels, and the individuals 
themselves have agreed to do DVC's or interviews. So it is that 
kind of total communication that I would say back in my 
advertising day is the way to get the word out in context.
    We have just established an Arabic speaking team who are 
headed to London next week. This is the gateway for much of the 
Arab and Muslim television newspaper people, and we need a 
constant amount of training, teaching, interviewing, and 
engagement.
    Now, that is my second point, which really sounds like your 
point. You determined long ago in our charter that it must also 
include engagement, the building of mutual understanding and 
trust between whom? America and the world. That is a pretty big 
job, and these days it seems a bit daunting, but it is a very 
elegant job. And we are passionately committing to doing this, 
but we need--we really must have--long-term, sustainable 
investment. And above all, we need an agreement in all the 
parts of the government that this is a crucial job. It is not a 
job to be done on the way to something else.
    We do have long-tested proofs that we can engage 
successfully. When we bring people in on our educational and 
cultural exchanges, they are literally transformed from being 
hostile and suspicious to friends of the United States, and we 
can verify this in any number of ways. But are these enough? 
And 35,000 exchanges a year does not answer the deep need we 
have to engage with people.
    We just had 49 Arab women here to witness our elections and 
democracy in action. And 13 women teachers came over from 
Afghanistan and now we will send our teachers back to help 
them. You know what they ask us? Please do not desert us.
    Five northern Iraq Kurdish television people just came into 
the United States to learn modern broadcasting.
    We know how to engage, but we have lost many of the natural 
points of contact. In Central Asia and Russia, there are the 
American Corners. In the Western Hemisphere, there are a few 
binational centers. These should be all over the world. They 
answer the problem of security. They are co-produced with the 
local government, and they create a natural dialog.
    We have the ultimate secret weapon, by the way. It is 
English teaching. English teaching can be allowed in any 
country in the world regardless of how they feel about us 
because it opens the doors to science and technology.
    In the world of Islam, we have discovered that we have a 
powerful common cause, and that is we really both want our 
children to thrive. Much of our few extra dollars in ECA has 
gone to setting up models of teaching in Muslim countries and 
youth exchanges, partnered again with local governments because 
we have to get them in the game. That is what the Middle East 
Partnership Initiative is about, that consulting and agreement 
to shape things and make something happen.
    All of this is promising, but it is only a beginning unless 
we have a commitment and long-term funding.
    Engagement also dramatizes for me a key question which we 
have attempted to answer this very year. Who are we trying to 
engage? And given the declines in our budget and resources, the 
answer had to be in the last 10 years the governments and the 
elites, those leaders in the country, but in fact, we must be 
about engaging the peoples of the world. It is not only our 
charter, it is an urgent need.
    Now, we tested the way to do this. We produced messages 
directed to the people directly in Muslim countries, and what 
we learned is there is often a disconnect. The government and 
the elites will tell you they know all this, and you find from 
other research that the people in the country have simply no 
knowledge of the most basic tenets of the values of the United 
States, for instance, religious tolerance.
    So we produced a series of mini-documentaries which were 
really stories of Muslim Americans talking about the way they 
live here. We had to actually pull them back from being too 
exaggerated for fear people would not believe them because they 
have such a passion for their life here. It was about their 
ability to practice their faith and integration.
    In order to make sure these stories were heard, we bought 
our own television, radio, and newspaper. That was something of 
a first, and that is why you hear it called an advertising 
campaign, but in fact, it was storytelling made possible 
because we developed our own channel of distribution.
    We also had all of the people on the television stories 
traveling to the countries to speak, to add to the 
authenticity. And the booklet in front of you, ``Muslim Life in 
America,'' was a part of the way the embassy kept the dialog 
going.
    I wish you would think about this for a minute. During that 
time, 288 million people--288 million people--saw these 
messages two to three times during the holy month of Ramadan. 
That is the kind of reach we need to do everywhere in the 
world, and it was the first time we had a program of that kind 
of penetration.
    Focusing on Indonesia, we then went in and tested what 
these messages were accomplishing. We did it exactly like you 
would a major campaign for some of our brands that travel 
around the world. The recall is one number and the message 
retention is another. The recall of these messages was higher 
than a soft drink can achieve in 6 more months of advertising. 
It broke the bank in terms of recall. In terms of message 
retention, every single person who recognized it came back and 
said they are talking about the way they live in the United 
States. I had no idea. A woman said, ``I did not know you could 
wear scarves safely in that country.'' Another said, ``do you 
mean they are free to pray openly?'' If you could see these 
visuals, which most of them we taped, you would understand that 
the need to get the word, to exchange the word, to share ideas 
is actually very important.
    What this means, in terms of results measured against 
modern marketing, is that the messages are interested and the 
people are very thirsty and they are living with a large amount 
of distortions.
    The other thing that happened is a continuing dialog is 
stimulated because of this massive reach. Indonesian TV came to 
us, agreed to do an hour television show, 50 Americans, 50 
Indonesian. It just aired, 1 hour, 135 million people. That is 
the way we begin to make inroads against the preconceptions and 
the negatives.
    The ``Muslim Life in America'' booklet, which you have 
there, is in use in an amazing number of places now, not only 
schools, libraries, and seminars, but my favorite story is Air 
Asia from Malaysia called and asked for 10,000 copies. So now 
we have forced reading on the airplanes, and it is not a bad 
other new channel of distribution.
    The point is we must engage. We have tested this year very 
many programs to open doors to ordinary people. We need your 
support to create a sustained engagement with the world.
    You know who needs this too? Our businesses, our 
universities, and our hospitals. They need us to help them 
engage. We have, as you know, amazing products, science, 
technology, engineering, medicine. We have the whole potent 
world of our best literature, music, sports, and movies, but it 
is not out there. Our American people are willing to go. In 
your States are people who constantly approach the State 
Department and say, ``what can I do to help,'' and we need to 
organize these kinds of people, these businesses, these 
sophisticated musicians and artists, so that they move as 
emissaries through the world in our behalf.
    We have in front of you amazing good programs, but they are 
in test. They are not funded to go roll out. ``Sesame for 
Teens,'' the Arabic youth magazine, Arabic television, English 
teaching, cosponsored with the local governments. We have an 
army willing to be signed up in the world of the United States. 
You know that the educational and cultural exchanges are backed 
up by 90,000 volunteers, people in your States, who are saying, 
I already know a way to help. How can we magnify that manifold?
    These people we need to talk to do not even know the basics 
about us. They are taught to distrust our every motive. Such 
distortions, married to a lack of knowledge, is a deadly 
cocktail. Engaging, teaching, common values are preventative 
medicine.
    I would hope that, as you stated so eloquently in your 
opening remarks, that you can use your considerable influence 
to produce a strategic document that makes it clear that this 
kind and depth of engagement is one of the very important 
components of the long-term defense of the American people. 
Thank you.
    [The prepared statement of Ms. Beers follows:]

Prepared Statement of Hon. Charlotte L. Beers, Under Secretary of State 
                for Public Diplomacy and Public Affairs

    Mr. Chairman, distinguished members of the committee, thank you for 
the opportunity to testify before you here today.
    One way to look at September 11 is that it provided all of us with 
a painful, highly accelerated learning curve.
    We were gratified to have funds in the emergency supplemental to 
initiate new programs intended to open doors with audiences with which 
we had precious little discourse. A brief description of these programs 
and any results to date has been sent to you and members of your 
staffs. I look forward to any comments you care to offer.
    Among the lessons of 9/11 is that our educational and cultural 
exchanges--be they of young leaders, academics, students, or others--
are almost always positive, literally transforming, experiences.
    This is a hugely significant conclusion. It is impossible to 
calculate the return on this investment. It would be too high to be 
believable. Fifty percent of the leaders of the global coalition in the 
war against terrorism had been International Visitors. More than 200 
current and former Heads of State, 1,500 cabinet-level ministers, and 
many other distinguished leaders in government and the private sector 
from around the world have participated in the International Visitor 
Program.
    There's also a problem. The number of exchanges--35,000 a year 
worldwide--is nowhere near enough and should be expanded in the future, 
since they are so productive. The transformation of perceptions and the 
recognition of commonality that we realized after 9/11 are so important 
must take place for millions, not just thousands. We have to go beyond 
the significant dialogue we have with government officials and country 
leaders and reach out to mass audiences.
    Let's just take a few key countries in the Middle East. For 
example, the population of Egypt is 71 million. Saudi Arabia is 23.5 
million. Pakistan is 148 million, and Indonesia has a population of 231 
million.
    We are talking about millions of ordinary people, a huge number of 
whom have gravely distorted, but carefully cultivated images of us--
images so negative, so weird, so hostile that I can assure you a young 
generation of terrorists is being created.
    The gap between who we are and how we wish to be seen, and how we 
are in fact seen, is frighteningly wide.
    Well, does it matter? Our businesses, whose brands travel the 
world, know it matters because they are boycotted. Our great 
universities and faculties know it matters because schools in England, 
Germany, Australia and elsewhere are doing a very good job of offering 
alternatives.
    The gap matters most of all because our country has a profound 
belief in the power of sharing a way of life that enhances the 
individual, protects rights and faith, and optimizes potential.
    And there is no way to even engage others in the world in such 
honorable pursuits if every action is viewed with distrust and cynicism 
or hate.
    It is depressing to hear major non-governmental organizations, well 
funded by our tax dollars, claim that acknowledging our role in their 
work would diminish or destroy their ability to get the job done.
    Let's agree that the gap in perceptions matters. What can we do 
about it?
    We can attack the misperceptions, unmask the lies, and live up to 
our own high expectations by taking our messages to the millions, 
activating every emissary we have, tapping into new channels of 
communication, and delivering programs that benefit both us and the 
recipients--all to create and sustain a dialogue of enhanced growth and 
potential for these millions.
    It's not as overwhelming as it sounds, but it does have to be 
agreed as a long-term goal, consistently funded, and adequately 
measured.
    We need too to find ways to enlist our private sector in this 
effort. We need to engage our best and brightest business, academic, 
and cultural leaders--not to consult, but to participate in programs 
and mentoring, drawing on their unique and helpful perspectives on the 
American way of life and on their capacity to teach. The willingness to 
be engaged and this depth of talent is not a resource we can let be 
latent.
    We need to take the best of America to other countries, to offer 
who we are honestly and sincerely, to share with them our exceptional 
gifts in English teaching, literature, science, and technology.
    We've lost most of the natural touch points for doing this. What we 
do still have are the American Corners in Russia and Central Asia and 
the Binational Centers of many of our Western Hemisphere neighbors.
    These can teach us how to redirect our capacity to open up access 
points to America--to one another.
    We still have a few English teaching programs. These can be 
revamped and made more serious, more ambitious, more focused on 
universal values. We have fabulous new material in literature, in 
poetry, in film--but it's not out there.
    We need to organize, fund, and support the many creative talents--
the musicians, actors, writers--who will go willingly to teach, 
inspire, and tell the story of America by their own lives.
    We can do a better job of sharing what's already known and written 
through television and the Internet.
    We must create better access to our most priceless endeavors, for 
instance, medicine. Here, we need to talk about the work of the 
National Institutes of Health, whose mission is to uncover new 
knowledge that will lead to better health for everyone. We have 
stunning stories of life saving medicines developed and delivered by 
USAID--but no one hears these stories.
    There are brave and bold plans in front of you now. Prominent among 
them are a Sesame Street for teens, an Arabic-language television 
channel, an Arabic-language magazine, the Middle East Partnership 
Initiative and its important exchange component, and a global 
Partnerships for Learning initiative aimed initially at the Muslim 
world.
    In the end, what the task before us needs most of all is 
leadership. And that's where we all come in.
    All of this is for the long term, but I hope I've conveyed our 
sense of urgency about lifting public diplomacy-- our way of engaging 
the world--to a significantly higher and more sustained level.
    Now the shorter term, this real time is also greatly urgent as we 
deal with such issues as the War on Terrorism, the reconstruction of 
Afghanistan, and the past, present, and future of Iraq.
    That's why the primary task of Public Diplomacy and Public Affairs 
is to inform. Our Washington bureaus and our Embassy Country Teams 
around the world work intensively everyday to present, explain, and 
advocate our policies in many languages.
    Over the past month for example, State Department officials have 
done 72 foreign events and 217 domestic outreach events.
    As we deal with the issues surrounding Iraq, we have prepared a 
variety of materials in support of our position:

          The booklet Iraq: From Fear to Freedom examines in a 
        comprehensive way the horror of Saddam Hussein's regime but 
        also addresses the U.S. desire to see a future Iraq that is 
        democratic, unified, and at peace with its neighbors.

          In our booklet Iraq: A Population Silenced, we focus on human 
        rights violations by Saddam Hussein, and his associates. We 
        include first-person and eyewitness accounts of the atrocities 
        committed. A quote: ``Iraq under Saddam's regime has become a 
        land of hopelessness, sadness, and fear, a country where people 
        are ethnically cleansed. Prisoners are tortured in more than 
        300 prisons in Iraq. Iraq under Saddam has become a hell and a 
        museum of crimes.''

          Tomorrow, we will introduce a brochure and filmed interviews 
        under the heading of Iraqi Voices for Freedom. These voices 
        represent but a few of the millions of Iraqis whose hopes for 
        the future have been silenced by tyranny.

    We have also focused on certain exchanges that will allow the 
visitors to become unofficial emissaries when they return home.

          49 Arab women came here in November to witness our election 
        process and democracy in action. They couldn't believe the 
        fervor of the debate and then
        . . . the coming to a common resolve . . . the day after 
        election.

          We also invited thirteen women teachers from Afghanistan to 
        enhance their skills and prepare them to train other teachers 
        in their country. They asked us not to forget them . . . and we 
        are working now to send American teachers to Afghanistan.

          We also hosted women from Afghan government ministries for a 
        four-week program in which they met with national and local 
        leaders and received education and computer skills and 
        leadership management. While in Washington, the women also met 
        with Cabinet officers and members of Congress. President Bush 
        himself gave them assurances that the United States will not 
        forget Afghanistan and urged them to tell him, in specific 
        terms, how the U.S. can best help rebuild their country.

          Just recently we asked five northern Iraqi/Kurdish television 
        producers, managers and directors to learn about broadcast 
        operations in the United States. Having viewed the mini-
        documentaries about ``Muslim Life in America,'' these 
        journalists were impressed with this story of freedom in 
        America . . . the pluralistic side too. . . . They are going to 
        substantial risk to take the videos home with them.

    All year, we have been testing many new programs to create models . 
. . prototypes for reaching those millions to whom I referred earlier.
    One such initiative took the form of a series of mini-documentaries 
of Muslim Americans describing their freedom here, their ability to 
practice their faith, and their integration into the life of America. 
These stories were told through paid media programs on television and 
radio and in newspapers, and augmented by speaker programs and a 
booklet on ``Muslim Life in America.''
    And 288 million people were exposed to these messages through pan-
Arab satellite television and newspapers, as well as through the 
national media of Indonesia, Pakistan, and Kuwait during the holy month 
of Ramadan.
    We took Indonesia as a case study, tested the levels of recall and 
message retention, and found them to be significantly higher than, for 
instance, those of a typical soft drink campaign run at higher spending 
levels for more months.
    This kind of exceptional result means that the messages not only 
were relevant, but they were also very interesting. In random taped 
interviews, people on the street made it clear that these messages 
literally opened minds and challenged the carefully taught fiction that 
the Muslims of America are harshly treated, illustrating instead 
religious tolerance is fundamental in the U.S.
    The follow-up--the continuing dialogue--is even more important. 
Indonesia's largest television channel taped a one-hour Town Hall 
meeting between Americans and Indonesians--people to people. Filmed on 
February 7, it will air shortly, reaching 135 million people.
    The ``Muslim Life in America'' booklet previously mentioned is one 
of the most successful pieces we've ever produced. It's now in use in 
overseas schools, libraries, and seminars and even on Malaysia's 
national airline, Air Asia.
    One interesting lesson of this initiative is our discovery that a 
disconnect can exist between leadership elites and ordinary people. The 
elites are often not aware of the depth of misperception and myth 
traveling in their countries.
    Another more obvious lesson is the importance of television as the 
dominant medium in today's information environment. Building on this 
lesson in Egypt, we invited an Egyptian TV group to film the story of 
several USAID projects, highlighting the families that benefited from 
the clean water, the improved education, and the micro-loans that 
resulted. The television coverage, readily available to a mass 
audience, confirmed the commitment of the American people to improving 
the quality of life around the globe. But we need to get these stories 
in a far wider reach--and more artfully.
    Building upon the Shared Values initiative, and aimed initially at 
the Islamic Near East, we are initiating a new program called ``Shared 
Futures,'' which will bring sustained attention to economic and 
political and educational reform in the Muslim world through media 
campaigns, television and media co-ops, and other creative programming 
and in partnership with the local institutions.
    Our lessons have come fast and hard this year. We learned the 
importance of good collaboration as a magnifier. The geographic bureaus 
and overseas missions of the Department house our most talented 
resource--people. Our Public Diplomacy Officers need and want training 
in modern marketing and outreach to large audiences. We've formed a 
strong partnership with USAID so the real story of the generosity of 
the American people can be told.
    Perhaps most importantly, we have learned that, for some time into 
the future, we will be dealing with the natural tension between our 
need for security and our desire to be open and inviting. This is 
nicely summarized by our new communication plan on visas, ``Secure 
Borders--Open Doors.''
    These words are a good summary of where we are with the world. Our 
policies must be heard. They deserve powerful advocates, but it is also 
crucial that they be delivered in a proper context.
    Our Open Doors and all that stands for is a message too muffled by 
circumstances today.
    We must have both conversations. We need new programs and sustained 
funding to do this.
    Thank you and I look forward to your questions.

    The Chairman. Thank you very much, Under Secretary Beers.
    Mr. Tomlinson.

  STATEMENT OF HON. KENNETH Y. TOMLINSON, CHAIRMAN, BOARD OF 
             BROADCASTING GOVERNORS, WASHINGTON, DC

    Mr. Tomlinson. Thank you, Mr. Chairman.
    I note the presence in the audience of Director Charles Z. 
Wick who did so much during the Reagan administration to 
increase resources for public diplomacy, and it is great to see 
him here.
    The Chairman. Where is Director Wick? Great to see you, 
Charlie. Thank you for coming.
    Mr. Tomlinson. I will submit my testimony for the record.
    Before I give my brief remarks, I want to pay tribute to 
the leadership that this committee has given international 
broadcasting and public diplomacy over the years. Mr. Chairman, 
I vividly remember the times that Steve Forbes and I came to 
you at the height of the cold war for help and you were always 
there for us.
    Senator Biden, you were the political father of the Board I 
chair. Your vision has been remarkable, and I thank you so much 
for your leadership and we look forward to working with you 
all.
    Mr. Chairman, Secretary of State Powell's presentation to 
the United Nations 2 weeks ago, laying out the case that Iraq 
had failed to halt its banned weapons programs, was beyond any 
doubt among the most important statements in the war on 
terrorism and one that everyone in the world needed to hear.
    Had Secretary Powell delivered that speech only 2 years 
ago, most people in the Middle East would have heard it only 
through the distorted filter of radio and television stations 
controlled by those hostile to the United States. Only a tiny 
fraction would have had the patience to tune into Voice of 
America's Arabic Service that was broadcasting exclusively on 
scratchy short wave.
    Today the situation is very different. Thanks to the 
creation of Radio Sawa and its journalistic leadership, 
millions of people in the Arab world, and most notably the 
people of Iraq, heard simultaneous translations of the 
Secretary's case broadcast live, with later programs that 
reexamined the evidence supporting America's case against 
Saddam Hussein. In an age when Arab boycotts of American 
products are widespread, a U.S. Government-run radio station 
almost overnight has become the most popular voice of its kind 
in major portions of the Middle East, including Baghdad.
    Now, how did this come to be? Months before the horrors of 
September 11, my predecessors on the Broadcasting Board of 
Governors, in no small part energized by my colleague, Norman 
Pattiz, recognized the need for a far greater U.S. broadcast 
presence in the Middle East. These activists, also recognizing 
that in the Middle East short wave is a vehicle of the past, 
set about negotiating agreements that would give us powerful AM 
transmitters broadcasting through the region from Cyprus and 
Djibouti. We added FM stations in Jordan, the United Arab 
Emirates, Kuwait, Qatar, Djibouti. We also broadcast on digital 
audio satellite and the Internet.
    Now, in the beginning some dismissed Sawa because its 
format featured the best of Western and Arabic pop music, not 
understanding this music would attract a huge under-30 audience 
for accurate news and current affairs. Today daily features 
like ``Ask the World'' where statements of top U.S. 
policymakers are used to answer questions from listeners and 
``The Free Zone,'' a weekly discussion of democracy and human 
rights in the Middle East, enhanced Sawa's basic news coverage. 
Whenever important events warrant, Radio Sawa interrupts its 
regular format to present complete and full coverage of events 
like Secretary Powell's presentation or President Bush's 
network address to the Nation a few weeks ago or last evening's 
AEI's speech projecting the President's vision for a post-
Saddam Iraq. That speech, by the way, was also carried live on 
VOA's ``Worldwide English.''
    It is little wonder that Nicholas Kristof of the New York 
Times called Sawa ``the triumph of the Bush administration's 
focus on public diplomacy abroad.''
    Now, Sawa may be the star of our efforts in the war on 
terrorism, but it is only one of our recent initiatives and it 
represents only one approach to international broadcasting. We 
have added Radio Farda 24/7 service to the youth of Iran while 
maintaining VOA Persian broadcasting by television and radio 
and the Internet for older audiences. And Mr. Chairman, I will 
also submit for the record a recent New York Times article, 
``U.S. Uses a Powerful Weapon in Iran: TV.''
    The Chairman. It will be included in the record.
    Mr. Tomlinson. Thank you, sir.
    [The New York Times article referred to follow:]

       [From The New York Times, Arts & Ideas, December 7, 2002]

                U.S. Uses a Powerful Weapon in Iran: TV

               (By Lynette Clementson with Nazila Fathi)

    Washington, Dec. 6--The letter, written in Farsi, was as 
tantalizingly mysterious as the videotape it was wrapped around. 
``Excuse the unprofessional quality of the video,'' wrote the sender, a 
young Iranian, ``We didn't want to attract authorities by using a 
production crew.''
    On the tape was a jolting series of interviews with frustrated 
Iranians complaining about their country's stalled political reforms 
and the repressiveness of its ruling mullahs.
    The unsolicited video was sent not to the C.I.A. but to the young 
Iranian cast of ``Next Chapter,'' a hip, new MTV-inspired television 
show broadcast from the Voice of America headquarters here and beamed 
to Iran via sateliite. The sender, who had smuggled the tape out of 
Iran and mailed it from London, could not broadcast the hotly political 
material on government-controlled Iranian television, so he appealed to 
his Iranian peers in the United States.
    The subject was more controversial than the show's typical fare, 
which intersperses bites of politics and hard news with fast-cut 
segments on sports, movies, fashion and cars. But the show's hosts 
broadcast it anyway, between a piece on the winners of the third annual 
North American Wife Carrying Contest in Newry, Maine, and an interview 
with Jay Leno.
    ``We know that so many young people in Iran are fed up, and they 
just want to be heard,'' said Roozbeh Mazhari, 29, one of the hosts of 
``Next Chapter,'' referring to the sandwiching of the tape. ``But they 
also want some fun.''
    While the United States is bracing for a possible military 
offensive in Iraq, behind the scenes a soft war is well under way. It 
is aimed at winning the hearts and minds of young people in the Middle 
East a time when radical Islamists are encouraging anti-American 
sentiment.
    In Iran, dissatisfaction with the islamic regime has been building 
for years. In recent weeks, it has led to pro-democracy protests in the 
streets of Tehran over the death sentence given to a reformist scholar. 
This sea change has created new opportunities for influencing opinion.
    ``Next Chapter,'' which had its debut on Sept. 10, is one of 
several recent projects that are putting a new spin on old-fashioned 
American propaganda.
    Some programs are directed by the State Department, which last year 
hired Charlotte Beers, a former Madison Avenue advertising executive, 
to devise a multimillion-dollar public diplomacy campaign, complete 
with academic exchange programs and slick public service 
advertisements, to soften anti-American feelings.
    In a separate venture, the Broadcasting Board of Governors, the 
government agency that oversees Voice of America, received $35 million 
this year to start a youth-oriented Middle Eastern radio network. 
(Voice of America's programs are run by journalists, and their content 
is not subject to State Department approval.) The network, called Radio 
Sawa (``sawa'' means ``together'' in Arabic), sprinkles news tidbits 
written from an American perspective into a heavy rotation of American 
and Middle Eastern pop music.
    Later this month the board will begin broadcasting a similarly 
formatted $8 million venture in Iran called Radio Farda (``farda'' 
means ``tomorrow'' in Farsi).
    ``Next Chapter,'' produced by the Voice of America's Farsi service, 
has a comparatively small startup budget of less than $1 million.
    The new programs' youthful direction is dictated by demographics. 
Like many Middle Eastern countries, Iran has many people under 30, 
roughly 70 percent of its 66 million citizens. ``These are not 
traditional users of U.S. government-sponsored news,'' said Norman J. 
Pattiz, chairman of the Broadcasting Board of Governors' Middle East 
committee. ``We can reap terrific dividends by talking to these young 
people directly in a way they understand.''
    Some believe that soft tactics are far wiser than military might. 
``America is so much more than its military and economic prowess,'' 
said Reza Ladjevardian, 36, an Iranian writer based in Houston. ``The 
people of Iran have seen that fundamentalism doesn't work. Appealing to 
them with cooperation and reasoning, rather than `axis of evil' talk, 
is a virtually risk-free proposition for the U.S.''
    The cast of ``Next Chapter'' agrees. This weekly program tackles 
topics ranging from political talk over a possible war with Iraq to 
street talk over ``8 Mile,'' the rapper Eminem's hit movie, now making 
its way through the Middle East on pirated DVD's. The show carefully 
avoids direct criticism of Iran's Islamic regime; its style is subtly 
subversive.
    A recent entertainment segment, for instance, profiled the Cuban 
jazz trumpeter Arturo Sandoval, who did not have a word to say about 
Iran or Iranians but talked movingly about fleeing a repressive regime 
for political and artistic freedom. The interview with Jay Leno focused 
on using comedy to criticize politics.
    Another segment showed Iranian students at the University of 
Maryland enjoying Mehregan, a traditional Persian fall festival, 
without mentioning directly what viewers in Iran already know: that 
this secular holiday's celebration is discouraged hy the country's 
religious leaders.
    A regular feature called ``A Day in the Life'' uses a reality 
television approach to showcase ordinary Iranian 20-somethings living 
in the United States. As the jumpy camera followed Anahita Sami, a 20-
year-old student, and her friends around the campus of George 
Washington University, she chatted about dorm life, exams, being away 
from home for the first time, nothing particularly exciting. But the 
point is made: Yeah, she can wear those clothes, say those things and 
do that stuff.
    ``We need to get this generation ready for something new,'' said 
Ahmad Baharloo, who directs Voice of America's Farsi service and is 
executive producer of ``Next Chapter.'' ``We don't want to tell them 
what to do, but make them look and think and respond to logic.''
    The show, which is simulcast on the radio and over the Internet, is 
too new, Voice of America officials said, to have data on the number of 
viewers. Early feedback suggests it is reaching only a tiny slice of 
its potential audience. Iranians have complained to Voice of America 
that they can't find the show on their satellite channels, and when 
they do, the signal is too weak for good reception.
    Still, there is evidence of a sprouting fan base. Amateur videos, 
like the one from London, have arrived from Iranians in Japan and 
Seattle. Web hits to Voice of America's Farsi service, at voanews.com/
farsi/, spiked by the hundreds in the weeks after the show's premiere.
    There are also e-mail messages from eager viewers like Hadi, a 
Tehran teenager who wrote that he and other teenagers in his apartment 
building were gathering to listen to the show on the radio because they 
could not get it on television. ``I wish we could ask President Bush to 
send us a digital satellite so we can see your show,'' Hadt wrote, 
adding that his friends held a candlelight vigil in observance of the 
first anniversary of the Sept. 11 attacks.
    There has, however, been considerable criticism of the new youth-
driven government efforts. Some say the new shows are so soft that they 
are condescending. And in Iran, where conservative factions of the 
government have recently closed down dozens of independent news 
publications, political strategists argue that there is greater need 
than ever for serious news.
    ``Yes, youth may want to listen to music and watch fun TV,'' said 
Nasser Radian, a professor of political science at Tehran University 
who is currently a visiting professor at Columbia. ``But there is still 
an audience hungry for real analysis, and the United States is wasting 
an opportunity if they ignore that.''
    Mabtab Farid, who worked until recently as a political reporter on 
``Next Chapter'' and is now part of the news team for Radio Farda, 
agrees that hard news is essential. But she said young people in Iran 
and elsewhere in the Middle East were also eager for new ways to reach 
across cultures.
    As a child in Iran in 1979, Ms. Farid, 29, watched American news 
clips of the hostage crisis at the United States Embassy in Tehran. ``I 
remember yelling at the TV,'' she said. ``I would say: `Those stupid 
journalists! They keep saying Iran has taken America hostage. Don't 
they know it's just a small group of bad people? Don't they know we 
don't all hate America?' ''
    She says the experience helps her understand what it must be like 
for Iranian youth who now feel marked by the ``axis of evil'' label.
    ``We know what's missing on each side because we have been on both 
sides,'' Ms. Farid said. ``These shows give us a special tool to reach 
from one side to the other.''
    The cast of ``Next Chapter'' is still struggling for the right 
balance in content. The program has referred to the recent student 
protests in Iran in its brief news segment, but so far it has avoided 
commenting on them.
    ``You cannot spend every minute of the day on politics,'' Mr. 
Baharloo said. ``Part of our job with the show is to give the young 
people a rest.''
    Still, some messages are getting through. On a recent Tuesday night 
in Tehran, four men and two women sat around a 29-inch television in 
the home of Pooya, a 30-year-old rug merchant, waiting to watch the 
show.
    The friends giggled over the cast members' Farsi, which they said 
sounded a bit too American and informal. And they weighed in on the 
movie and car reports, which they agreed were cool.
    The show opened with a segment on the American Humane Society and 
the importance of protecting animals: a seemingly mundane topic but 
timely in Iran. One of the country's hard-line Muslim clerics had 
recently declared dogs unclean and called on security forces to stop 
people from walking them in public. As the group listened intently. 
Pooya's younger brother, Ali, patted the family dog and nodded his 
approval.

    Mr. Tomlinson. VOA has added a new Arabic language Web site 
aimed at opinion leaders throughout the region. Combined 
signals of VOA and RFE/RL's Radio Free Afghanistan delivers 
news and information for an astonishingly high audience there. 
VOA and Radio Free Asia have doubled broadcast hours to North 
Korea, and we hope to do more. We need to do more.
    Meanwhile, RFE continues to build on its record of 
scholarship and journalistic integrity to a largely 
information-deprived part of the world. Nineteen of RFE/RL's 34 
language services broadcast to nations with a Muslim majority. 
But in my view the most important public diplomacy initiative 
of our time can be found in President Bush's 2004 budget 
request that would help make a U.S. Arabic language television 
network a reality in the Middle East, echoing what you 
proposed, Senator Biden, 2 years ago.
    In the days following the administration's announcement, 
Congress also made available seed money for Arabic television 
in the 2003 budget, and that is going to be very important to 
us. With the spirit that built Sawa, we are hard at work hoping 
to make Arabic television a reality as soon as possible. 
Everyone now recognizes that direct to home satellite 
television is not only the biggest media phenomenon to hit the 
Arab world since the advent of television. It is also the 
biggest political phenomenon. Al-Jazeera should not go 
unanswered in the Middle East. We need to present to the Arab 
world the kind of pluralism of opinions and openings to a 
broader world that Thomas Friedman says will act like 
nutcrackers to open societies and empower Arab democrats with 
new tools.
    Finally, on this day as I sit before you with my esteemed 
colleague, Under Secretary Beers, I think we need to understand 
the importance of maintaining the strength of public diplomacy 
and the traditions of international broadcasting. I am 
convinced that we will not be successful in our overall mission 
of delivering our message to the world if we fail to grasp that 
these are two different spheres and they operate according to 
two different sets of rules. It is very important that 
government spokesmen take America's message to the world 
passionately and relentlessly, just as you have done. We should 
not be ashamed of public advocacy on behalf of freedom and 
democracy in the United States of America.
    International broadcasting, on the other hand, is called 
upon to reflect the high standards of independent journalism as 
the best means of convincing international audiences that truth 
is on the side of democratic values. These arms of public 
diplomacy should be parallel pursuits because the effectiveness 
of either is adversely affected when one attempts to impose its 
approach on the other.
    I remember 30 years ago when RFE/RL and VOA began 
broadcasting the Watergate hearings. These broadcasts caused 
heartburn for many in Washington, but looking back, we see it 
constituted a veritable civics lesson on the importance of 
separation of powers and the rule of law. Over the years I have 
heard so many citizens of post-Communist countries tell how 
those broadcasts helped them understand the real meaning of 
democracy.
    We in America are fortunate: telling the truth works to our 
long-term advantage. That is why international broadcasting is 
so important in this country. That is why our radio and TV 
voices to the world need to be stronger, and that is why we 
need Arabic television.
    We look forward to your questions and we thank you very 
much for your interest.
    [The prepared statement of Mr. Tomlinson follows:]

       Prepared Statement of Hon. Kenneth Y. Tomlinson, Chairman,
                    Broadcasting Board of Governors

    Secretary of State Colin Powell's speech to the United Nations two 
weeks ago laying out the case against Iraq was beyond any doubt among 
the most important statements in the war on terrorism, one that 
everyone in the world needed to hear.
    Had Secretary Powell delivered that speech only two years ago, 
however, most people in the Arab Middle East would have heard it only 
through the distorting filter of radio and television stations 
controlled by those hostile to the United States. Only a tiny 
fraction--perhaps no more thau one or two percent of the entire 
population--would have had the patience to tune in to the Voice of 
America's Arabic Service that was broadcast exclusively on scratchy 
short wave.
    But last week, the situation was very different. Thanks to the 
creation of Radio Sawa, a new program of U.S. international 
broadcasting, millions of people in the Arab world heard his speech as 
it was delivered--without the kind of distortions the media in the 
region all too often insert. Informal survey data show that Radio 
Sawa--the name means ``together'' in Arabic--is already the most 
popular station in many Arab capitals and has gained a significant 
audience even in Saddam Hussein's Baghdad!
    Indeed, Radio Sawa has been so successful that one American 
commentator, Nicholas Kristof of the New York Times, has called the 
station ``the triumph of the Bush Administration's focus on public 
diplomacy abroad.''

                      VICTORIES ON THE MEDIA FRONT

    Success for America's international broadcasting combines two 
essential ingredients: trust earned by accurate reporting--which is 
critical to a democratic people's ability to make informed decisions. 
And a free open channel to the other ideas that are at the center of 
this nation's being. We are a nation built on ideas. Our international 
broadcasting must always reflect, examine, question and illuminate 
these ideas. Truth about the events we report is as critical to our 
mission as explaining to our audience why we value the truth.
    Allow me to tell you something more about the Sawa success story--
and also about some of the other successes in U.S. international 
broadcasting--not only because they are so impressive on their own and 
important in our war against terrorism but also because they point the 
way to the future.
    Months before even the horrors of September 11, my predecessors on 
the Broadcasting Board of Governors--in no small part energized by my 
colleague Norman Pattiz--recognized the need for a far greater U.S. 
broadcast presence in the Middle East. And they set about negotiating 
agreements that would give us powerful AM transmitters broadcasting 
throughout the region.
    With your support, the U.S. Broadcasting Board of Governors 
launched Radio Sawa eleven months ago. A 24/7 service with 48 newscasts 
a day interspersed among a mix of Western and Arabic popular music, the 
station's signals go out on a combination of AM and FM transmitters 
across the Middle East as well as via digital audio satellite, short 
wave, and the Internet. Because Radio Sawa represented such a radical 
departure from longstanding international broadcasting approaches, many 
were skeptical. But our surveys and reports from independent observers 
across the region highlight the new reality: in the Arab Middle East, 
Sawa has won the U.S. an audience including not only the young--who 
make up the vast majority of the population there--but also older 
people who turn to it for news and information.
    When we launched Radio Sawa on March 23, 2002, we blanketed the 
Middle East, using a carefully conceived combination of medium wave and 
FM transmitters, digital audio satellite, short wave and the Internet. 
We installed a high-powered AM transmitter in Cyprus, and we're poised 
to begin service from another long-range AM transmitter in Djibouti. 
Our listeners in Iraq are getting their signals from an AM transmitter 
in Kuwait. Many of our allies in the Middle East--Jordan, the United 
Arab Emirates, Qatar, Bahrain and Djibouti have given us our own FM 
stations. In addition, Radio Sawa currently has four customized 24/7 
programming streams for Iraq, Jordan, the Gulf, and Egypt/Levant.
    Radio Sawa news is twice an hour (a full newscast is up to 10 
minutes) provides Arabic listeners the kind of comprehensive, balanced 
and up-to-the-minute news this audience needs to make informed 
decisions. In addition, Radio Sawa broadcasts many other substantive 
programs including: ``Ask the World Now,'' where statements of top U.S. 
policymakers are used to answer questions from listeners; ``The View 
from Washington,'' where a daily summary of major-U.S. policy 
statements on Iraq; and ``The Free Zone,'' which addresses broader 
topics such as democracy building, and human rights with special 
emphasis on women's rights. All of these programs are intended to 
fulfill Sawa's motto: ``You listen to us; we listen to you.''
    At the same time, the Voice of America has set up a special VOA 
Arabic Web site to help spread America's message in Arabic to 
journalists, opinion leaders, and officials throughout the region. Many 
members of this elite audience have already signed up to the site's 
daily news delivery by e-mail, and many journalists are drawing on 
these materials to prepare their own articles. Some of them are even 
publishing VOA materials on Anerican policy in their own newspapers or 
re-broadcasting them to audiences who might not have any other access 
to American opinion.
    U.S. international broadcasting has not neglected other key parts 
of the Middle East and the Muslim world more generally. VOA with its 
recently revamped Cantonese Service and recently expanded Indonesian 
Service, Radio Free Europe/Radio Liberty and particularly its Central 
Asian and Caucasus services, and Radio Free Asia also carried Secretary 
Powell's speech as well as additional extensive coverage of the 
rationale for the war on terrorism. Nineteen of RFE/RL's current 34 
broadcast languages are for countries or regions whose populations are 
primarily Muslim.
    Most recently, we at the BBG have combined the signals of VOA and 
RFE/RL's Radio Free Afghanistan to produce a 24/7 news and information 
radio stream for Afghanistan. We have begun to broadcast on FM in 
country and are working to launch an AM capability by May of this year. 
Afghans have a long tradition of listening to our broadcasts and our 
new combined effort is attracting even more. To ensure that we reach an 
even greater percentage of the audience there, we have installed FM 
transmitters in the Afghan capital Kabul so that people there can hear 
our programs more easily. We've provided an FM transmitter to the 
Afghan government itself. We plan to install FM transmission in several 
other major cities as soon as the security situation permits. And we 
plan to turn on our new medium wave AM transmitter in May 2003, a 
station that will allow everyone in Afghanistan to listen to our 
broadcasts on this more accessible channel.
    We have also launched a major effort to reach the young people of 
Iran. In December, the Broadcasting Board of Governors established 
Radio Farcia--``Radio Tomorrow'' in Persian--to provide a 24/7 stream 
of programming for the people of Iran. President George W. Bush said 
during its first broadcast that ``the Iranian people tell us that more 
broadcasting is needed because the un-elected few who control the 
Iranian government continue to place severe restrictions on access to 
uncensored information.''
    A joint effort of VOA and RFE/RL, Radio Farda which broadcasts more 
than five hours of original news and substantive content in addition to 
music every day--has been an overnight success. For obvious reasons, we 
can't do survey research in Iran. But in the first few weeks alone, 
thousands of Iranians have sent us e-mails to thank the U.S. for 
reaching out to the Iranian people over the heads of the Iranian 
government. A typical e-mail received only last week including an 
expression of thanks to all the Americans behind this effort and 
expressing the hope that there will soon be ``justice and liberty'' in 
Iran and that soon the Iranian and American flags will be flying next 
to each other.
    This is progress in the war against terrorism. Ideas are the major 
battleground in this war. We are getting America's ideas of individual 
freedom, equality, toleration, and limited government across. And we 
are succeeding where it matters: by reaching directly into the hearts 
and minds of a tremendous audience whose other sources of information 
repeatedly, deliberately, and grotesquely misrepresent who we are, and 
what we stand for.

                     THE CHANGING MEDIA ENVIRONMENT

    But as important as these breakthroughs on radio and the Internet 
are, today they are not enough. The battleground has shifted, and that 
is why I appear before you today.
    Television and especially direct-to-home satellite television is 
traasforming the media environment across the region. All of you know 
about the impact of the 24-hour news satellite channel Al-Jazeera. Its 
reports have become a staple of our own nightly news. And its impact, 
along with that of other international satellite channels on the 
region, is now far greater than any other media. That new reality 
prompted Thomas Friedman of the New York Times to observe that 
satellite television is ``not only the biggest media phenomenon to hit 
the Arab world since the advent of television; it also is the biggest 
political phenomenon'' across that region.
    The Administration is proposing that we create just such a channel 
to counter the lack of depth and balance that help to create 
distortions and misrepresentations when these stations report on the 
United States, its policies and its people. As Chairman of the 
Broadcasting Board of Governors, I am proud to have this opportunity to 
make the case for the creation of a U.S. Arabic language satellite 
television channel. Our case rests on three fundamental facts of 
political life in the Middle East:
    First, as I've already noted, television has already become the 
most important medium in the region for news and information. The 
transition from the world of the nomad to modernity, from a newspaper-
centric to radio-centric to a television-centric media environment has 
taken place at breathtaking speed across the area. Surveys consistently 
show that more than four out of five people in the Middle East get all 
or almost all of their news from television and that they trust 
television more than any of the other media channels.
    Second, satellite television offers the chance to break the grip 
that governments in the region now exercise over most radio and 
television news outlets. As such, it promotes the kind of pluralism of 
opinions and opening to the broader world that is, again in Friedman's 
words, ``acting like nutcrackers to open societies and empower Arab 
democrats with new tools.'' The United States has an interest in 
promoting democratic change in these countries, and promoting 
competition and openness in the electronic media is an essential 
element in our campaign to do just that.
    Third, the kind of reporting that U.S. international broadcasting 
has always done--providing accurate, balanced and reliable 
information--over time will win us more long-term and reliable friends 
than anything else we might try to do. As a former director of the 
Voice of America and editor-in-chief of the Readers' Digest, I can tell 
you that there is a real hunger for such information and that by 
providing it we will find that we have more friends in the world than 
many now suspect.
    But in my view, the most important public diplomacy initiative of 
our time can be found in President Bush's 2004 budget request that 
would help make a U.S. Arabic-language television network a reality to 
the Middle East. In the days following the Administration's 
announcement, Congress also identified seed money for this Arabic 
television effort in the 2003 budget.
    September 11, 2001, changed the way we must approach international 
broadcasting. We thus propose ending most VOA and RFE/RL broadcasting 
to the democracies of Eastern Europe where free speech is practiced and 
where the process of joining the NATO alliance is under way. The 
closing of these services, whose employees have so gallantly served the 
cause of freedom, will bring a moment of sadness to many of us who saw 
victory in the Cold War as a direct result of these radios. But we 
should remember at the same time that the goals these services 
struggled and sacrificed for has been achieved, and they should take 
great pride in the role they played in this historic mission.
    Our task now is to draw upon our previous success in the Cold War, 
to go forward with the new war of ideas as we offer democracy, 
tolerance, and self-government as the positive alternative to tyranny, 
fanaticism, and tenor. And if we are given the funds the President has 
requested for Middle East television, I am confident we can build an 
Arabic-language satellite television station we'll all be proud of. 
Moreover, its launch will make a major contribution toward helping the 
peoples of the region move away from extremism and violence and toward 
democracy and freedom in what we all hope will soon be a post-Saddam 
Middle East.

          TOWARD A BROADER INTERNATIONAL BROADCASTING STRATEGY

    When the United States launched its international broadcasting 
effort more than a half century ago during World War II, there was only 
one channel available: short wave radio. We could broadcast into 
countries from the outside only in this way, and we did so across the 
world. In the 1940s, '50s, '60s, and '70s, people around the world 
listened to the Voice of America and Radio Free Europe/Radio Liberty 
exclusively on short wave. Our message got through, and many of those 
who made the democratic revolutions in Eastern Europe and the former 
Soviet Union were regular listeners. When asked about the importance of 
international broadcasting for his country, Polish leader Lech Walesa 
responded ``Can you imagine the earth without the sun?''
    But with the collapse of the Soviet empire and with the 
simultaneous advance of technology, the range of choices available to 
us to deliver our message has increased dramatically. In addition to 
short wave, we now can broadcast on medium wave both AM and FM through 
affiliate stations, deliver text, sound and pictures via the Internet, 
and broadcast television both a through affiliates and via satellite. 
And we need to choose carefully the combination of these various 
technologies to ensure that we effectively reach every one of our 
target audiences.
    In making that choice, we need to remember that one size does not 
fit all. In some markets, we will need one kind of programming and in 
others a very different kind. Moreover, in some places, we will be best 
able to reach our audience via television, in others via the Internet, 
and in still others via radio either short or medium wave.
    We need to keep in mind that no media market is monolithic. We have 
to make choices about which parts of that market we most want to reach. 
In some cases, we may need to use more than one channel to do so. In 
the Middle East, I am confident that a combination of Radio Sawa, RFE/
RL's Radio Free Iraq, Arabic language Internet, and a U.S. Arabic 
language satellite television is the best answer. But I would not 
advocate the sane combination or the same type of programming for other 
markets.
    And we need to keep in mind that the media scenes in many countries 
are changing so quickly that unless we constantly evaluate what we are 
doing, we may be left behind. We must carefully monitor the situation 
in all countries around the world and evaluate what we need to do 
relative to American policy concerns and financial limitations. And at 
the same time, we also must move to create a U.S. international 
broadcasting system that is sufficiently flexible to allow us to shift 
resources in a timely manner. I along with all the other members of the 
Broadcasting Board of Governors consider this to be our most important 
challenge. I have already spoken about some of the steps we have taken 
in this direction. And all of us look forward to discussing the 
implications of this with you both now and in the future.
    Let me conclude my statement with some reflections on the 
relationship between traditional public diplomacy and international 
broadcasting. I am convinced that we will not be successful in our 
overall mission of delivering our message to the world if we fail to 
grasp that these are: two different spheres and that they operate 
according to two different sets of rules. Indeed, we must always 
remember that each is most successful when it does so and least 
effective when it attempts to impose its approach on the other. This 
Committee well recognized these differences when it considered the 
International Broadcasting Act of 1994.
    Traditional public diplomacy involves government spokespersons here 
in Washington and around the world taking America's message to the 
world passionately and relentlessly to foreign officials and foreign 
audiences. International broadcasting, in contrast, is most effective 
when it operates first and foremost according to the highest standards 
of independent journalism. It is based on establishing a direct line of 
trust between those delivering news and information and those consuming 
it, and consequently, reliable, accurate news and explicit 
identification of policy programs is a requirement for success.
    This is something officials in Washington and Americans in general 
are not always comfortable with. I well remember 30 years ago when RFE/
RL and VOA broadcast the Watergate hearings as part of their 
responsibility to report the news accurately and fully. Some here in 
town and even more outside in the country at large thought this was a 
mistake. Why were we paying taxes to finance broadcasts about our 
problems? But I can tell you that I have met so many citizens of the 
post-communist countries who have told me that it was precisely these 
broadcasts so long ago that helped them understand why democracy and 
freedom are so important. After all, they've told me, under communism, 
who could imagine that their rubber-stamp parliaments would ever 
investigate a sitting president, let alone take steps to bring him 
down?
    We in America are fortunate: telling the truth works to our 
advantage, and it works to the advantage of those we tell it to. More 
than a decade ago, we celebrated the demise of communism in Europe and 
the special role that U.S. international broadcasting played in first 
breaching and then bringing down the Iron Curtain. Now, we confront 
another barrier, what Thomas Friedman has called ``an iron curtain of 
misunderstanding separating America and the Arab-Muslim world.''
    Many view this barrier as being even more insurmountable than the 
old one that divided Europe. But with your help and support for a U.S. 
Arabic-language satellite television system, I am confident that we 
will have equal success and successfully overcome what now divides us 
from the Middle East.

    The Chairman. Thank you very much, Mr. Tomlinson.
    On our first round, we will adopt a 7-minute limit, and let 
me commence the questions by saying to both of you, as you 
could tell from the opening statements, or really, if you have 
witnessed any of our most recent hearings, the committee is 
usually more enthusiastic about the project than the witnesses. 
Now, this is not always the case. You are under some 
constraints, and we realize that. The purpose is not to 
embarrass you.
    But at the same time, we have exhorted the administration 
to plan much more comprehensively for Iraq, and we are pleased 
that that is occurring. One could argue that was already 
occurring prior to our having hearings about this. I 
acknowledge all sorts of things occur unknown to this 
committee. But nevertheless, this does seem to be accelerating 
and we appreciate the feedback coming from the administration. 
I cite that as an example at least of the sort of feeling I 
have with regard to today's hearing. I think it is shared by my 
colleagues.
    In essence, I am disturbed. Senator Biden mentioned 
specifically our excellent interview with the Bulgarian Foreign 
Minister and Defense Minister in a coffee we had just this 
week. And as he pointed out accurately, the burden of their 
major plea was Radio Free Europe.
    Now, we all went back to the drawing board to see what 
happened to Radio Free Europe, and what appears to have 
occurred, as well as what happened to the exchange programs 
that my colleague cited--he mentioned the Fulbright program. I 
would mention the Congress-Bundestag Youth Exchange Program 
which has been critically important I believe, particularly in 
the east of the country over the course of the years. All these 
exchange programs apparently are $150 million less, 2,450 less 
exchange participants. The Radio Free Europe business is just a 
part of a general pulling back from former Eastern European and 
Baltic States, almost on the principle, as in foreign aid. We 
used to have sort of a graduation out of foreign aid on 
something else, self-sufficiency. I believe this is 
shortsighted and I am uncertain--at least as we get into the 
reauthorization situation in a bipartisan way, we want to try 
to correct it.
    Now, at that point, we will probably run into a collision 
of one sort or another, that is, with the limits that were 
imposed upon you as you reduced all these programs going 
downhill or OMB or the Presidential budget or what have you. So 
I am not certain as we head out into those territories who we 
find.
    But on the other hand, I think we have a feeling these 
things are very important and, as a matter of fact, a 
vindication really of those who have been involved in both 
broadcasting and journalism for a long time. Not only are they 
appreciated, but these governments that are fledgling 
democracies, new members of NATO and trying to be a part of 
Europe are saying essentially they need this for the integrity 
of public information in their countries even as they develop 
these resources. They are a benchmark and at least a signal of 
what the United States thinks and does. And that is important 
in these countries. It ought to be important to us that they 
believe it is important as subscribers to this.
    Now, leaving that point, let me just say that later on we 
will hear some data from the Pew Foundation, and I will not try 
to preempt that testimony in the second panel. But it makes an 
interesting point on one of the charts that in the sort of 
general question of whether you like us or you do not, the 
United States is doing extraordinarily well in Uzbekistan, and 
this is a country that for many Americans was off the radar 
screen until 9/11. It is on the radar screen now. As a matter 
of fact, more active diplomacy has occurred, visits even by the 
President of the country over here with some of us.
    On the other hand, Jordan, in terms of public opinion with 
regard to whether we pay attention to their government--that 
was one of the questions asked--or what they think about the 
war against terrorism--is really a disaster as far as very much 
sympathy or rapport with the United States of America.
    Now, some analysts who are outside this hearing and are 
talking about the Middle East in general would say this 
reflects the fact that diplomacy with regard to Israel and the 
Palestinians has not gone very swiftly. As a matter of fact, 
that is the issue for countries that are in proximity to the 
Israeli-Palestinian question. Uzbekistan more off in the 
Afghanistan area where we have been active in other ways maybe 
is a different story, and I understand these demarcations.
    But at the same time I would just say simply this is a 
confusing picture, albeit the date of it was December and life 
goes out and you are pointing out dynamic efforts that sort of 
take hold bit by bit.
    Can you make any comment about these two issues? First of 
all, the budgetary issues. What sort of support do you need 
from us? In your own mind's eye, what would you do if you had 
the latitude to do it? And second, explain this extraordinary 
change in data, say, between Uzbekistan and Jordan as one of 
the sharpest of the contrasts? Ms. Beers?
    Ms. Beers. The budgetary issue is familiar to all of us, in 
that the President's budget gets an amazing amount of restraint 
based on all of the many things to be done. And that is why our 
budget is basically straight-lined, although it has variations 
on the theme.
    I think the way I take that challenge is to use the money 
we have to put in place test models that you would be 
comfortable, if rolled out, would be very successful in 
engagement. And we have not failed to do that. We have a number 
of programs. And now I think we are before you saying that we 
need a fairly sweeping change in terms of how we make up our 
long-term strategic direction in terms of engagement, and with 
that will come the consequences of not only funding but people 
and maybe a very important other element that I would like to 
add to that mix and that is the machinery to tap into the 
talent pool of the United States. It is troublesome to me to 
have CEOs and advertising executives around the world say I am 
ready to help and we do not have the system and the process to 
activate them. That is the budget issue.
    The dichotomy between a country like Jordan and Uzbekistan 
is partly the degree of hope and momentum that the country 
itself has and its closeness to the United States in terms of 
an emerging democracy. I do not know if it applies as much to 
Uzbekistan or not but the Freedom Support Act influenced very 
interestingly the ability to do what used to be done, 
libraries, American Corners, access points, much more 
generosity in exchanges and teaching. It was like that money 
was held intact. And I think you will find that a really 
positive effect, and if you look at those numbers, it might be 
fair to draw a course conclusion that that was additive, that 
that was a way of being that we would like to return to.
    Maybe Ken would like to add.
    Mr. Tomlinson. Mr. Chairman, we were so budget-starved, we 
were so money-starved in international broadcasting that 2 
years plus ago in the weeks before 9/11, we came close to 
eliminating the Uzbek service. Now, that is astonishing. In the 
10 years following the end of the cold war, support for 
international broadcasting declined 40 percent in real terms.
    Now, this past year--and God knows, being before this 
committee--I grew up on the Blue Ridge Mountains, and as a boy 
I used to go to revival meetings and the revival meetings would 
cause you to focus to get more enthusiastic about what you are 
supposed to be doing.
    The Chairman. That is what we do here, these revival 
meetings.
    Mr. Tomlinson. It is an experience just like that.
    I am very proud of the fact that we got a 10 percent 
increase in our budget out of OMB this last time, which was 
rather remarkable considering the budgetary constraints of our 
time.
    But without question, I still think that Arabic television 
to the Middle East is our most important initiative, and I know 
you do, Senator Biden, or at least you gave us the vision for 
it. And when we look at the changes post-9/11, we have to come 
to the reality that these television programs are vitally 
important to us.
    But I appreciate your views on the other issues. I have 
spent time in Bulgaria and the Baltic States, and know the 
importance of broadcasting.
    The Chairman. Thank you. My time is expired.
    It would appear to me and other members of the committee 
that depending upon circumstances as they may flow in Iraq, 
that the administration is likely to approach the Congress for 
substantial supplemental appropriations, that we are going to 
have a sizable debate outside of the normal budgetary picture. 
At least in this Senator's opinion, that is what we are talking 
about in terms of public diplomacy and the course of that is 
tremendously important.
    I would ask that if you have models that you have rolled 
out, as you described this, Ms. Beers, that you make these 
available to the staff of the committee, both Republicans and 
Democrats, so that we have some idea of what the thoughts are 
that you have already researched so we do not reinvent the 
wheel. I think in a rapid way, in our authorization process, 
which is the old-fashioned way--and we are trying to push 
through that this year--we may likewise have a more emergency 
situation with a supplemental appropriations debate. And that 
may offer further opportunities to fulfill the revival spirits 
of our meetings.
    Senator Biden.
    Senator Biden. Praise the Lord.
    I really do not think there is anything that we are going 
to undertake in this committee that is more important. There 
are some things as important, but not more important.
    I just want to do a little review so you all know, as they 
say, where I am coming from on this. What is being heralded 
accurately as just an incredible success is Sawa. For those 
listening, what that is is a radio broadcast in the Middle East 
that hits Oman, Kuwait, the UAE, even into Iraq. I just want to 
review the bidding here.
    We had a big fight with the last Board several years ago 
about an idea that one person gets credit for, Norm Pattiz. I 
went to Norm Pattiz and recommended him to the last President 
to put him on the Board because this is a guy who made a 
billion bucks getting people to figure out how to listen to 
radio. If we were going to decide how we are going to get into 
Arab horse racing, Ken, you would be the first guy I would go 
to. I am not being facetious.
    And so what did we do? It was something totally 
unconventional. Pattiz is the guy, if you fly across the 
country and you put on that headset and you listen to rock 
music or any music where it is interspersed with interviews 
with the musician, it is interspersed with talk about how the 
song is written--it is that whole deal--who put that package 
together. I kid him. I say he is the only guy involved in 
public diplomacy, when he tries to get something done, he flies 
his own G-5 to the area. Well, he did that learning how to get 
people to listen to the radio.
    You may remember the big argument was that what is our 
target audience. Let me remind everybody here. And I will not 
go through it all, but let us just take Turkey, 19 million 
people between the ages of 15 and 30. In Iran, 23 million 
people between the ages of 15 and 30. In India, 114 million 
people to target. In Indonesia, 58 million.
    How do you get these people to listen? It sure is not by an 
all-news program. Does anybody in this country between the ages 
of 15 and 30 tune in in any numbers to public broadcasting? It 
is an incredibly important means of communication.
    What do they do? They listen to rock stations. Do you know 
the single best-known people are in Egypt? The same people who 
are the single best-known people here. A lot of people know our 
chairman, but they know Britney Spears a hell of a lot better.
    And if you are going to communicate to this age category, 
it is one thing to have former Chairman Joe Biden on a 
broadcast into Oman talking about U.S. policy. It is another 
thing to have the rock star, and the best-known people in 
Jordan are rock stars. The best-known people in Egypt are rock 
stars. I do not think we know that. We know so little about the 
Muslim world, we assume that it must be clerics, that their 
version of Jerry Falwell or Pat Robertson is what is best 
known. Fine men. I do not mean that as a knock.
    And conservative journalists and a lot of other people say 
this is no way to communicate an idea and a notion. And 
Pattiz's idea, embraced by you, Mr. Chairman, and others on the 
Board, starting by the way in early 2001 this was put together 
before this administration really got organized--and thank God 
they embraced it and it is a great success. What do you have 
now?
    If you take a look at the listening, 51 percent of those 
young adults listened within the past 7 days to Sawa in Oman, 
25 percent in Kuwait, 30 percent in the UAE. Listening to radio 
station, all adults, 36 percent compared to all other radio 
stations--all other radio stations. I would ask this be 
included in the record.
    The Chairman. It will be included.
    [The charts referred to follow:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Senator Biden. Radio Sawa and local media seen in Oman, 
core target audience. Radio Sawa 92 percent; MBC, Middle East 
Broadcasting, 79; Radio Jordan, 78; Radio Jordan AM, 25; BBC, 
18; Voice of Palestine, 6 percent. That did not exist at all 
before. This is a big deal.
    And the reason why I have been pushing so hard--and I know 
you have been incredibly supportive, Mr. Chairman--for the 
television version of this, as you said in your statement, just 
ride through the Middle East. Everything from a tent, 
figuratively speaking, to the most modest accommodation has a 
satellite dish, one of those little RCA deals or whatever make 
they are. So there is an opportunity here that is immense.
    But my question is this. Based on the analysis that was 
done, we projected that you need for all the Muslim world, not 
just the Middle East, about $250 million of infrastructure, 
including personnel, to be able to replicate the kind of 
saturation--not the same programming--you have accomplished 
with Sawa. Why has that request not been made for that 
infrastructure, including hardware, satellites and the like? 
And how many of the 1,000 personnel that it was estimated by a 
fairly thorough study here would be needed to get up and 
running and a Muslim-wide public diplomacy, not just in the 
Arab States? How many personnel do you have that exist in the 
United States and in-country, as well as how much hardware 
requirements do you have? My term, hardware. That is not the 
term you guys use.
    Mr. Tomlinson. I was just getting ready to submit for the 
record some of the same statistics that you had on the success 
of Sawa. It is absolutely amazing.
    We think we can get on the air with Arabic television with 
$62 million. We hope to have that money soon. There is no 
question I am going to take every word you said this morning, 
Senator Biden, back to my colleagues.
    Senator Biden. But there is only $30 million allocated, is 
there not?
    Mr. Tomlinson. Yes; $30 million in 2004.
    Senator Biden. In the request. There has only been 
requested $30 million, but it is going to cost you $30 million 
in startup costs, and it is going to cost you another $30 
million to broadcast for a year. Right?
    Mr. Tomlinson. Maybe a little more.
    Senator Biden. My understanding is at least $61 million.
    Mr. Tomlinson. At least.
    Senator Biden. And right now the only request that is 
coming before us, if we pass the President's request, will be 
$31 million, which means you will not be up and on the air--I 
am overstating it--with the television version of Sawa, for the 
lack of a better way of saying it in the interest of time.
    Mr. Tomlinson. And with proper pressure with people of 
vision like you on this committee, maybe we can do something to 
change that in the coming weeks.
    Senator Biden. Well, I know my time is up, Mr. Chairman. I 
just want to remind all the committee members what they know, 
and I know they know it well, but anyone listening. Al-Jazeera 
has had a catalytic impact on attitudes about us, and let us 
assume that it was not even intended. Let us give the benefit 
of the doubt, which I do not, but let us give the benefit of 
the doubt. There is no counterpart for that.
    And one thing I would argue is there is not a 
discrimination imposed by citizens under the age of 30 living 
in all these countries. They will not boycott this. The old 
thing, you got to put programming on they want to see, just 
like you have got to have material on they want to hear. If you 
build a better mousetrap, you attract those audiences, they 
will listen.
    I sincerely hope, Mr. Chairman, we are able, just on that 
one small piece, to give this operation enough of an 
opportunity so it is not stillborn to get it up and moving. But 
I think it is a very small piece, but it is a critical piece.
    Mr. Tomlinson. I will be very brief. I was for many years 
editor in chief of Readers Digest. The founder of Readers 
Digest, Dewitt Wallace, spent more time on those jokes and 
fillers in Readers Digest than he did on a lot of the 
geopolitical articles because he realized it was vitally 
important to get people to open that magazine and that is what 
we are talking about here.
    Senator Biden. I would like to make one other point my 
staff raised to me. I know you know it and my colleagues know 
it, but I am not sure everybody else does. Sawa broadcasts 
uncensored news. The key to this is that there is total 
journalistic integrity here, and I think that is an important 
piece for all of us to keep in mind, not to suggest that our 
other broadcast capabilities are not useful. They are.
    The Chairman. Thank you very much, Senator Biden.
    I recognize now another entrepreneur in both public and 
private life, Senator Hagel.
    Senator Biden. When you say another, I clearly do not fit 
that description. Mr. Pattiz does.
    Senator Hagel. Joe, you can fit any description you like.
    Mr. Chairman, thank you. I welcome our witnesses as well. 
Secretary Beers, thank you. Chairman Tomlinson, thank you for 
your leadership, what you are doing at a very critical time not 
just in our history but I believe the history of the world. We 
are framing the future of mankind in many ways, and what is in 
your portfolio is much about that, not propaganda, not what Joe 
just talked about, but the development of trust is what the 
coin of the realm is in all businesses and in all of life. And 
we appreciate that.
    Before I ask a question, I want to go back to the 
recognition, Mr. Chairman, you gave of Charles Wick who is 
sitting out in the audience. I had the good fortune a number of 
years of working with Mr. Wick on a number of projects. I would 
say that I do not know of anyone who was more innovative, more 
creative, who understood long, long ago what you all are doing 
now better than Charles Wick. He understood it 25 years ago 
what we were not doing and what we should have been doing. And 
he did amazing things over at USIA and it was much because of 
his foresight and tenacity, leadership, perseverance. 
Occasionally he had to get a little tough I recall, but he left 
things a lot better than he found them. And it is upon that 
rock we build much of what you were doing, and I appreciated 
your recognition of Charles Wick, Mr. Tomlinson. Thank you.
    Secretary Beers, in your testimony I believe you accurately 
point out the primary task of public diplomacy and public 
affairs is to inform, you go on to say, every day to present, 
explain, advocate policies in many languages. Part of that is 
education, and I think part of that as well is to always 
reverse the optics here, understand what the other people of 
the world are thinking about us and why, not just overload the 
circuits with flushing about Americana, but what is on their 
minds. Why is it that they have these misrepresentations, 
misunderstandings of this country? So that effort in my opinion 
is very important that it be seen both ways.
    The objective here, as you all know, is the future. We have 
short-term obligations, responsibilities, threats, and we are 
dealing with those, but we are really playing for the long-
term. We are playing for the next generation of Muslims and 
Arabs and friends. We want those young people that Joe Biden 
talked about to be our friends not because we are buying them 
or we are giving them credits or F-16s or forgiving debt or 
giving them grants, but we want them to understand us and like 
us and trust us and be part of who we are.
    You have an amazing opportunity, which you are taking not 
only responsibility for but I think taking full benefit of that 
opportunity. As I was going through some of the information 
that you have presented in, again, another part of your 
testimony, Secretary Beers, referencing on page 6, the 13 women 
teachers from Afghanistan and what that project was about. I 
want to make a point on that not just because it was the 
University of Nebraska at Omaha who helped organize that and 
put that together. And they are very proud of that, by the way.
    But the University of Nebraska at Omaha put together a 
compilation of newspaper articles, which I am sure you have 
seen. It is an October 27 through December 2002 compilation of 
stories run in the Omaha World Herald, stories all over the 
Midwest, about the personalization of what you did with this 
project. It is really amazing because it gives the people of 
the Midwest a whole new appreciation for what is going on and 
why. Obviously, at the other end of that, the Afghani teachers 
were I think enhanced as well.
    My point is--and then I will get to a question--we do not 
want to lose sight of those personal programs either. The 
broadcast piece is critically important, and there is no 
question. But we can use all these programs together, and I 
know you do integrate those programs to enhance our overall 
strategy, objective, and using them as part of that effort.
    Now, with that said, Joe Biden said something earlier in 
his opening comments about world opinion regarding America 
immediately post September 11, 2001 and where we are today, 
which we will hear more about in the Pew poll. And we are all 
familiar with those general numbers.
    The first question that could be asked, should be asked. 
What happened? Joe used the term ``squandering.'' I do not know 
what happened either. We all know there were a number of 
developments and factors that played into that. But what 
happened to all that good will for America? How did it happen? 
Why did it happen? I know you are all dealing with that, but as 
you develop your programs as you have laid out here and the 
budgets and what you have got ahead, the integration of those 
programs, you obviously have to have some measure of segmented 
marketing, targeted marketing, but overall marketing.
    So here is a question. How do you differentiate, or do you, 
in the programming to Islamic societies, for example, in the 
Middle East versus Southeast Asia versus Africa? Are they the 
same? Do you take it into account the differences? How do you 
come at that as you define that down? Secretary Beers, thank 
you.
    Ms. Beers. I think that is a really good question. You said 
a great phrase, ``reverse the optics.'' In our place we talk 
about ``it is not what you say, it is what they hear.'' 
Obviously, we have to be in a dialog that is a great deal more 
than informing people of our policy, and even when Ken gets 
them listening avidly to American music, we still have to get 
these people to learn English and to open the opportunities in 
their lives to science and technology. In spite of how many 
closed doors we have in the Muslim Arab world, they will allow 
and encourage English teaching, and I just think we need to 
jump on that now and get that done in a degree and depth we 
have never done before. Can you think of anything that would 
yield more immediate results? I really cannot.
    So when you think about those countries, I am looking at 
the countries that do not have as much literacy, that in fact 
do not have television channels outside of their cities, that 
do not have any access to the Internet, and I am prepared to 
work in teaching English on television and in one-on-one 
channels and through ``Sesame Street'' and any other machine we 
can.
    There are other things that are sort of the life cycle of 
countries that influence us on how we work with them. For 
instance, in Indonesia we have a little bit of a more favorable 
environment. We can start a little further along. We can assume 
mutual interests. We bring their clerics here. They are 
encouraged to be more moderate, and we activate them when they 
go back and see if we can help support their causes.
    In other countries, to speak out like that would be 
automatically unpopular, and we have to just start on a simple 
program like let me tell you what it is like for your fellow 
Muslims in this country, and so that is what we do.
    In Egypt, where we could not, for instance, get any dialog 
going in putting something on television, we have asked the 
local television channels in Egypt to help us co-produce 
stories of USAID projects in that country. They are completely 
unaware of the money we have all spent in that country. And now 
we have running on the air of the channel the water project, 
the rebuilding of the mosque, and there is a minor recognition 
that the United States took part in that.
    So in some countries we are crawling like that one. In 
others, we are actually bold enough and life cycle enough afar 
to be able to talk about moderate Muslims taking up their own 
voices.
    We have been very successful in reaching for women and 
helping the country see that the empowerment of women is a very 
potent force. It is very inspiring to see a small group of 
women who come to the United States, as you have just 
articulated, go home and become emissaries. Now, our job is not 
to lose track of them. Our job is to fund their efforts to buy 
teaching tools to train other teachers and to multiply. Today 
we do not necessarily have the means to do that, but I think 
that is a segmentation of the first order.
    Senator Hagel. Madam Secretary, thank you.
    Mr. Tomlinson. Mr. Chairman, could I just have 30 seconds? 
Senator Hagel, I want to pay tribute to you because you are one 
member who is willing to take time out of your schedule to 
appear on Voice of America. You were on the ``Focus'' program 
just 3 weeks ago. We thank you.
    In the spirit of, Mr. Chairman, what you and Senator Biden 
had to say about the situation with broadcasting to the Baltics 
and the Balkans, let me make a plea that we also remember the 
importance of preserving and enhancing broadcasting to mature 
audiences. I am talking about the traditional McNeil-Lehrer, 
BBC-type broadcasting that is so important in this world. Lord 
knows, I embraced the work of Norm Pattiz and Sawa early on. I 
took a pounding for it in fact. I am proud of the support I 
have given these broadcasts. I also want to make sure that we 
preserve our traditional programming for the world because that 
is important too. That is where we get into these budgetary 
pulls and crunches, and that is why I so welcome what you all 
said today.
    Senator Hagel. Thank you. Mr. Chairman, thank you.
    The Chairman. Thank you very much, Senator Hagel.
    Radio Free Europe is a mature audience-type thing.
    Ms. Beers. You mean like us.
    The Chairman. That is right for most of us.
    I want to introduce now for his questioning another 
exchange program beneficiary, Senator Feingold.
    Senator Feingold. Thank you, Mr. Chairman. Let me thank you 
for holding this hearing. This is a time in our history when a 
lot of Americans want to be assured that we are asking the 
right questions post 9/11, that we are looking at the right 
issues, and I do not think they always feel assured. The fact 
that you are willing to devote such attention to this issue I 
think is a very positive sign to all Americans that we are 
starting to really get at the real questions that face us in 
the future.
    In that regard, Ms. Beers, I want to ask you a bit about 
the considerable press attention to some of the 
administration's post-9/11 public diplomacy activities like the 
videos created to inform people abroad about Muslim communities 
in America. Do any of our public diplomacy materials actually 
address the policy issues that seem, at least according to the 
research I have seen, to be at the heart of some of this 
resentment toward America? And do they seek to explain the U.S. 
policy choices? If you could talk a little bit about that.
    Ms. Beers. I am so relieved to have the question on the 
table. I was giving a speech and a gentleman at the back of the 
room said, ``what about the gray elephant sitting on the table, 
your disastrous foreign policy discussion?'' So let me answer 
that now. I have had a chance to think about it a long time. It 
needs a very specific answer.
    As I said in my opening remarks, 60 to 70 percent of every 
single thing we do is about getting the policy out, 
articulating it, and putting it in context, and we have 
explored this year many other ways to do it, including third 
parties and all these many materials that go out, including the 
reconstruction of Afghanistan, what we hope for for Iraq, 
stories that are very relevant and timely today.
    We also work very hard in rapid response with the Office of 
Global Communications, and we are working on long-term 
strategic directions as well.
    But let me explain to you why I think it is so important to 
do both. We have an interesting chart validated by thousands of 
people in the Middle East and Southeast Asia. What is most 
important to you in your life? And number 9--1, 2, 3, 4, 9--is 
foreign affairs because what they care most about--no surprise 
here--would be what you would answer, maybe if you were not in 
the office. My family, my children's right to thrive, the 
opportunity to practice my faith. I am absolutely convince that 
when you ask us to develop communication about mutual 
understanding, you have in mind the great understanding, that 
is, the things that unite us, that also have to be brought up 
to bear.
    So admittedly, we have limited funds, and I have said to 
you today that most of our funds, resources, and energy go to 
the No. 1 job, which is the articulation and successful 
discussion of foreign affairs. Even when we find 
dissatisfaction with those, we pursue that area. That is what 
our embassies do. They do it every day and they do it amazingly 
well.
    But we have this other aspect which I think is neglected, 
underfunded, and vital, which I would summarize as engagement.
    Senator Feingold. Do I understand you to say that you do 
not go directly then at the policy issues in these materials? 
Is that what you were suggesting?
    Ms. Beers. Well, for instance, within the bounds of the 2-
minute documentaries on ``Muslim Life in America,'' what we are 
really talking about--we have proved that we have communicated 
this--is that they take away that the United States stands for 
religious tolerance. In my way of thinking, religious tolerance 
is the value that underpins and informs all of our policies. So 
if you will accept that definition, I think it is right on 
policy.
    Senator Feingold. Well, it is an interesting question. I 
was sort of getting at some of the larger foreign policy issues 
that I think are causing us to be criticized, but I will take 
that answer for what it is and ask a different type of 
question.
    What mechanisms in our public diplomacy arsenal actually 
allow for us to listen to other viewpoints rather than trying 
to sell our own? Is listening not a fundamental show of respect 
for others in and of itself?
    Ms. Beers. Well, anybody who has tried to sell products 
around the world and taken brands around borders, as the United 
States has done more successfully than most people in the 
world, would say, if you do not start with listening, you are 
nowhere. So we are training all of our people in a really 
different way I think these days to talk about not what you 
want to see, but to study people and understand them so well 
you know where they are coming from. How can you do that 
without listening?
    So we have incorporated into all of our research plans for 
the year the kind of research that talks to listening not just 
what they said in polling, but how do they feel and what do 
they think. Out of those diagnostics will come a better 
understanding of how we should speak with one another. While 
some of those like the town hall between the Americans and the 
Indonesians--there is no substitute for those moments of 
discovery. We need very good data and listening forces. Then we 
need the rather informal ways of doing digital video 
conferences [DVCs] where you are just listening. You are not 
necessarily coming up with a solution.
    But we have learned that one on one and person to person, 
especially in the Arab world, has an enormous weight. That is 
why every one of our officials and I think so many in the 
government have been willing to do DVCs because you are there, 
you are repeating what the President has said. You are really 
there to listen and make an impact.
    Senator Feingold. Let me reinforce that. Since 9/11 both 
here and in a number of African countries with significant 
Islamic populations, I have had a chance to meet with 
government leaders, with Islamic leaders, and yes, whatever I 
say, hopefully, has some merit, but what really counts is that 
there is an American elected official sitting there listening 
to them. And that needs to happen not just on a micro scale, 
but it has to be visible to individuals around the world on a 
macro basis as well.
    Let me followup with something else you mentioned. You 
talked about rapid response. Just 2 weekends ago, the world 
witnessed massive demonstrations protesting the war in Iraq and 
in many cases expressing anger at the United States. I 
realized, as I was traveling to Africa, that might have been 
the most anti-American weekend in my lifetime, which is really 
quite incredible.
    How has our public diplomacy machinery responded to these 
messages? You talked about rapid response. Is it nimble enough 
to respond to events like these demonstrations? Are we somehow 
making it clear that even though we do not agree with the 
protesters, that we are listening? I am concerned that if we 
look like we do not react at all, that that just reinforces the 
worst, most unfair images of America and Americans.
    Ms. Beers. I am with you on this one. I think it is very 
dangerous to have silence as a response. And throughout the 
world, we have seen things worsen if we do not have a machinery 
for answering back.
    I think in a situation like this, part of what we do are 
the materials that are in front of you that help to put in 
context why we are where we are with Iraq, what that regime is 
about, what our dreams and hopes are for that people.
    But the most important vehicle we have for those kind of 
answers is the President's speech last night where he was able 
to talk about how important peace is, why we have come to this 
position, and why right has to be backed up by force. Now, that 
speech, because of the machinery we have in the world today, 
was put out on the air the same evening it went out in some 30 
languages around the world through the system at State, and I 
am sure it went out in many other forms on Voice of America and 
so on. And that is carrying the main message on those sorts of 
things.
    Senator Feingold. Well, I appreciate that remark, but I 
would suggest at this time, given the feelings toward our 
foreign policy, that to rely mostly on the President speaking 
would be an insufficient strategy. We need a lot of American 
voices. Certainly his is the preeminent. But at this point 
there are a number of people who do not want to listen to our 
President whom we still have to reach, and we need to have 
those ears open to other Americans who are pointing out our 
values, and even though we may have some disagreements about 
the specifics, we are united as Americans in trying to solve 
these problems. We need many voices, as you are obviously 
devoted to making happen. That is sort of what I came back with 
after a week in Africa hearing some of these concerns.
    Ms. Beers. One thing I like so much is that you went there 
and you were able to learn and you did some of the discussion 
and interviews. One of the things our embassies say to us is 
that when people like you come to the country, please be 
available for discussion, for interview, for listening because 
you have a way disproportionate influence. And we have been 
trying to make that point because it is a great help to us.
    But one of the things we have been trying very hard to do 
is what we call third party, which means that we speak through 
many other voices. This is a really important characteristic. 
When I mentioned Ken Pollack, I do not know if you have ever 
heard this gentleman talk on television, but we now have him in 
many places in the world. His very reasoned approach on the 
pros and cons of Iraq--his book is called ``The Threatening 
Storm''--has completely opened the minds of our audiences, and 
frankly it would be in a way that even Secretary Powell could 
not. So you have made the point, that it is necessary to do 
both.
    Senator Feingold. I thank you.
    [The prepared statement of Senator Feingold follows:]

           Prepared Statement of Senator Russell D. Feingold

    I want to thank the chairman and ranking member for holding this 
important hearing, and to thank all of the witnesses for being here 
today.
    I believe that the issue we are discussing is among the most 
important to be taken up by this committee. The reason is simple. 
America's first priority today is the fight against global terrorism. 
We cannot hope to win that fight without the commitment of others 
working in a broad coalition to deny terrorists safe havens and access 
to financing. The fact is that today, even as American military and 
economic might stand unchallenged around the globe, we need the rest of 
the world more than ever before. We need real partners, not reluctant 
client states, to join with us--not only to defeat terrorists, the 
forces of destruction, but also to join together to construct a better 
future, a more just and prosperous and peaceful world.
    But I fear that despite the importance of cultivating partners, 
some of our rhetoric and some of our policy is doing just the opposite, 
and we are alienating people around the world. Just two weekends ago 
the world witnessed massive demonstrations protesting a war in Iraq, 
and those demonstrations often quickly became vehement manifestations 
of anti-Americanism. I recently spoke with the Foreign Minister of a 
country that has been directly affected by terrorism, and the Minister 
confided that it will be difficult to be so forthcoming in support for 
U.S. and support for the fight against terrorism, because public 
opinion in his country is turning against America, and is equating 
cooperation with us with endorsement of a host of problematic ideas, 
including disdain for international institutions, a policy of 
unilateral, preemptive military action. I heard the same kinds of 
sentiments expressed at recently when I met with extremely accomplished 
Muslim leaders in South Africa.
    Sometimes these comments are painful to hear. Certainly I find it 
painful to listen to the widely-held and often unfair perceptions of 
U.S. policy in the Middle East. But listening and engaging and reaching 
out is exactly what we have to do.
    In the last Congress, in the wake of September 11th, I started 
convening a series of off-the-record roundtable discussions with 
members of the African diplomatic corps here in Washington, and Senator 
Frist, who was then the ranking member, and I took care to ensure that 
representatives of countries with significant Muslim populations were 
at the top of the invitation list. I did this because I was concerned 
about perceptions abroad that the U.S. is hostile to Islam, and I did 
this because many of our African partners were concerned that they were 
being treated more like foot soldiers. The roundtables proved a very 
useful forum for an exchange of views, and I hope that they can 
continue in this Congress. But rather than giving me a sense of having 
finished the job, they have only convinced me of how much more needs to 
be done to meaningfully engage with the rest of the world.
    Perhaps the most important form of American power projected over 
the last century has been the power of our ideas and values. If we lose 
our capacity to lead in that sense, then all of us sitting here, all of 
us in government, will have presided over the greatest loss of power in 
American history, regardless of how much we spend on our mighty and 
admirable military forces. And we will have put ourselves at a great 
disadvantage--likely a decisive and crippling disadvantage--in the 
fight against terrorism.
    We all have a role to play taking up this challenge. Because of all 
the challenges and limitations inherent in the official foreign policy 
of a democracy, engagement beyond governmental policies and programs is 
especially important. And this means the American people--American 
businesses, Peace Corps volunteers, students studying abroad, 
professionals pooling technical expertise with colleagues around the 
globe--all these nonpoliticized forms of engagement remain stable 
throughout election cycles, and provide a backbone of common sense and 
basic understanding on which governments from any party can build when 
developing foreign policy. When Americans make connections across 
borders, they build links that are a steadying influence abroad and at 
home. They gain knowledge that they can use to guide their government. 
They present to the world a vision of America that is not about empire 
or arrogance. They suggest to others that we need not chose between the 
global status quo and a future of destruction and violence--America is 
interested in a third choice, an alternative in which we join together 
to build a better future.

    The Chairman. Thank you very much, Senator Feingold.
    Senator Brownback.
    Senator Brownback. Thank you, Mr. Chairman, very much and 
thanks for holding the hearing. I think it is an important one 
and an important topic. Thank you both for being here to brief 
us and to testify and answer questions.
    I would like to direct your focus right now onto Iran. I 
have had some discussions on that. And pardon me for not being 
able to be here for all the questioning thus far, but I really 
want to ask you a little bit about Iran and the public 
diplomacy efforts in Iran. I think they are critical, crucial 
for what is taking place. As I look and observe and have held a 
number of hearings in the subcommittee in previous Congresses 
on Iran, you have got a real fomenting that is taking place 
there as one of the countries of the ``axis of evil.''
    The United States is certainly not going to invade or use a 
military option, but it seems like the most positive, the best 
option in dealing with Iran is the public diplomacy option 
where you have a very ready population there that wants to hear 
what is taking place. You have an enormous diasporate in the 
United States that has lots of personal contacts back and forth 
with Iran because there is a communication that can take place 
back and forth. The mixture is there for public diplomacy to be 
an enormous tool to really change a society that needs changing 
and a government that needs changing.
    I am sorry I do not have this blown up, but it is a map of 
funding of terrorism and spread of fundamentalism by the 
Iranian Government around the world, a lot of it in Central 
Asia that is taking place and a number of other different 
places. But this is the Government in Iran that is really 
attempting to spread a message and a difficulty for us in a lot 
of places.
    The public diplomacy efforts in Iran some have been 
critical of as not being robust enough, not being targeted and 
supportive of the student protest movements that are taking 
place there, of the overall protest movements.
    I want to applaud some of your efforts. I want to ask you, 
do you think you are hitting the target for the need? You are 
clearly the very point in dealing with Iran and the change of 
that society that we most need to exercise in a robust, wise, 
targeted fashion. What is your estimate of your actions in 
Iran?
    Ms. Beers. Well, we are doing careful and I would say 
modest efforts. Part of that is because of the implication that 
we do not want to go in as the U.S. Government being pro a 
group of people who are trying to work out their own history. 
So I would say that we need to be subtle about our support and 
try to make available the pieces of information and the 
processes that they need to learn from. We do now have just 
coming up a Persian Web site. We also know that there are a 
number of difficulties in getting into Iran with the Internet 
and so on.
    When we did this ``Muslim Life in America'' story, we 
tracked the fact that some of the pan-Arab television and some 
of the others had overlap into Iran, but we were not able to go 
in and research it or do any formal assessment of it.
    Senator Brownback. Ms. Beers, could I ask you, because my 
time is going to be very limited here, how well are you 
networked into the Iranian-American community here and 
communications into Iran on public diplomacy?
    Ms. Beers. Well, I would say at least those of us here in 
public diplomacy have occasional meetings with them. Throughout 
the government, I think they have quite a ready dialog going.
    But it brings the suggestion up that maybe we need to 
activate them in the same way that we did the Muslim American 
group that helped us do ``Muslim Life in America'' where we 
pulled together a whole team and they took up the advocacy. 
Maybe that is a parallel.
    Senator Brownback. Well, and I think it is a good parallel, 
and you have got a ready population. They want to do this. They 
have, in some cases, owned television stations up and going or 
radio, and you can do Web-casting now as some opportunities or 
possibilities. They really want to work and work closely with 
us. You have got to pick, obviously, the right groups that 
would be credible and ones that would work well with you, but 
it may be the absolute best option because this is Iranians 
speaking to Iranians.
    Ms. Beers. The counsel we get is that these people who have 
good dialogs are the way to work at this point and pick the 
right ones, but thank you for that point because the Council on 
American Muslim Understanding has proven to be a very powerful 
relationship. I think we could see doing the same.
    Senator Brownback. They have got several radio stations in 
California that would be good possibilities of broadcasting, 
just taking programming even on into Iran.
    Ms. Beers. And what they will say to us is we do not need 
any U.S. Government rubber stamps, but we could use help and 
support and that is what we could offer.
    Senator Brownback. That is correct.
    I have met with a number of the groups over time, and I 
have been impressed with their abilities, their desires, their 
passion in a country that is extremely important. And the way 
we will be dealing with Iran I think over the future is 
primarily through public diplomacy.
    Ms. Beers. And you have communication efforts.
    Mr. Tomlinson. I will give you for the record what we have 
done in this area, but I very much agree with your challenge 
that, within the bounds of journalistic integrity, we focus 
more on the Government of Iran and we focus more on the record 
of the clerics. And that is what we have been doing in recent 
weeks. We have had extensive contact, sometimes through Members 
of Congress, with leaders of the Persian community in the 
United States.
    When we went 24/7 with Farda, we literally got tens of 
thousands of e-mails from Iran with people enthusiastically 
embracing what we were trying to do. We have been increasing 
the seriousness of our programming in Farda. This weekend we 
will have the first ``Democracy and Human Rights Roundtable.'' 
We began last week the weekly ``Iran This Week.''
    It is also important to recognize--and I will bring over to 
your office later today a copy of this New York Times piece on 
``U.S. Uses a Powerful Weapon in Iran: TV.'' \1\ VOA television 
has been absolutely outstanding in Persian, the work they have 
done, and they can do more. They have two programs each week. 
We could do more.
---------------------------------------------------------------------------
    \1\ The article is reproduced on page 16 of this hearing.
---------------------------------------------------------------------------
    Both VOA and Farda have active Web sites. You just would 
not believe--in fact, we will send you copies--the e-mails that 
come in from the young people of Iran urging us to continue 
what we are doing. I think you will be proud of that.
    Senator Brownback. Well, the people of Iran clearly want to 
come our way, and I think we really just need to provide 
information. I appreciate your great work.
    One total side bar, but I just got back from there. I was 
there at the swearing in of the new President of South Korea 
and met with a number of North Korean dissidents or people that 
had left North Korea. That is going to be another challenge for 
you in public diplomacy that has some interesting opportunities 
now that we have not had I think for some period of time, and I 
would like to engage you on that. It is a total separate topic, 
but I would like to engage you on that.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Brownback.
    Senator Nelson would have been next up, but he had to leave 
to make a quorum in another committee. But he asked me to raise 
questions about Iran. So your intervention, Senator Brownback, 
was timely as you have a bipartisan focus and it was an 
important set of questions and answers.
    Mr. Tomlinson. I will send you all a copy of a paper on 
what we are doing.
    [The paper Mr. Tomlinson referred to follows:]

         Broadcasting Board of Governors--Broadcasting to Iran

                                SUMMARY

    While the nation and the world's attention are focused on Iraq, 
students and young people in neighboring Iran are growing restless 
under the clerics' despotic rule, and increasingly giving voice to 
their desire for liberty. America's international broadcasting is 
responding to this clear signal of positive change. With the 
reallocation of base resources and strategic use of supplemental funds, 
we are increasing radio, television, and Internet services to Iran. 
Immediately below is a brief summary of what we have done in recent 
months to strengthen, expand, and invigorate our broadcasting to Iran. 
A more detailed explanation of these actions begins on the third page.

                         BBG RADIO BROADCASTING

    <bullet> Radio Farda broadcasts 24 hours per day seven days a week: 
Formatted to attract the 70 percent of Iranian population that is under 
the age of 30, Radio Farda broadcasts began in December, 2002. A 
reformatted service of RFE/RL with content provided by Voice of 
America, Farda is a unique Persian-language radio service that provides 
two newscasts every hour and two 30-minute newsmagazine shows daily. 
Since its debut, Radio Farda has quickly established itself as a major 
figure on the Iranian media scene. Three 30-minute weekly programs, 
specially geared to furthering U.S. policies and reporting on events in 
Iran, were added in February 2003.

    <bullet> VOA Persian broadcasts 4 hours a day seven days a week: To 
maintain and build our traditional audiences, VOA's Persian service 
provides news, analysis of current events, interviews, and music. VOA 
continues to retain a significant audience in Iran.

                      BBG TELEVISION BROADCASTING

    <bullet> Roundtable With You (weekly 90 minutes program): 
Roundtable With You is a news and information program broadcast weekly. 
A focus group of Iranians traveling abroad indicated that the Iranian 
audience regards VOA Persian's flagship television show Roundtable With 
You as the showpiece of VOA's Persian Service.

    <bullet> Next Chapter (weekly one hour program): In September 2002, 
VOA's Persian Service launched this innovative weekly youth magazine 
show. The Service has received thousands of phone calls and e-mails 
since it went on the air.

                         BBG INTERNET SERVICES

    <bullet> Radio Farda's Internet site provides live audio streams of 
its radio broadcasts around the clock. The site has prompted tens of 
thousands of e-mails on Farda Programming and has become the number one 
visited site of all BBG radio Internet sites. In February 2003, the Web 
site received 1,390,495 page views.

    <bullet> VOA's Persian Internet site attracts 80,000 visitors per 
week and includes original features prepared for the target audience in 
Iran including top news photos of the week and features on life in 
America, human rights, and the plight of women in Iran. lt is updated 
at least twice daily and provides a vehicle for feedback on TV and 
radio programming. This site ranks among the top three at VOA. More 
than any other VOA language group, Iranians have embraced the Internet 
as a vehicle for the delivery of sound and images.

         BROADCASTING BOARD OF GOVERNORS--BROADCASTING TO IRAN

    Using radio, television, and the Internet, America's broadcasts to 
the Iranian people aim at young and mature audiences with a combination 
of news, analysis, ideas, music both popular and classical Iranian, and 
pictures of life in America. Our level of effort has increased, but 
audience response reminds us daily that the Iranian people still thirst 
for information about political liberty in the West, what a free Iran 
could look like, and how adaptable democracy is to differing 
circumstances. Below is a detailed list of U.S. international 
broadcasting's current effort in Iran.

                              RADIO FARDA

    <bullet> December 2002 marked the launching of Radio Farda 
(``farda'' is the Persian word for ``tomorrow'') a 24-hour Persian 
language station featuring programming by Voice of America and Radio 
Free Europe/Radio Liberty based in Prague. Radio Farda is a unique, 
Persian-language radio service that uses a popular music format to 
reach the 70 percent of the Iranian population under the age of 30 with 
accurate news and information. The new service is broadcast round-the-
clock on AM, digital audio satellite, and 21 hours a day on shortwave. 
It is the first and only round-the-clock foreign broadcast to enjoy the 
advantage of beaming its signal into Iran on AM, a much more widely 
heard frequency than shortwave.

    <bullet> Radio Farda's signal delivers a combination of popular 
Persian and Western music designed to appeal to a young audience. It 
also broadcasts over five hours of daily original news and substantive 
content. Radio Farda produces fresh news and information at least twice 
an hour, with longer news programming in the morning and the evening.

    <bullet> Farda has quickly established itself as a major player on 
the Iranian media scene. Farda's newscasts focus on Iran-related news. 
They include interviews with Iranian dissidents and pro-democracy 
advocates. The fact that Iranian authorities--from the Supreme Leader 
Khamenei to lower ranking Iranian officials--have included Farda in 
their anti-American diatribes is positive testimony to the new U.S. 
broadcaster's effectiveness. To add to its programming mix, during the 
week of February 17, Farda launched three 30-minute public affairs 
shows that examine current affairs in Iran, youth, and culture, and 
human rights and democracy. Each show airs twice a week and also 
appears on the Farda Web site.

                             FARDA INTERNET

    Radio Farda's Internet site (www.radiofarda.com) also has proven to 
be a major success in a very short time. Farda already has become the 
number one visited site of all of BBG's radio Internet sites. In 
February 2003, the site received 1,390,495 page views. In addition, 
Farda programming has prompted tens of thousands of e-mails. For non-
Persian speakers, the Farda site offers an English summary of its news. 
Farda recently added Windows Media Player, which enables thousands of 
Iranian students whose university computers are not equipped with Real 
Audio Player to listen to live audio streams of Farda broadcasts.

                     VOA PERSIAN LANGUAGE SERVICES

    VOA reaches Iran in three media: radio, television, and Internet. 
We are in the process of constructing a multimedia service that builds 
upon the strengths of each service and allows for greater efficiency.
VOA Persian Radio
    <bullet> VOA's Persian Service radio is currently broadcast for 
four hours daily via shortwave, from 6:30-7:30 a.m. and from 8:30-11:30 
p.m. Iran time, a significant increase from before September 11, 2001.

    <bullet> Most of VOA's Persian Service radio broadcasts are devoted 
to news, analysis of current events, and interviews with U.S. 
policymakers and regional experts. Policy features that specifically 
address and articulate U.S. policy towards Iran are now being increased 
to five per week. Music, both Iranian and western, is also a regular 
part of the broadcast day.

    <bullet> Other substantive broadcasting.includes interactive 
exchanges (by phone and e-mail) with listeners in Iran, special 
programs that focus on women's rights, education, and how a vigorous 
civil society benefits the nations that encourage it.

    <bullet> VOA Persian covered the student demonstrations in late 
2002 against the Iranian regime and included interviews with students, 
other dissidents and Western analysts about the likely impact of the 
events. The Service received hundreds of e-mail messages, telephone 
calls, and faxes about the events. Many said they relied on VOA radio 
reports to keep them up-to-date on developments in their country.
VOA Persian Television
    <bullet> VOA television is on the air with original shows for two-
and-a-half hours per week. The popular Roundtable With You is a 90-
minute weekly TV-radio simulcast call-in show aimed at opinion shapers 
and the educated public. To reach this critical group, which includes 
the growing number of Iranians who turn to television as their primary 
source of news, VOA expanded the show from 60-minutes to 90-minutes in 
March 2002. VOA's Roundtable With You airs every Friday at 9:30 p.m. 
local time, providing the latest news and current affairs information 
on subjects directly affecting the lives of Iranians.
    <bullet> VOA's flagship Roundtable With You reaches the people with 
whom we need to communicate, and in very significant numbers. Research 
conducted by a professional pollster in Iran during the last 18 months 
showed that more than a third of respondents in the capital--Tehran--
regularly watch the show. Iranian rulers know this, and their public 
criticism is additional proof of the popularity of VOA television 
programming. A focus group of Iranians traveling abroad indicated that 
the Iranian audience regards Roundtable With You as the showpiece of 
VOA's Persian Service. Viewers keep VOA's six phone lines lit up with 
callers during the show. The show also receives e-mails during the 
broadcast from viewers who want to participate, and accommodates other 
callers who phone in when the show is not on the air.

    <bullet> Further strengthening its impact in the region, VOA's 
Persian Service in September 2002 launched an innovative weekly 
magazine show, Next Chapter. The show is a fast-paced, one hour TV 
program aimed at Iranian youth. Television is the major source of news 
for Iran's youth, whose knowledge about the world beyond their 
repressive regime plays a major role in their increasing 
dissatisfaction with the mullahs' rule. Next Chapter airs on Tuesdays 
at 10:30 p.m. local time. It reaches its audience via satellite 
broadcast on Asiasat 2, Hotbird 3, and New Sky.
    The response to this new youth-oriented Next Chapter show has been 
overwhelming. VOA has received thousands of phone calls and e-mails 
since it went on the air. The morning after the show's launch, tapes of 
the show were already appearing in Tehran's black market. (Attached to 
this document is The New York Times' article about the show from 
December 7, 2002.\2\ The article called VOA's television programs to 
Iran a ``powerful weapon'' of the U.S.)
---------------------------------------------------------------------------
    \2\ See page 16.

    <bullet> VOA's successful current programming of two-and-one-half 
hours of weekly Persian TV broadcasts not only counters the influence 
of anti-American broadcasters such as Iran's state-owned TV. More 
important, it also gives Iranians greater appreciation for, and a 
deeper understanding of, the liberty and self-governance that they want 
for themselves.
VOA Persian Internet
    <bullet> Measured by the number of visitors to its Web page--80,000 
per week--VOA Persian Service's site (www.voanews.com/Persian) ranks 
among the top three at VOA. Iranians have eagerly embraced the Internet 
as a vehicle for the delivery of sound and images. One demonstration is 
Iranian responses to the broadcast of a recent VOA Persian Service Next 
Chapter episode via RealAudio and RealVideo. The episode looked at the 
lives of two Iranian American radio announcers in the U.S. Within 18 
hours of the Internet broadcast, nearly 1,000 Iranians sent e-mails 
that contained highly favorable comments.

    <bullet> VOA Persian's Web site news is updated at least twice a 
day. All VOA Persian radio and television programs are streamed live or 
on-demand, in both video and audio. In addition, the Persian Web site 
includes original features specially prepared for Iranian Internet 
users such as American movie reviews, top news photos of the week, life 
in America, human rights, and the plight of women in Iran.

                      FROM THE PAST TO THE FUTURE

    The foundation of our broadcasts to Iran was laid during World War 
II. VOA's Persian Service operated from 1942-1945, and from 1949-1962. 
It was revived most recently as the Iranian revolution loomed in 1979. 
Unlike the hiatus between 1962 and 1979 when the U.S. suspended 
Broadcasts to Iran, the BBG's multi-media effort to reach out to Iran 
today is having a significant impact on Iranians both young and old, 
their attitudes about the United States, and their increasingly open 
rejection of clerical rule. Both logic and necessity point us to 
redouble our efforts to reach Iran's people. This is exactly what we 
are doing.
    We are now in the process of upgrading reception of our Internet 
video streaming to Iran. By the end of April 2003, we will have at our 
disposal a high power AM antenna in the United Arab Emirates for use by 
Radio Farda to Iran. Our broadcast time and transmission capacity gives 
America's voice and image greater visibility and influence in a nation 
whose future is being decided before our eyes. We are fully engaged in 
this high-stakes drama. The United States' international broadcasting 
effort to Iran is an effective example of the power of combined radio, 
television, and Internet services working harmoniously to communicate 
directly with a critical foreign audience in a strategic part of the 
world. The news, information, and ideas it beams are now reaching an 
audience that is weary of tyranny and thirsty for liberty.

    The Chairman. Senator Coleman.
    Senator Coleman. Thank you, Mr. Chairman. One of the 
challenges of being the last is that your question is often 
asked. In fact, I was going to raise the same question about 
Iran, kind of mirroring what my colleague from Kansas has said.
    What you have got, one, you have the critical importance of 
Iran and the role that the present regime is playing in 
international terrorism that we understand. And two, the 
opportunities we have here, significant opportunities, there is 
a strong diasporan community that can--if you look at the 
challenges we have, that America has, as we deal with folks in 
another part of the world, it is making the connection with 
truth of what we have here and the quality of life here and the 
values we represent here.
    I mean, one of my great frustrations in the short time that 
I have been here--the chairman put together a hearing on world 
hunger, and you hear about the leadership role that the United 
States plays in dealing with world hunger. Yet, around the 
world people do not understand that.
    The discussion about what is going on in Iraq and the 
protests that my distinguished colleague from Wisconsin talked 
about with folks carrying signs, ``No War for Oil,'' and as the 
distinguished ranking member talked about, he was in France and 
he said, ``yes, this war is about oil, but it is about French 
oil. It is not about American oil.'' And the United States does 
not have a history or a policy of appropriating other people's 
resources, and that is not our goal.
    So I was going to also reflect upon the incredible 
challenge that you have. It is my background as a former mayor. 
You have got to look for successes, small victories, build on 
your assets. We have in this country a very strong Persian 
community. There are both the radio stations and I believe TV 
stations in the Los Angeles area, and we need to deal with the 
Iranian situation.
    So I would hope, Mr. Chairman, that you would also drop by 
in my office those materials on what we are doing, and that we 
reflect on the great opportunity not to present this as an 
American governmental voice, but rather to use the connections 
with the Iranian community here, the Persian community here to 
reach out to their fellow countrymen who are hungry I believe. 
I believe that every sense I get from what I read is that the 
young people of Iran are ready for change. It can only come 
about through the public diplomacy that we are talking about 
here. So I second the perspective of the Senator from Kansas.
    Let me ask you a question. We talked a little bit about 
getting a Middle East and Arabic satellite television station 
up and running. What is the timing on that? Where are we on 
that?
    Mr. Tomlinson. If we had money, I think we could be on the 
air with that television station in a matter of 6 months plus.
    Senator Coleman. I am a little slow. How much money? What 
does it take to get the money, and how quickly can you get it?
    Mr. Tomlinson. The President has $30 million in the 2004 
budget. It is the first time Arabic television has been 
formally proposed by any administration. The appropriations 
committees added $2 million to $4 million in the 2003 budget, 
which gives us the latitude to actually begin planning 
television, which we are doing as we speak. We have Norm Pattiz 
on the case. We are hopeful that in coming weeks there will be 
an infusion of funds to help us reach the $62 million that we 
need to fully launch this television satellite network. There 
are many details to be worked out, but we got Sawa on the air 
in record time. We got Farda on the air in record time. I use 
the word ``we.'' Other people did the work. I sat back.
    Senator Coleman. Well, Chairman Tomlinson, I think it is a 
very important initiative, and we certainly should be moving 
with all deliberate speed to see if we cannot get this done.
    Mr. Tomlinson. If we have the money, we will get it on the 
air.
    Senator Coleman. Can you talk just a little bit about new 
technologies? I am a baby boomer, but technology--I have just 
kind of passed it to my 16-year-old who is kind of enveloped in 
it. Use of the Internet, how extensive is that, how effective 
is it? What sort of resources are you putting into that?
    Mr. Tomlinson. Virtually every language service in all of 
our services has a very important Internet Web site where 
people can log on and find out what we are saying in all of 
these languages. We have a problem with Internet jamming in 
China, for example. We are working hard to overcome it. It is a 
very important future consideration. A number of Senators have 
played a real leadership role in focusing the world on the 
horrors of this Internet jamming. But the Internet has a very, 
very important role in what we do in every section of our 
Agency.
    Senator Coleman. In my past life as a mayor, I took a lot 
of advantage of public-private partnerships. There were 
tremendous resources on the private side, the tech side. Are we 
doing the same thing? We have got a lot going on in Silicon 
Valley and just the vision there. Do we work hand in hand with 
folks on the private side to deal with these issues?
    Ms. Beers. We have several interesting, I would call them, 
prototypes with, say, Microsoft where they have set up a system 
of computers. My expectation is if we move and are able to get 
``Sesame Street for Teens'' on the air, that it has to be 
backed up by computer facilities' adjacencies of some kind. And 
we are talking with private sector people about doing this 
because in a way nothing is more useful for them in their 
businesses in those countries than an educated public.
    The Internet capacity is a very dynamic situation. In some 
cities you see a very sophisticated coverage. In others, you 
still have everybody clustered around a cafe.
    One of the mixed bags about Internet is that anything that 
comes on the Internet is construed to be the truth. So our 
enemies use it more effectively than we do, and we are trying 
to really move that into a communication model in all of our 
embassies.
    But as far as the Internet goes, the whole motor of the 
State Department's ability to communicate with its 16,000 
employees around the world is the Web. Without it, I tremble to 
think what we would do.
    What the difference is now is we really have so much more 
language coverage, and we have a very interactive situation. 
For instance, in this ``Shared Values,'' there was a page in 
the book and a Web site. The Web site was not run by us. It was 
run by the Council on American Muslims. That is why I liked the 
provocative questions on Iran because we are meeting with 
Iranians from California and Ohio and Michigan, and we just 
want to. It has not really occurred to me, but I think maybe we 
need to see if they want to build a sum larger than the parts 
and begin to support them in that way.
    And the Internet is going to be an important part of all of 
these communities, but first we have to teach these children 
English. Then we have to teach them how to use the computer to 
study science and technology.
    Without the private sector, we do not have the money and 
the means. That is why I am so frustrated and plead with you to 
help get us a system where the private sector's relationship 
with us is faster, easier, and more productive. If you are 
handed a card by a CEO whom you might know and he said, ``I 
would love to help you,'' you have still got to go another 6 
months to organize that, to put a team on it, and to put it in 
proper perspective. And you know how that works.
    Mr. Tomlinson. Senator Coleman, one of the first things 
Seth Cropsey did after he was confirmed as head of the 
International Broadcasting Bureau was to put together a team on 
future technologies. Seth and I started out in this business 
20-some years ago where everything was short wave. There has 
been an amazing revolution, and we have to make sure that we 
are in touch. Like the direct-to-home broadcast satellite 
situation is something that cries out for television today. 
Today. But we also have to anticipate what the technology is 
going to be tomorrow so that we do not have to wait until we 
are too late.
    Senator Coleman. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Coleman.
    We have three additional distinguished witnesses, but I do 
want to recognize Senator Feingold who has an additional 
question for this panel.
    Senator Feingold. Mr. Chairman, thank you for letting me do 
another round. It is partly your own fault. You are holding so 
many good hearings, that you are stimulating me to want to do 
second rounds. But I again thank you for this important topic.
    Ms. Beers, do you see it as part of your role as Under 
Secretary for Public Diplomacy to encourage and facilitate the 
engagement of ordinary Americans in international issues? For 
example, can you give the committee some examples of 
opportunities available to Americans who want to reach out 
beyond our borders? What more can be done in this regard?
    Ms. Beers. Well, I think there is an example that is 
actually not very well known in this country that simply 
astounded me when I got my first briefings from the educational 
and cultural exchanges. While we do 35,000 of these a year and 
you fund them with a certain amount of money every year, 
without the 90,000 volunteers in the United States who house 
these people, who liaison, who make agendas, who put their 
programs together, who travel them around, we would never be 
able to literally afford even that much. So I think that is one 
overt way. And I have wanted very much to mount a campaign that 
says thank you because I wonder sometimes if we just do not 
presume that good will.
    What I think we need to do is we are constantly visited and 
we see people who have an interest in doing many other things 
in the world, and we try to organize in such a way that our 
embassies and posts can add to that. For instance, Assistant 
Secretary Pat Harrison is working on something now called 
Cultural Connect, and when this is developed fully, I think it 
will be a fascinating model because we have met with writers, 
musicians, and artists, and they will be going with our support 
to countries to not just give a performance, but to stay there 
as a mentor. It is a beautiful idea. They initiated to some 
extent with us. Now, the machinery of doing that is very 
complex. You have to make sure everybody is in place. You have 
to be able to fund that on a larger basis. But this pilot 
program is very encouraging I think. And Yo-Yo Ma is one of the 
first contenders. He is such a gifted teacher, but he is one of 
many.
    Senator Feingold. I am excited to hear about that. I would 
like to followup with you.
    I just want to ask about one other thing. I agree, 
Secretary, with your goal of promoting a positive image of 
America to the Islamic world, but frankly I fear that some 
developments here at home may be undermining your work abroad. 
On the one hand, President Bush says that the fight against 
terrorism is not a fight against Islam, and he is right to 
emphasize that.
    But at the same time, the administration has taken steps 
that I believe in some cases unfairly target Muslims for 
harsher treatment by law enforcement officials then other 
Americans or immigrants. It began with the Justice Department's 
roundup of hundreds of Arab and Muslim individuals after 
September 11.
    Next came the Justice Department's interview program 
targeting 8,000 male visitors from Arab or Muslim nations for 
questioning.
    Then late last year, the Justice Department initiated a 
special call-in registration program that selectively targets 
male students, businessmen, and tourists from two dozen Muslim 
or Arab nations plus North Korea.
    More recently we read news reports that the FBI Director 
has asked field offices to count the number of Muslims in 
mosques in their respective regions for purposes of formulating 
performance goals and, among other areas, wire taps and 
surveillance.
    So, when you hear that list, it seems to me that selective 
law enforcement activities carried out by the Federal 
Government could serve to fan the flames of anti-American 
sentiment in the Muslim world and undermine what you are trying 
to do.
    Have our posts been hearing about these issues and what are 
we doing to respond to these concerns on the public diplomacy 
front? And is there any mechanism whereby the impact of these 
policies on our public diplomacy efforts is shared with the 
parts of the administration that actually pursue these 
policies, such as the Justice Department?
    Ms. Beers. Well, in front of you is an interesting answer 
to that question, I think. It is the VISA program, and we put 
it together for several reasons. Is to harness our own 
resources so that we speak with one voice. And as Justice turns 
INS into the Homeland Security representation, in our Policy 
Coordinating Committee, which I run with the NSC, Homeland 
Security is part of that meeting that discusses all these 
issues. So, first of all, we are all around the table.
    Second, the language that we have used in the VISA plan I 
think is a symbol of the tension that we will have to live 
with, and the line happens to say ``Secure Borders-Open 
Doors,'' and that is the problem that we are going to live with 
for a long time. We have to put security first. We can make no 
apologies for it. We have got to improve the way we do it, but 
we have also got to have open doors in the way that that United 
States invites people to this country. Not only is it true to 
our character, it is vital to business, administration, 
academic, trade. I mean, we are cutting off too much here if we 
do not have open doors.
    I will give you an example of how it is working now, and 
these are not perfect stories. In Malaysia, I just met with the 
Ambassador, and she had such a huge backlog that it was a 
controversy in her country. They worked around the clock to 
clean up those backlogs. They have now this new way of 
communicating what it will be like when you come to the United 
States. Because people are staying away for fear of it and they 
might read a story like you just named. We tell them here is 
what you have got to go through. Here is what it is like to be 
fingerprinted. Here are the special groups. At least being 
informed about the process is part of the way of dealing with 
it.
    And then we also tell stories locally, when the embassies 
take them up, of someone who just went through the process so 
that you are able to identify that it is possible. So, for 
instance, one of our stories is a young student. He said, ``the 
first time I went to the United States, it took me 3 weeks. 
This time I had to take 5 months, but it was worth it.'' So we 
hope that we are able to open those doors.
    Now, listen to this what the Ambassador just mentioned in 
passing, and this is what gives me hope. She said, ``that in 
fact we approve 92 percent of our applications.'' So against 
all of these stories, we need to get that word out, that we are 
open and we make no apologies for being secure in making that 
effort. That is a way of handling it.
    Senator Feingold. Well, I appreciate that answer. It just 
goes to the obvious point that it is not just our foreign 
policy but our domestic policy in response to terrorism that 
will have a great deal to do with how effective we are in 
achieving the worthy goals that you are pursuing. And I thank 
you very much.
    Thank you, Mr. Chairman, for the additional round.
    The Chairman. Thank you, Senator Feingold.
    We thank both of you very much for your enthusiasm and your 
leadership, and we look forward to working with you to make 
sure that all of our efforts are successful. Thank you for 
coming.
    Senator Biden. Mr. Chairman, I would like to ask unanimous 
consent that I be able to submit several questions in writing 
to each of the panelists.
    The Chairman. Without objection, that will occur.
    Senator Biden. Thank you both.
    The Chairman. Thank you.
    The Chair would like now to call upon Andrew Kohut, 
director of the Pew Research Center For The People & The Press 
in Washington, DC; the Honorable Kenton Keith, senior vice 
president, Meridian International Center, Washington, DC; and 
Dr. R.S. Zaharna, School of Communication, American University, 
Washington, DC.
    It is a privilege to have each of you before the Foreign 
Relations Committee this morning. I will ask you to testify in 
the order that you were introduced, Mr. Kohut, Mr. Keith, and 
Dr. Zaharna. All of your statements will be made a part of the 
record in full, and we will ask that you summarize or make 
comments about those statements as you choose. First of all, 
Mr. Kohut.

 STATEMENT OF ANDREW KOHUT, DIRECTOR, THE PEW RESEARCH CENTER 
           FOR THE PEOPLE & THE PRESS, WASHINGTON, DC

    Mr. Kohut. Well, I am happy to be here to help the 
committee achieve a better understanding of the U.S. image in 
the Islamic world. I am not here to make recommendations. I am 
here to try to give you as much as I can about the nature of 
the problem.
    I am going to draw upon the results of our ``Pew Global 
Attitudes'' survey in 44 countries around the world in which we 
interviewed 38,000 people, obviously not only Muslim countries, 
but we did interview in 6 Muslim countries in the region of 
conflict, that is, in the Middle East and Central Asia. In the 
total of the 44 countries, 11 countries had predominantly 
Muslim populations or large Muslim populations.
    Now, the big headline to come out of this survey was 
America's slipping image, which I am sure you have all heard a 
lot about because it was not only in Muslim countries, it was 
among NATO nations. It was in the developing world, and it was 
in Eastern Europe, but certainly also in the Muslim nations. We 
found in 27 countries where we had a benchmark, the American 
image was lower in 19 of those countries.
    But we also found a reserve of good will for the United 
States and for American citizens. Majorities of people in 35 of 
the 42 countries in which we asked the question said they still 
had a good opinion of the United States, they still had a good 
opinion of the American people. And I suspect that even with 
all of the contention out there about our Iraq policies, that 
there is still a lot of good will that exists toward the United 
States and the American people in most countries.
    But I think our problem of the real dislike of America 
continues to be concentrated in the Muslim nations of the 
Mideast and conflict area. Unfavorable ratings in those six 
countries were at the 60 and 70 percent level for five of the 
countries and, Senator Lugar, as you pointed out, only in 
Uzbekistan did most people say that they liked America and they 
liked the American people.
    The most disturbing decline in my view was the way in which 
the publics of our NATO ally Turkey had changed. Our 
unfavorable rating rose from 20-something in the year 2000, 
obviously before the attacks, to 55 percent in the late summer 
of 2002 when we did this survey. And not only was the absolute 
number of people who had unfavorable opinions of us great, the 
Turks held strongly unfavorable opinions. Forty-two percent 
said they had a very unfavorable opinion of America. And in 
Pakistan, our new ally in the war on terrorism, only 10 percent 
of Pakistanis said they had a good opinion of the United 
States.
    And I think dislike of the United States is principally 
driven by our Mideast policies. That is what opinion leaders 
told us, the Pew survey of opinion leaders that we did at the 
end of 2001 with the International Herald Tribune. They said it 
is the No. 1 reason why America is disliked.
    But there is also clearly backlash in the Muslim world 
against the war on terrorism. Our 44 nation survey found broad 
support all around the world but not in the Muslim nations. In 
10 of the 11 predominantly Muslim countries, the Muslim publics 
said they do not like this war on terrorism. We do not favor 
it. This was even the case in Muslim countries where the United 
States still has a good image on balance, for example, in 
Indonesia, in Senegal, and Mali. They like us but they do not 
like our war on terrorism.
    I think the Muslim publics in the survey also clearly 
agreed with the rest of the world in its general criticisms of 
us. They say the United States ignores their own countries when 
we decide our international policies. We are unilateralists. 
That was the view of 74 percent of the Turks, 77 percent of the 
Lebanese.
    The number 2 global criticism is that our policies 
contribute to the rich-poor gap, and that was overwhelmingly 
the view in the Muslim world.
    And third, the United States does not do enough to deal 
with global problems. Also an unquestioned perception in the 
region of conflict.
    The Gallup Poll, which conducted nationwide surveys in 9 
Muslim nations at the beginning of 2002, summed it up this way, 
and I am going to read a quote from their report. They said 
that ``the perception that Western nations are not fair in 
their stances toward Palestine fits in with a more generalized 
view that the West is unfair to Arab and Islamic worlds. It is 
one of the several examples of Western bias in the minds of 
these people.'' That might extend to Afghanistan, to Iraq oil, 
and now, of course, to Iraq and other situations.
    But I have to say that it is not all bad news. Opinions 
about the United States are complicated and often contradictory 
even in the Muslim world. Large majorities all around the world 
admire the United States for its technological achievement. 
That continues to be the case in Jordan, for example. Where 
only 25 percent have a favorable view of us, 59 percent admire 
our technological achievements. Even in Pakistan where 11 
percent have a good opinion of the United States, 42 percent 
admire what we have done technologically.
    And opinions of the United States' popular cultural 
exports--our movies, our television, our songs--are a lot 
better in the Muslim world than you might expect. Sixty-five 
percent of the Lebanese say they like these things. In Muslim 
countries of Africa such as Senegal and Nigeria, cultural 
exports are still well received.
    Now, in the region of conflict, the Muslim publics mostly 
shun our pop culture. I think Senator Biden was right when he 
said that young people in Jordan and places like that look to 
rock stars, but not to our rock stars. They look to their own 
because our cultural exports in much of the region of conflict 
are shunned, this is certainly the case in Pakistan.
    But even when America's products are well received, there 
is a view in the Muslim world and there is a view all around 
the world that there is too much America in the lives and 
cultures of Europe and the entire globe. There is a reaction 
against globalization and the impact of America.
    Finally, I would like to say that the unpopularity of the 
potential war with Iraq can only further fuel hostilities in 
this region toward us among the Islamic world. We did a survey 
in Turkey in November and we found that, unlike Europeans, the 
Turks were divided as to whether the regime in Baghdad is a 
threat to peace and a threat to the stability of that region 
and were even uncertain as to whether Saddam Hussein's going 
would be a good thing or a bad thing for the Turkish country.
    I think of particular interest to this committee is that 
the Turkish respondents told us that the United States wants to 
take out Saddam Hussein not because he is a threat, rather 
because the United States is unfriendly to Muslim countries and 
wants to get rid of unfriendly Muslim countries. And I suspect 
that this is a common perception all around the region with 
regard to Iraq.
    In summary, antipathy toward the United States is shaped by 
how its international policies are interpreted. I will again go 
back to my old firm Gallup. Their findings reflected that when 
they wrote that large majorities said that the West does not 
respect Muslim values nor show concern for the Islamic and 
Muslim worlds.
    I think improving America's image is a tough charge unless 
we can prove that our critics in the Muslim world are wrong 
about the intentions and consequences of our policies. Until 
that happens, U.S. communication efforts in that region can 
only be defensive, doing the best pssible with a bad situation 
by correcting misinformation, by softening hostility, by 
playing to the aspects of America that are still well regarded. 
And this is not to disparage the efforts of public diplomacy 
but, in the end, we will only be affecting opinions on the 
margins.
    However, I think that there are some bigger opportunities 
down the road. As I look at the second wave of the survey that 
we are analyzing, we show a very substantial level of 
democratic aspirations among the Muslim people. People in these 
countries place a very high value on freedom of expression, 
multi-party systems, freedom of the press, and equal treatment 
under the law--in fact, higher than in some of the nations of 
Eastern Europe where we conducted our polling. Our upcoming 
release this spring will detail these aspirations and show how 
they can exist side-by-side with a desire for a stronger 
presence of Islam in governance, which to some of us at least 
seems contradictory.
    American policies that are seen as encouraging 
democratization might help establish or bolster constituencies 
for the United States in Muslim countries, especially outside 
the Mideast--in Africa--where American Palestinian policies 
have not so inflamed opinion. In the Mideast, the establishment 
of democratic institutions in Iraq after Saddam Hussein, if it 
comes to that, could prove to be an important first step in 
that most problematic part of the world for us.
    And I will close my remarks there.
    [The prepared statement of Mr. Kohut follows:]

 Prepared Statement of Andrew Kohut, Director, The Pew Research Center 
                       For The People & The Press

    I am delighted to help this committee achieve a better 
understanding of how the United States is perceived in the Islamic 
world. I am not here to make recommendations about how to solve 
America's image problems, but rather to give you as much as I can on 
the nature of the problem.
    While this committee is primarily interested in the image of United 
States in the Islamic world, I will put my remarks in context by also 
discussing attitudes toward the United States around the world more 
generally. The Pew Global Attitudes Project surveyed 38,000 people in 
44 countries. We released our results, ``What the World Thinks in 
2002,'' in December and you all should have copies of our report.
    Despite an initial outpouring of public sympathy for America 
following the September 11, 2001 terrorist attacks, discontent with the 
United States has grown around the world over the past two years. 
Images of the U.S. have been tarnished in all types of nations: among 
longtime NATO allies, in developing countries, in eastern Europe and, 
most dramatically, in Muslim societies.
    Since 2000, favorability ratings for the U.S. have fallen in 19 of 
the 27 countries worldwide where trend benchmarks are available. While 
criticism of America is on the rise, however, a reserve of goodwill 
toward the United States still remains. The Pew Global Attitudes survey 
finds that the U.S. and its citizens continue to be rated positively by 
majorities in 35 of the 42 countries in which the question was 
asked.\1\ True dislike, if not hatred, of America is concentrated in 
the Muslim nations of the Middle East and in Central Asia, today's 
areas of greatest conflict.
---------------------------------------------------------------------------
    \1\ These survey questions were not permitted in China, and were 
not asked in the U.S.
---------------------------------------------------------------------------
    The most serious problem facing the U.S. abroad is its very poor 
public image in the Muslim world, especially in the Middle East/
Conflict Area.\2\ Favorable ratings are down sharply in two of 
America's most important allies in this region, Turkey and Pakistan. 
The number of people giving the United States a positive rating has 
dropped by 22 points in Turkey and 13 points in Pakistan in the last 
three years. And in Egypt, a country for which no comparative data is 
available, just 6% of the public holds a favorable view of the U.S.
---------------------------------------------------------------------------
    \2\ Countries included in the Middle East/Conflict Area are Egypt 
(Cairo), Jordan, Lebanon, Pakistan, Turkey and Uzbekistan.
---------------------------------------------------------------------------
    Fully three-quarters of respondents in Jordan, the fourth largest 
recipient of U.S. assistance, have a poor image of the United States. 
In Pakistan and Egypt, an even-larger aid recipient, nearly as many 
(69%) have an unfavorable view and no more than one-in-ten in either 
country have positive feelings toward the U.S. In Jordan, Pakistan and 
Egypt, the intensity of this dislike is strong--more than 50% in each 
country have a very unfavorable view.
    Public perceptions of the United States in Turkey have declined 
sharply in the last few years. In 1999, a slim majority of Turks felt 
favorably toward the U.S., but now just three-in-ten do. As is the case 
in Pakistan, Jordan and Egypt, the intensity of negative opinion is 
strong: 42% of Turks have a very unfavorable view of the U.S. The same 
pattern is evident in Lebanon, where 59% have a poor opinion of the 
U.S.
    Uzbekistan, a new U.S. ally in the fight against terror, is a 
notable exception to this negative trend. By nearly eight-to-one (85%-
11%) Uzbeks have a positive opinion of the United States and more than 
a third (35%) hold a very favorable view of the U.S.
    Dislike of America undoubtedly reflects dislike of U.S. policies in 
the Middle East. In a survey of opinion leaders released by the Pew 
Research Center in December 2001 (``America Admired, Yet its New 
Vulnerability Seen as Good Thing, Say Opinion Leaders''), a majority in 
Islamic countries told us that U.S. support of Israel is the top reason 
that people in their countries dislike America.
    But backlash against the U.S.-led war on tenor is also a big part 
of the problem. Unlike in much of the rest of the world, the war on 
terrorism is opposed by majorities in 10 of the 11 countries 
predominantly Muslim country surveyed by Pew. This includes countries 
outside the Middle East/Conflict Area, such as Indonesia and Senegal 
where majorities still held favorable opinion of the U.S. While they 
still like us, they don't like our war on terrorism. The principal 
exception is the overwhelming support for America's anti-terrorist 
campaign found in Uzbekistan, where the United States currently has 
troops stationed.
    Jordanians, in particular, are overwhelmingly opposed to the war on 
terror (85%-13%). Majorities in Egypt, Lebanon and Turkey and a 
plurality in Pakistan, a key U.S. ally in the region, also oppose the 
U.S.-led war on terror. In Pakistan, Lebanon and Egypt, Muslims are 
more likely to oppose these efforts to fight terrorism than non-
Muslims.
    The prevailing opinion among people in this region is that the 
United States ignores the interests of their countries in deciding its 
international policies. This view is as dominant in Turkey (74%), a 
NATO ally, as it is in Lebanon (77%). More specifically, the Pew survey 
finds a strong sense among most of the countries surveyed that U.S. 
policies serve to increase the formidable gap between rich and poor 
countries. Moreover, sizable minorities feel the United States does too 
little to help solve the world's problems.

        U.S. FOREIGN POLICY AND THE WAR ON TERROR: CONFLICT AREA
------------------------------------------------------------------------
                               U.S. Foreign policy     U.S.-led war on
                                considers others          terrorism
                             -------------------------------------------
                                 Yes         No       Favor      Oppose
------------------------------------------------------------------------
Conflict Area                         %          %          %          %
  Uzbekistan                         56         38         91          6
  Jordan                             28         71         13         85
  Pakistan                           23         36         20         45
  Lebanon                            20         77         38         56
  Egypt                              17         66          5         79
  Turkey                             16         74         30         58
------------------------------------------------------------------------


    The Gallup Poll, which conducted nationwide surveys in nine 
predominately Muslim countries in January 2002, summed it up well. They 
concluded that ``the perception that Western nations are not fair in 
their stances toward Palestine fits in with a more generalized that the 
West is unfair to the Arab and Islamic worlds . . . it is one of 
several examples of Western bias that might extend to Afghanistan, Iraq 
Gulf oil and other situations.''

                      ``AMERICANIZATION'' REJECTED

    But it is all not one way--even in Muslim countries, opinions about 
the U.S. are complicated and contradictory. As among other people 
around the world, U.S. global influence is simultaneously embraced and 
rejected by Muslim publics. America is nearly universally admired for 
its technological achievements and people in most countries say they 
enjoy U.S. movies, music and television programs.
    Very large majorities of the publics in most of the world admire 
U.S. technology. This is the case even among people with a low regard 
for the United States generally. In Jordan, where just a quarter have a 
favorable opinion of the U.S., 59% say they admire U.S. technological 
achievements. Even in Pakistan, where one-in-10 have a positive image 
of the U.S., a 42% plurality says they admire U.S. scientific advances.
    Opinion of American popular culture is mixed, but more positive 
than one might expect. In Lebanon, where most have an unfavorable view 
of the U.S., 65% say they like American music, movies and television, 
in African countries with significant Muslim populations such as 
Senegal and Nigeria, majorities say they like American popular culture. 
But majorities in Jordan and Cairo dislike U.S. culture, as does a 
plurality in Turkey. Pakistan stands alone in the extent of its dislike 
of American popular culture. Eight-in-ten Pakistanis dislike American 
music, movies and television.
    Although people in some Islamic countries like American popular 
culture while others reject it, there is more of a consensus that 
people do not like the spread of ``Americanism.'' In general, the 
spread of U.S. ideas and customs is disliked by majorities in almost 
every country included in this worldwide survey. In the Middle East/
Conflict Area, overwhelming majorities in every country except 
Uzbekistan have a negative impression of the spread of American ideas 
and customs. Just 2% of Pakistanis and 6% of Egyptians see this trend 
as a good thing. Even in generally pro-American Uzbekistan, 56% object 
to the spread of American ideas and customs.

                              WAR IN IRAQ

    The unpopularity of a potential war with Iraq can only further fuel 
hostilities--almost no matter how well such a war goes. At the Pew 
Research Center, we got some sense of this when we conducted another 
survey in addition to our 44-nation poll. In November, we also surveyed 
the people of five countries Britain, France, Germany, Turkey and 
Russia, about their attitudes toward a potential U.S.-led war in Iraq.
    Unlike western Europeans and Russians, Turkish respondents were 
divided on whether the regime in Baghdad is a threat to the stability 
of the region, and were divided over whether ending Saddam Hussein's 
rule would be good or bad for Turkey. Further, and of particular 
interest to this committee, a 53% majority of Turkish respondents 
believe the U.S. wants to get rid of Saddam Hussein as part of a war 
against unfriendly Muslim countries, rather than because the Iraqi 
leader is a threat to peace.

          SUMMARY: OPINION OF U.S. LINKED TO VIEWS OF POLICIES

    In summary, antipathy toward the U.S. is shaped by how its 
international policies are interpreted. Gallup's findings reflected 
that clearly in showing that large majorities in their nine-nation 
survey said the West doesn't respect Muslim values, nor show concern 
for the Islamic and Muslim worlds.
    Improving America's image is a tough charge unless we can prove 
that our critics in the Muslim world are wrong about our intentions and 
the consequences of our policies. Until that happens, U.S. 
communication efforts in the region can only be defensive, doing the 
best possible in a bad situation--correcting misinformation, softening 
hostility by playing to aspects of America that are still well 
regarded. But in the end, we will only be affecting opinions on the 
margins.
    However, I think there are some bigger opportunities down the road 
as I look at the second wave of the Pew ``Global Attitudes'' polling. 
We will show a very substantial level of democratic aspirations among 
Muslim people. Valuing freedom of expression, multi-party systems, 
equal treatment under the law runs very high in Muslim countries--in 
fact, higher than in some nations of eastern Europe. Our upcoming 
release this spring will detail these aspirations, and show how they 
exist side-by-side with a desire for a strong role for Islam in 
governance.
    American policies that are seen as encouraging democratization 
might help establish, or bolster, constituencies for the U.S. in Muslim 
countries, especially outside of the Middle East--in Africa, 
particularly, where America's Palestinian policies have not so inflamed 
opinion. In the Middle East, the establishment of democratic 
institutions in Iraq after Saddam Hussein could prove to be an 
important first positive step in that most problematic part of the 
Muslim world.

    The Chairman. Thank you very much Mr. Kohut.
    Mr. Keith.

   STATEMENT OF HON. KENTON W. KEITH, SENIOR VICE PRESIDENT, 
         MERIDIAN INTERNATIONAL CENTER, WASHINGTON, DC

    Ambassador Keith. Good morning, Mr. Chairman, and thank you 
very much for the invitation to appear. I am Kenton Keith, 
senior vice president of Meridian International Center. I am 
chair of the board of directors of the Alliance for 
International Educational and Cultural Exchange, and I am a 
member of the Public Diplomacy Council.
    I would like to take a moment to acknowledge how happy I am 
to see Charles Wick in the audience. I worked with him for some 
years and had one memorable trip to the Middle East 
accompanying him.
    I would also like to acknowledge the presence of a number 
of my old colleagues in USIA, some of the Nation's finest 
public servants.
    Prior to taking up my current position, I was a Foreign 
Service officer with the United States Information Agency. Much 
of my career was spent in the Middle East, including my 
appointment by President Bush in 1992 to be U.S. Ambassador to 
Qatar. Following that assignment, I headed USIA's area office 
that supervised all the Agency's operations in the Near East 
and South Asia. More recently I took on a temporary assignment 
for the State Department during which I established and 
directed the Coalition Information Center in Islamabad.
    Mr. Chairman, both in my present capacities and based on my 
past experiences, I welcome the opportunity to provide this 
statement for the record about the importance of public 
diplomacy, especially in the aftermath of the horrific events 
on September 11 and in support of our national campaign to rid 
the world of terrorism.
    To win the war on terrorism, the United States will need 
more than the might and will of our Armed Forces. To ultimately 
defeat terrorism, we must also engage the Muslim world in the 
realm of ideas, values, and beliefs. No previous foreign 
affairs crisis has been so deeply rooted in cultural 
misunderstanding and we must address this gulf of 
misunderstanding if we are to succeed.
    It would be naive indeed if we failed to acknowledge that 
American policy in the Middle East, as perceived by the Islamic 
world, is a persistent and pervasive source of tension and 
hostility toward the United States. Nevertheless, policy 
disagreements alone cannot account for the fact that in many 
Islamic countries the United States, which we all know to be a 
great force for good in human history, is regarded as the 
source of evil. In some places the President of the United 
States is regarded as a bigger threat to peace than is Saddam 
Hussein. As a Nation, we have not done an adequate job of 
explaining ourselves to the world or of building the personal 
and institutional connections with these countries that support 
healthy bilateral relationships.
    Mr. Chairman, my written statement addresses four areas 
where our public diplomacy needs to be strengthened. Given the 
constraints of time this morning, I will touch only briefly on 
four of these needs: increased exchange programs with the 
Muslim world, a visa policy that is effective and predictable, 
increased media outreach to Islamic audiences overseas, and a 
State Department bureaucratic structure that enhances rather 
than inhibits public diplomacy.
    On exchanges, a meaningful and effective Islamic exchange 
initiative will require $100 million above the current 
appropriation for State exchanges. We recognize that this is a 
significant amount of money. We believe, however, that this 
funding level is necessary and appropriate given the expanse of 
the Muslim world and the urgency and importance of the tasks at 
hand. This amount of money spent on promoting our ideas and our 
values and on our creative culture is very small when compared 
to the sums we will expend on military hardware, but it is no 
less crucial to our success.
    We commend you, Mr. Chairman, and Senator Kennedy for your 
leadership in introducing last year the Cultural Bridges Act, 
cosponsored by 12 other Senators, including Senators Brownback, 
Dodd, Feingold, Hagel, and Chafee. Your bill articulated the 
necessary vision and authorized adequate resources for this 
critical task. That vision and those resources are still 
necessary despite the very welcomed supplemental appropriation 
of $20 million for programs in the last session.
    On visas, we need a policy that balances our needs for 
heightened physical security and for continued openness to 
those who visit the United States for legitimate purposes. We 
need to recognize that the presence of foreign visitors through 
exchange programs and for business, education, scientific 
research, and tourism contributes to our national security.
    From my own experience as an advisory board member for 
International Programs at the University of Kansas, I can 
report that there is growing concern in the Heartland that the 
best foreign students, scholars, and researchers are beginning 
to look elsewhere for higher education. These future elites now 
regard the United States as inhospitable to them. If this 
situation continues, Mr. Chairman, our Nation will be 
squandering one of its most valuable foreign policy assets, the 
opportunity to educate the next generation of world leaders.
    Concerning media outreach, Radio Sawa has made encouraging 
progress. I am aware of and mindful of the criticisms that 
Radio Sawa has had to endure that it does not carry enough 
substantive programming, but I would argue that Radio Sawa has 
established something that has not existed before and that is a 
direct link with these young people in the Arab world. It is an 
extremely valuable thing and needs to be built on.
    But now we need to move into television broadcasting. Nine 
out of 10 Middle East adults get their news from either their 
national television networks or satellite stations such as Al-
Jazeera. Most of those outlets, including Al-Jazeera, are open 
to us, and we should use them. And definitely the United States 
should move ahead with your support to initiate direct 
satellite TV broadcasting in the Middle East and throughout the 
Islamic world. The funds being requested for the BBG in fiscal 
year 2004 are not enough.
    Finally, a word on bureaucratic structure. The structure of 
the State Department inhibits public diplomacy. It does not 
enhance it. Senior public diplomacy officials in Washington 
have no supervisory connection to field operations where much 
of the real public diplomacy work takes place. And those public 
diplomacy officials in Washington who do have a direct 
relationship with the field are office directors in regional 
bureaus and are too low-ranking to have meaningful impact on 
budget, policy, and personnel decisions. The results are 
diminished focus, uncoordinated activities, and reduced field 
resources.
    Of many recommendations one could make to remedy this 
situation, I wish to focus on one, the creation of Deputy 
Assistant Secretary positions in the regional bureaus devoted 
solely to public diplomacy. Establishing a Deputy Assistant 
Secretary [DAS] position in each regional bureau would ensure 
that public diplomacy is actively represented in senior level 
meetings, and thus an integral component in our approach to 
every foreign policy issue. A senior officer with these 
responsibilities could effectively coordinate public diplomacy 
activities across the region, make the case for additional 
resources when needed, and play an active role in personnel 
decisions.
    Mr. Chairman, I was happy to represent the United States 
Information Agency in the negotiations that took place for the 
reorganization of the foreign affairs agencies. We recognized 
at that time that this was a problem that was going to have to 
be dealt with at some point. I think that point is now. 
Creating and maintaining new DAS positions for public diplomacy 
would be a critical first step in changing the Department's 
culture and would send an unmistakable message to those who 
work at State that public diplomacy matters and matters enough 
to require senior leadership.
    As a long-term solution to the profound problems of 
cultural misunderstanding, there will be no substitute for 
public diplomacy. It must be a key component of our long-term 
effort to eradicate terrorism. We applaud your leadership, Mr. 
Chairman, and that of the other distinguished members of your 
committee in focusing attention on what must be a critical 
element in a successful anti-terrorism strategy.
    Thank you.
    [The prepared statement of Ambassador Keith follows:]

 Prepared Statement of Ambassador Kenton W. Keith, Chair, Alliance for 
International Educational and Cultural Exchange, Senior Vice President, 
   Meridian International Center and Member, Public Diplomacy Council

    Good morning. I'm Kenton Keith, senior vice president of the 
Meridian International Center, chair of the board of directors of the 
Alliance for International Educational and Cultural Exchange and member 
of the Public Diplomacy Council. The Alliance is an association of 67 
U.S.-based exchange organizations, and as you know, Mr. Chairman, we 
have worked closely with this committee over the years on a variety of 
issues. MIC is a nonprofit organization that promotes international 
understanding through exchanges of people, ideas, and the arts. The 
Public Diplomacy Council is a private, non-profit membership 
organization that works to further the awareness and academic study of 
America's communication with foreign publics, and is associated with 
the Public Diplomacy Institute at The George Washington University.
    Prior to taking up my current positions, I was a Foreign Service 
Officer with the United States Information Agency. Much of my career 
was spent in the Middle East, including my appointment by President 
Bush in 1992 to be U.S. Ambassador to Qatar. Following that assignment, 
I headed USIA's area office that supervised all the agency's operations 
in the Near East and South Asia. More recently, I took on a temporary 
assignment for the State Department during which I established and 
directed the Coalition Information Center in Islamabad.
    Mr. Chairman, both in my present capacities and based on my past 
experiences, I welcome the opportunity to provide this statement for 
the record about the importance of public diplomacy, especially in the 
aftermath of the horrific events of September 11 and in support of our 
national campaign to rid the world of terrorism.
    To win the war on terrorism, the United States will need more than 
the might and skill of our armed forces. To ultimately defeat 
terrorism, we must also engage the Muslim world in the realm of ideas, 
values, and beliefs. No previous foreign affairs crisis has been so 
deeply rooted in cultural misunderstanding, and we must address this 
gulf of misunderstanding if we are to succeed.
    It would be naive indeed if we failed to acknowledge that American 
policy in the Middle East as perceived by the Islamic world is a 
persistent and pervasive source of tension and hostility toward the 
United States. Nevertheless, policy disagreements alone cannot account 
for the fact that many in Islamic countries regard the United States, 
the greatest force for good in human history, as a source of evil. As a 
nation, we have not done an adequate job of explaining ourselves to the 
world, or of building the personal and institutional connections with 
these countries that support healthy bilateral relationships. The gap 
between us and those people and institutions seems to grow ever wider 
and deeper. The signs of profound anti-American resentment multiply in 
today's world, spreading well beyond the Middle East alone. All of us 
have watched with dismay the overt anger and misunderstanding spilling 
into the streets of the world in recent days. A survey of nearly 40,000 
people across the globe late last year by the Pew Center confirmed the 
soaring level of world mistrust of the U.S. and its motives.
    As a long-term solution to the profound problems of cultural 
misunderstanding, there will be no substitute for public diplomacy. It 
must be a key component of our long-term effort to eradicate terrorism. 
We applaud your leadership, Mr. Chairman, and that of your committee in 
focusing attention on what must be a critical element in our successful 
anti-terrorism strategy.
    In my testimony today, I want to focus on four aspects of public 
diplomacy: the critical contribution of international exchange 
programs; the need for a rational, effective visa policy; the need for 
improved media outreach to the Islamic world; and the need to correct 
anomalies in the State Department's bureaucratic structure that I 
believe diminish the effectiveness of our public diplomacy. Let me turn 
first to exchange programs.

     THE IMPORTANCE OF EXCHANGE PROGRAMS: BUILDING CULTURAL BRIDGES

    People-to-people ties are an essential part of our public 
diplomacy. As Ambassador Arthur Burns once said, ``The achievement . . 
. of true understanding between any two governments depends 
fundamentally on the kind of relationship that exists between the 
peoples, rather than on the foreign ministers and ambassadors.''
    In the Islamic world, we clearly have not done an adequate job of 
fostering relationships between our peoples. A Gallup poll conducted in 
February 2002 reported that 61 percent of Muslims believe that Arabs 
did not carry out the attack on the United States. Mr. Chairman, that 
statistic alone speaks somber volumes about our failure to project our 
values and ideals effectively in Islamic nations.
    We must recognize that we begin this effort in a very unfavorable 
position. Changing minds--or merely opening them--is a long, 
painstaking process. There are no quick fixes. And if we are truly to 
win the war on terrorism, there will be no avoiding the need to build 
bridges between the American people and the people of the Muslim world. 
Mr. Chairman, we must begin this process now.
    This effort will require us to be creative, disciplined, and 
patient as we try to reach audiences whose attitudes towards us range 
from profoundly skeptical to openly hostile. We will not succeed in 
opening every mind, but we do not need to do so. What we must succeed 
in doing is challenging and changing a climate of opinion that unjustly 
paints the United States as a source of evil. Improving the 
relationships that exist between our peoples is the best way to do 
that.
    America's unique status in today's world as the sole superpower 
puts new and difficult challenges before us. These new relationships 
with the people of other nations don't come easy. They can be, and 
often are, colored by resentment, jealousy, and suspicion. In this 
world there is an absolute requirement that we demonstrate a true 
respect for the opinions of mankind, that we listen as well as speak, 
and that we hear and understand those opinions and take account of them 
as we set our policies. Our public diplomats are trained to do exactly 
that, as well as to articulate clearly and persuasively the true nature 
of U.S. values and goals. The exchange components of our public 
diplomacy must serve to deepen that understanding that we must achieve.
    And if we succeed, terrorists will find it much more difficult to 
gain support or sympathy, either from their governments or from their 
societies.
    Increasing the State Department's exchanges with the Islamic world 
will give us the means to build a range of productive, positive 
relationships based on shared interests. This initiative will engage 
the American public--in our communities, schools, and universities--in 
an effort to project American values. We will find no better or more 
convincing representatives of our way of life.
    And the engagement of the American public will leverage significant 
additional resources to support this effort.
    Initial efforts were made during the 107th Congress to both 
authorize and fund programs on a broad range of exchange activities to 
build relationships with the Islamic world and enhance U.S. national 
security.
    Mr. Chairman, we commend your work with Senator Kennedy in writing 
and introducing the Cultural Bridges Act of 2002, calling for an 
additional $95 million annually for exchanges with the Muslim world. 
The Alliance actively supported your bill, which garnered bipartisan 
support from 12 Senate cosponsors, including several members of this 
Committee: Senators Brownback, Chafee, Feingold, Dodd, and Hagel.
    In tandem with the Freedom Promotion Act introduced by House 
International Relations Committee Chairman Henry Hyde and passed by the 
House of Representatives, this bipartisan effort led to initial funding 
for these programs in the supplemental appropriations legislation for 
fiscal year 2002. The supplemental included $10 million for a high 
school exchange program aimed at Muslim youth and an additional $10 
million for the Bureau of Educational and Cultural Exchange at the 
State Department to fund more Fulbright exchanges, programs to promote 
religious tolerance and values, English language programs, American 
studies programs, media training and other key initiatives for the 
Islamic world.
    The funds are a welcome beginning in building new ties to the 
Islamic world, yet they are only the initial seeds of a plan that will 
require a major effort, necessitating our engagement in a very broad 
range of countries, in an arc reaching from Africa to the Middle East, 
stretching further eastward from Central Asia to the Indian 
subcontinent to Southeast Asia. Addressing so many countries and 
cultures will demand thoughtfully differentiated approaches to public 
diplomacy. In some countries, significant increases in our traditional 
exchanges, such as the Fulbright and International Visitor programs, 
will be appropriate, welcome, and effective. In other countries, such 
an approach may be seen as threatening. Particularly in those cases, we 
must be creative in finding ways of reaching more skeptical publics, 
such as journalists and religious communities. And everywhere, we must 
seek ways of reaching younger participants.
    Significant new resources will be required to develop these 
programs. The scope of the task is too great, and its importance to our 
national security too critical to be able to accomplish our goals by 
simply shifting money from other regions of the world. The importance 
of maintaining a broad, worldwide coalition to combat terrorism 
suggests strongly that shortchanging one area of the world in order to 
temporarily emphasize another will be an ineffective strategy. To do 
this job right will require new funding.
    Reductions in public diplomacy over time have limited our reach: we 
have closed posts and cultural centers, reduced numbers of public 
diplomacy positions in our embassies, and steeply reduced the number of 
exchange participants. As populations in significant Muslim countries 
have increased by approximately 15 percent over the past 10 years, the 
numbers of exchange participants from key countries such as Egypt, 
Indonesia, Pakistan, and Turkey have declined by approximately 25 
percent.
    In the face of those reductions, Mr. Chairman, it is important for 
us to recognize the dedication, hard work, and effectiveness of the 
State Department's corps of public diplomacy officers. Faced with 
diminishing resources and a major reorganization that abolished USIA 
and moved their function and careers into State, these professionals 
have performed in their typical fashion: professionally and 
effectively.
    Mr. Chairman, a meaningful and effective Islamic exchange 
initiative will require $100 million above the current appropriation 
for State exchanges. We recognize that this is a significant amount of 
money. We believe, however, that this funding level is necessary and 
appropriate given the expanse of the Muslim world and the urgency and 
importance of the task at hand.
    Moreover, this amount of money spent on promoting our ideas and 
values is very small when compared to the sums we will expend on 
military hardware, but it is no less crucial to our success.
    The level of support we have witnessed from senior members of both 
parties and both chambers underscores the timeliness and importance of 
this initiative. This is a moment when our national interests require 
Congressional leadership to build these cultural bridges. The U.S. 
exchange community stands ready to assist you in this effort, and is 
grateful for your support.
 needed: a visa policy that serves all aspects of our national security
    Since the horrific September 11 attacks on the U.S., the way the 
United States administers its visa policy has received much scrutiny, 
and appropriately so. Members of the exchange community, like all 
Americans, want a visa policy that protects us from those who would do 
us harm. We understand that greater scrutiny is required, and we 
support this. The Alliance, along with NAFSA: Association of 
International Educators, also actively supported last summer provisions 
in the Homeland Security legislation that maintained the visa function 
within the Department of State. We are gratified that Congress shares 
our view that State is the appropriate locus of consular services.
    State's effort to tighten visa adjudication, in consultation with 
the Department of Homeland Security, is necessarily a work in progress, 
and has led to unpredictability and confusion. The impact of this 
somewhat messy process is being felt in virtually all walks of American 
life: business, medicine, education, scientific research, travel and 
tourism. The simple fact is that in 2003, there is very little activity 
in American life that does not have an important international 
dimension. And by disrupting these activities through slow or 
inconsistent visa procedures, we pay a high price as a nation.
    As spring and summer and their high volume of visa applicants 
approach, we urgently need to implement a balanced approach to visas, 
one that addresses our national security concerns and also encourages 
the many legitimate visitors whose presence benefits the United States. 
Participants in long-standing summer exchange programs, such as camp 
counselors and summer work-travel students, are enormously valuable to 
American businesses and gain first-hand exposure to American life. 
Often these are individuals who could not afford to come to our country 
without a job to cover their expenses. Because these programs are of 
short duration and keyed specifically to the summer season, long delays 
in visa processing this spring could prove very disruptive both to 
exchange participants and to the many American businesses that depend 
on them.
    Uncertainty over visas also is having a significant impact on 
American campuses. I serve on the advisory board for international 
programs at the University of Kansas, my alma mater. KU reports that a 
Chinese economics professor who returned home to conduct research last 
summer has not yet been able to return to the U.S. pending background 
checks. This has caused significant disruption for the university, 
which had to scramble to find others to teach her classes for the fall 
and spring semesters.
    Further, KU tells me that undergraduate applications for the fall 
are down 20 percent, and that it finds good students around the world 
increasingly looking to Great Britain, Australia, Canada, and New 
Zealand for higher education. Growing difficulty in attracting foreign 
faculty and researchers leads my colleagues in the heartland to the 
conclusion that many in the international scholarly community, both 
faculty and students, view the U.S. as inhospitable to them.
    This perception and the behavior it impels are enormously damaging 
to our long-term interests, which are well-served by attracting the 
best and brightest to an American education.
    Mr. Chairman, we encourage the Committee to work with the 
Departments of State and Homeland Security to ensure that our visa 
policy supports our national security in all its aspects, and to ensure 
that adequate resources are available for the consular function.
    Our security requires that we screen more carefully and effectively 
identify and screen out those who would harm us. Our security also 
demands that we welcome those with a legitimate purpose for being here, 
and whose presence manifestly benefits our nation.
    Mr. Chairman, we urgently need to find a balance between these two 
imperatives, and we encourage you and your colleagues to be active in 
that effort.

       THE MEDIA CHALLENGE: CARRYING OUR MESSAGE MORE EFFECTIVELY

    Mr. Chairman, it is vitally important that our government-sponsored 
media and our relationships with foreign media must be improved if we 
are to succeed in the competition for attention in Islamic nations. As 
Coalition Spokesman during the campaign to unseat the Taliban 
government and destroy Al-Qaeda in Afghanistan, I faced two challenges. 
One, facing down the disinformation from the Taliban ambassador in 
Islamabad, was relatively easy to achieve. The second, convincing a 
skeptical Islamic world press that the Coalition was at war with 
terrorism and not with Islam, was far more difficult. In truth, we made 
little headway in that essential struggle. But a useful lesson was 
learned: the U.S. must take foreign media more seriously. Our 
government understandably focuses its attention on the domestic press. 
It should now be clear that renewed efforts to get our message into 
foreign media are required. Nine out of ten Middle East adults get 
their news from either their national television networks or satellite 
stations such as Al-Jazeera. Most of those outlets, including Al-
Jazeera, are open to us, and we should use them. Mr. Chairman, I 
believe this will not require major new funding, but a change in 
emphasis.
    I applaud the innovative FM radio programming undertaken by the 
Voice of America. Radio Sawa seems to be steadily gaining listenership 
among Arab youth. However, television is the key. It has been the sense 
of Congress that the U.S. should initiate TV broadcasting into the 
Middle East. An increase of $135 million to the BBG for FY 2004 will 
make this possible. There is an urgent need for this to go forward as 
soon as possible.

        STATE DEPARTMENT STRUCTURE: INHIBITING PUBLIC DIPLOMACY

    Mr. Chairman, I share the view of many in the public diplomacy 
community that the merger of USIA into State has inhibited rather than 
enhanced our efforts. Under the current structure, which I believe to 
be flawed, the primary purveyors of public diplomacy programs and 
resources--the Under Secretary for Public Diplomacy and Public Affairs, 
the Bureau of Educational and Cultural Affairs, and the Office of 
International Information Programs--have no direct connection with the 
public diplomacy sections in our embassies, and no formal connection 
with the regional bureaus that supervise those posts.
    This anomalous structure runs the risk of marginalizing public 
diplomacy within State, and already has diminished its effectiveness. 
Those senior officials with responsibility for public diplomacy do not 
control field resources; those with a direct connection to the field 
resources are mid-ranking office directors in the regional bureaus, and 
do not have the clout to take bold action. Instead of sitting in 
policy-making councils, these public diplomacy office directors spend 
their very long days responding to task assignments. The structural 
flaw already is manifesting itself in diminished focus, uncoordinated 
activities, and reduced field resources.
    Mr. Chairman, I would respectfully draw the committee's attention 
to documentation previously presented by the Public Diplomacy Council 
that gave recommendations for the enhancement of public diplomacy in 
its new home within the Department of State. These recommendations 
represent the distilled wisdom of some of the most distinguished public 
diplomacy professionals we have had.
    I would like to stress just one of those recommendations, which I 
believe to be the key to effectively addressing the structural flaw--
and to strengthening the State Department's management of public 
diplomacy. Congress should authorize and the Department should create 
in each regional bureau a Deputy Assistant Secretary (DAS) position 
responsible solely for public diplomacy.
    Establishing a DAS in each regional bureau would ensure that public 
diplomacy is actively represented in senior-level meetings and thus an 
integral component in our approach to every foreign policy issue. A 
senior officer with these responsibilities could effectively coordinate 
public diplomacy activities across the region, make the case for 
additional resources when needed, and play an active role in personnel 
decisions. The DAS would coordinate closely with the Under Secretary 
for Public Diplomacy, creating a policy-level link between these two 
functions that is not constricted by the competing demands of a DAS who 
deals with public diplomacy as one of several responsibilities.
    Creating and maintaining new DAS positions for public diplomacy 
would be a critical first step in changing the Department's culture, 
and would send an unmistakable message to those who work at State: that 
public diplomacy matters, and matters enough to require senior 
leadership.
    Mr. Chairman, this proposal has informally surfaced before, and the 
Department has not appeared to welcome it. There are two primary 
arguments against adding public diplomacy DAS positions: that State 
already has all the DAS positions necessary to do its job, and that 
there are not enough senior public diplomacy officers qualified for 
these positions. Neither of these objections holds water.
    As to the limitation on the number of DAS positions, what we are 
talking about today is how to increase the effectiveness of public 
diplomacy, a vital element of our national security strategy. Are we to 
ignore an opportunity to strengthen our public diplomacy in order to 
preserve an arbitrary ceiling on DAS positions? I believe the American 
public is more interested in effective action than it is in the number 
of senior officers required to accomplish it.
    As to the availability of qualified senior officers, my own 
knowledge of the public diplomacy corps suggests to me that there are 
any number of experienced officers well suited to this type of 
leadership role. But State need not exclude senior officers from other 
career specialties when assessing candidates for these new positions. 
For example, one can easily imagine many political officers being 
particularly effective in making the connection between public 
diplomacy and policy.
    Mr. Chairman, the bureaucratic structure imposed on public 
diplomacy by the merger is not working. The most direct path to a more 
effective structure is to establish these DAS positions. I would be 
happy to discuss this matter further with you, Members of the 
Committee, and your staffs, and encourage you to take the necessary 
steps to effect this change.

    The Chairman. Well, thank you very much, Mr. Keith. I will 
call now on Dr. Zaharna.

    STATEMENT OF DR. R.S. ZAHARNA, SCHOOL OF COMMUNICATION, 
              AMERICAN UNIVERSITY, WASHINGTON, DC

    Dr. Zaharna. Thank you, Senator Lugar and distinguished 
members of the committee. It is a pleasure to be here today.
    Mr. Chairman, your skillful leadership and foresight is 
reflected in your appreciation of the seriousness of American 
public diplomacy in the Muslim world, especially given the 
possibility that the U.S. military may be going into action in 
the region.
    Mr. Chairman, I have submitted my testimony for the record.
    In addressing the topic today, I wish to focus my 
observations not in terms of religion but rather in terms of 
culture. Culture shapes how religion is viewed and practiced, 
and it is culture that shapes communication as well. I would 
like to highlight some of the issues of concern of American 
public diplomacy and then also talk to how we can be proactive 
going into the region.
    First, I am concerned that American public diplomacy 
appears to be backfiring and doing more of the same may hurt us 
more than help us. Since September 11, 2001, America has turned 
up the volume of American public diplomacy with high profile, 
aggressive initiatives in the Arab and Muslim world. Under 
Secretary of State Charlotte Beers outlined some of these 
initiatives earlier. With such an intensive and concerted 
effort, one would expect positive results. Instead, support for 
America has declined and anti-Americanism has grown. The 
question is why. I have addressed some of the reasons in my 
statements. However, the point that I wish to make is that 
until what we know what we are doing wrong, doing more of the 
same may hurt us more than help us. I am not advocating 
American silence, but I am suggesting turning down the volume 
until we figure out how to achieve more positive results.
    Second, American public diplomacy appears to be focusing 
too much on the message and image building instead of 
relationship building. Most Americans tend to think of 
communication in terms of sending a message. American public 
diplomacy likewise has focused on getting America's message out 
without considering how it is being perceived. This is the 
fundamental problem with one-way monologues.
    America can strengthen its communication with the Muslim 
world by thinking how it can build relationships instead of 
relay messages. In the Muslim world, communication is primarily 
about building relationships, cultivating, solidifying, 
defining relationships. American executives often complain that 
they must spend endless hours and sometimes days having coffee 
or tea before they get down to business. It is not because we 
like coffee or tea so much, but it is because relationships are 
the cornerstone of activities in this part of the world. So, 
instead of speaking at the people in the Muslim world, we need 
to speak with them and start looking more at ways of creating a 
dialog.
    Third, American public diplomacy appears to be focusing too 
much on what we say abroad and not on what we do at home. When 
people talk about American public diplomacy, they are usually 
focusing on the State Department, the White House, or the 
Pentagon. They tend to forget in today's CNN world of 
instantaneous global communication that what we--and I mean all 
Americans--do and say right here in America is heard around the 
globe. This is both good and bad.
    For example, the derogatory statements made by prominent 
American religious leaders quickly spread like wildfire through 
Asia, Africa, and the Middle East. President Bush condemned 
some of the comments. A few of the leaders apologized. 
Nevertheless, the damage was already done. America's own 
religious tolerance became suspect.
    On the positive side, Congress has a tremendous role to 
play. As the face of the American people, all eyes are on you. 
You do not have to go to the Middle East to have a positive 
impact on American public diplomacy there. Just by visiting a 
mosque in your district or holding a town meeting on Iraq or 
hosting an interfaith dinner or attending a Muslim community 
event, you will be sending a powerful message that speaks 
volumes about American tolerance, diversity, and democracy. And 
it will reach the people back home.
    Finally, my final concern is how the American military 
action and a continued military presence in Iraq may impact 
American public diplomacy. The American military will likely 
become the new face of American public diplomacy, overshadowing 
all other efforts. The interaction between our soldiers and the 
local people will become the medium as well as the message.
    The American military enters with a distinct disadvantage. 
Already the media has spoken extensively about American 
``military occupation'' and setting up ``a civil 
administration.'' American associations with these terms relate 
back to Japan and Germany and how American military occupation 
helped transform these countries into economic super powers. In 
the Arab and Muslim world, both of these terms are associated 
with the Israeli-Palestinian conflict, and they are very highly 
negative and I think we need to be aware of this.
    The American military can overcome some of this 
disadvantage through heightened cultural awareness and symbolic 
cultural gestures that show our respect for the culture and the 
religion of the local people. The more our soldiers know about 
these cultural differences, the more they can navigate the 
cultural land mines and the safer they and the local people 
will be and the better they will be able to put a better face 
on America's new foreign public diplomacy.
    Thank you, sir, and I look forward to answering questions.
    [The prepared statement of Dr. Zaharna follows:]

   Prepared Statement of Dr. R.S. Zaharna, School of Communication, 
                          American University

                             I. KEY POINTS

  <bullet> The terrorist attacks in September 11, 2001, focused 
        attention on America's public diplomacy.

  <bullet> The U.S. Congress, State Department and White House have all 
        intensified their efforts to get America's message out and 
        improve America's image.

  <bullet> Instead of yielding a more positive American image, 
        America's public diplomacy appears to have generated more anti-
        American sentiment.

    In the aftermath of the terrorist attacks in America on 9/11, 
Americans were asking, ``Why do they hate us?'' The attacks underscored 
the importance of public diplomacy. As Congressman Henry Hyde noted at 
last year's congressional hearings, ``the perceptions of foreign 
publics have domestic consequences.'' President George Bush echoed the 
sense of urgency when he said: ``we have to do a better job of telling 
our story.''
    In short order there was a flurry of activity to get America's true 
message out to the world. Within a month after the attacks, a former 
advertising executive with more than forty years of experience, 
Charlotte Beers became Under Secretary of State for Public Affairs and 
Public Diplomacy. The Senate and House held hearings, passing the new 
``Freedom Promotion Act of 2002,'' which injected $497 million annually 
into the budget of public diplomacy. First the Pentagon, then the White 
House established special offices to help with America's public 
diplomacy initiative.
    The Arab and Muslim world became a central focus of many of the 
State Department's new initiatives because this was where the American 
message was being perceived as horribly distorted or missing 
altogether. Top American officials began granting interviews to the Al-
Jazeera news network, taking America's case directly to the Arab 
public. The State Department compiled a booklet on the link between Al-
Qaeda and September 11, ``The Network of Terrorism,'' that quickly 
became its most widely disseminated brochure ever. The State Department 
also produced a Web site and series of mini-documentaries on the 
positive contributions of Muslim Americans. The United States also 
launched its own Arabic-language radio station Radio Sawa, featuring 
American and Arab pop music with short news broadcasts. Radio Sawa has 
successfully garnered such a large listening audience that there are 
plans to launch an Arabic-language television station styled on the CNN 
news format.
    With such a concerted effort at the highest levels of the American 
government to get America's message out, to ``win the hearts and 
minds'' of the Arabs and Muslims, one would expect an increase in 
understanding and support of American policy. Instead, it appears the 
opposite has occurred. America's intensified public diplomacy 
initiative has met with more misunderstandings, and support for 
American policies has declined globally--not just in the Arab and 
Muslim world.
    Studies conducted by the Pew Research Center, the German Marshall 
Fund and the Chicago Council on Foreign Relations, and the University 
of Michigan all cite a precipitous drop in support for the United 
States around the globe, even among traditional American allies as well 
as new adversaries. The Economist (January 2, 2003) noted similar 
findings last month in a report on American values. However, in the 
regions where the most intensive public diplomacy efforts have been 
made, the negative image of America is particularly pronounced. In 
Pakistan, a critical ally in the United States military operation 
against the Taliban in Afghanistan, support has dropped 22 percent. 
Some believe that the surprising victory of the Islamic party in 
Pakistan earlier this year stemmed from increased anti-American 
sentiments. In Egypt, a longtime American ally, only six percent of 
those polled have a favorable view of American policy.
    The immediate explanation for the declining support is the Bush 
administration's war on terrorism and the impending military operation 
in Iraq. However, the whole purpose of public diplomacy is to generate 
support from foreign publics for political policies. To be effective, 
public diplomacy must work not only in times of peace, but also in 
times of conflict. In fact, when conflicts are pending, it is essential 
that public diplomacy be effective if hostilities are to be avoided and 
potentially destabilizing public sentiment contained.
    The critical question is: How have America's efforts to improve its 
public diplomacy caused a decrease in foreign public support, 
particularly in the Arab and Muslim world? If the United States does 
launch a military operation against Iraq, a move sure to fuel anti-
American sentiments, will American public diplomacy be able to meet the 
challenge?

                  II. WHEN CAMPAIGNS FAIL OR BACKFIRE

  <bullet> American public diplomacy may not be achieving positive 
        results for logistical and strategic reasons.

  <bullet> American public diplomacy appears to be backfiring because 
        the cultural style, content, and tactics used resonate 
        positively with the American public, but negatively with non-
        American publics.

  <bullet> American public diplomacy appears to be backfiring because 
        the targeted foreign publics are getting conflicting messages 
        from the United States.

    Logistically, time is a major factor determining the effectiveness 
of a campaign. The campaign goals outlined by American public diplomacy 
officials require formulating, testing, and disseminating information 
to change attitudes and ultimately behaviors. Such campaigns normally 
require five to seven years to be effective. Thus, it is too early to 
refer to the current attitudes and behaviors in the targeted areas as 
``results.'' Officials can do little to speed up the process of 
changing attitudes that have developed over a substantial span of 
years.
    Strategically, another factor that affects a campaign's 
effectiveness is the degree of cooperation between senior policy makers 
and those responsible for communicating those policies. The greater the 
coordination, the more effective the overall campaign. Domestically, 
few successful political campaigns are run today without the active 
involvement of a communication strategist and pollster to ensure that 
policy statements are well received by the public. These professionals 
are at the decision-making table. The close link between policy 
formulation and image cultivation is well established on the domestic 
front. On the international front, such coordination, which is even 
more critical because the stakes are so much higher and the cultural 
terrain less familiar, appears to be lacking.
    While time requirements and strategic coordination may account for 
the perceived lack of results, American public diplomacy appears also 
to be generating negative results. In short, it's backfiring.
    Cultural differences in style and substance often cause campaigns 
to backfire, particularly in an international, cross-cultural setting. 
Public diplomacy appears to entail more than simply translating 
official messages into a new language and disseminating them to a 
targeted population. It is equally important that the underlying 
cultural style and content of a nation's public diplomacy messages 
resonate positively with the foreign public. If there is asymmetry in 
cultural styles, a nation's effort to improve its public diplomacy may 
inadvertently magnify cultural differences and amplify 
misunderstandings. One can alienate the very same audiences one is 
trying to persuade. That's a public diplomacy backfire.
    Many of the new American public diplomacy initiatives reflect a 
uniquely American cultural style. For example, President Bush's 
penchant for ``speaking straight'' may resonate positively with an 
American public that values directness. But the Arab public prefers 
more indirect messages, especially in public. Thus, irrespective of the 
message's content, differences in delivery style can cause a message to 
resonate negatively.
    Similarly, Americans view facts and arguments as particularly 
persuasive. Much of America's public diplomacy efforts have focused on 
gathering as many facts as possible as a bulwark to a persuasive 
argument. In other cultures, metaphors and analogies that suggest 
important relationships are much more persuasive than impersonal 
``facts.'' Arguments in these cultures are seen as relationship 
busters, not builders. American officials may be perplexed by how 
callously foreign audiences dismiss the facts, yet foreign publics are 
chagrined by how American officials are so myopic in their focus.
    American officials are also perplexed by the rampant spread and 
credibility of rumors. The rumors usually are not true, but not only 
are the rumors believed, they also appear to spread faster and farther 
than anything disseminated over the mass media. Rumors speak to the 
power that interpersonal communication has over the most extensive 
media network American officials can devise. Television may be good in 
getting the message out, but personal discussions usually determine 
what the message is.
    The perception of conflicting messages can also cause a campaign to 
backfire. In this regard, American officials are working on two fronts, 
one external and one internal. Externally, America is working to combat 
competing messages from the Arab media and Islamic religious leaders. 
To combat competing messages from the Arab media such as Al-Jazeera, 
the Arab news network, the United States is considering launching its 
own Arabic-language television station. To combat competing messages 
from Islamic sources, part of the State Department's efforts are 
focusing on ways to reform school curriculum. Both these initiatives 
appear valid. However, both initiatives reinforce a competitive stance 
vis a vis the United States and the Arab and Islamic world, rather than 
a cooperative, relationship-building stance.
    Another source of conflicting messages to the Arab and Muslim world 
appears to be coming from the United States itself. Addressing these 
internal sources of conflicting messages can help to deflate the power 
of conflict messages from external sources. The United States may need 
to become more vigilant in addressing the dual messages it is sending 
to the Arab and Muslim world because each perceived contradiction 
erodes America's overall credibility.
    For example, American officials say the war on terrorism is not 
against Islam, yet, many in the Arab and Muslim world perceive that 
predominantly Muslim countries are being targeted. They cite the 
different stance the United States is taking in advocating the use of 
force in Iraq, a Muslim country, and diplomacy in North Korea, a non-
Muslim country.
    Similarly, American officials question Islam's tolerance and decry 
anti-American statements from Muslim religious leaders. Yet, many 
throughout the Muslim world question America's own tolerance when 
prominent American religious leaders deride Islam. The President has 
disavowed and condemned these statements and some of the religious 
leaders have apologized, but the damage had been done. America's own 
religious intolerance became the story.
    The current American public diplomacy initiative also vigorously 
promotes a positive image of Muslim Americans through special Websites 
and advertisements. Yet, many Muslims in America now live in fear of 
ethnic or religious profiling. Some are afraid to fly on airplanes, 
some are afraid to give to charities, and others are afraid to wear a 
headscarf. Hate crimes and ethnic profiling of Muslims has grown at an 
alarming rate in the United States. Their fears are expressed to 
friends and relatives abroad.
    American officials extol the virtues of American democracy and 
justice. Yet, many in the Arab and Muslim world who have family in the 
United States are petrified by the perception of a new system of 
justice in post-September 11 America. The idea that someone can be 
picked up, held in secret, for an indefinite period of time, and 
without access to a lawyer is truly frightening if one sees religion or 
ethnicity as the only common denominator.
    Finally, American officials speak ardently of their support for 
Israel in the conflict with the Palestinians. Given the long-standing 
alliance between Israel and the United States, as well as the close 
family ties between many in both countries, the identification that 
many Americans have with Israel is understandable. For many of the same 
reasons that Americans identify with Israel, many in the Arab and 
Muslim world identify with the Palestinians. Just as Americans appear 
to respond immediately and emotionally to the deaths of Israelis--and 
appear insensitive to the deaths of Palestinians--many throughout the 
Arab and Muslim world respond imnmediately and emotionally to the 
deaths of Palestinians--and appear insensitive to the deaths of 
Israelis. The use of American-made weapons by Israel visually 
associates the American image with the death and destruction among the 
Palestinian people, a predominantly Arab and Muslim people with whom 
others throughout the Arab and Muslim world closely identify.
    There is an important footnote to be made about American policy. 
American policy in the conflict between Israel and the Palestinians is 
not an abstract entity that is contained solely within the realm of 
American values. American policy concretely translates into the use of 
highpowered American-made weapons being used in heavily populated 
civilian areas. The inevitable result is the large number of civilian 
casualties and the vivid images of human suffering. These images speak 
louder than the volumes of words about American values. One Jordanian 
teenage girl spoke of her perception of American values, suggesting 
that while American values are noble, there is a double standard in 
their application: ``All the Americans ever talk about is their 
freedom, and their liberty and their independence, and they can't see 
that they are actually taking that away from people [the Palestinians] 
who have lived in that land for generations and generations.'' Thus to 
focus on promoting American values, without addressing the underlying 
contradictions and perceptions, may be counter productive.

              III. RECONSIDERING AMERICAN PUBLIC DIPLOMACY

  <bullet> Relationship-building strategies may be more effective than 
        message and image-building strategies.

  <bullet> Until American officials address the reasons why American 
        public diplomacy is backfiring, intensifying its campaign may 
        only fuel anti-American sentiment.

  <bullet> If the United States takes action in lraq, the American 
        military will become the face of American public diplomacy and 
        precipitate special considerations.

    One can look at public diplomacy from two perspectives: 
relationship-building strategies versus messages and image-building 
strategies. Currently, American public diplomacy appears very much 
focused on its message and its image. Relationship-building strategies 
focus on developing mutually beneficial and reciprocal connections 
between people and nations. Adopting relationship-building strategies 
represents a new mindset and approach. However relationship building is 
not alien to American ideals and values (it reflects the best of 
America's civic spirit), and most important, it may prove to be much 
more effective for American public diplomacy in the Arab and Muslim 
world than the current approach.
    Currently, the United States does not appear to be adopting a 
relationship-building approach. When American officials began to 
address public diplomacy in the Arab and Muslim world much was made of 
how to ``win the hearts and minds'' of people. The very focus on 
``winning'' in itself suggests a competition, a dividing line between 
``us'' and ``them.'' One wins, the other loses. The negative perception 
of an ``us-versus-them'' mindset can undermine the win/win, cooperative 
perspective that is needed to build positive, mutually beneficial 
relations.
    Relationship building means paying close attention to language. In 
times of conflict, securing the support of one's own public is the most 
important task. One way American leaders have been demonstrating their 
support and rallying the American public is through the use of strong 
rhetoric. However, their words are heard not only at home, but around 
the world. Using strong rhetoric to gain American public support may be 
counter-productive if it results in loss of support abroad. America may 
be an individualist culture and shrug off personal insults. In 
collectivist cultures, to insult one is to insult the entire group. 
Culturally insensitive remarks are easy to make, hard to retract, and 
backfire horribly. American public diplomacy officials may need to work 
more closely with American politicians to assist them in becoming more 
culturally aware of how others may perceive American political 
rhetoric.
    Ultimately, relationship-building strategies may also be more 
effective because they are more culturally attuned to that of the 
publics with whom America is trying to communicate. The focus on 
getting its message out is a one-way communication approach that 
requires very little participation from the audience beyond the Arab 
and Muslim publics accepting the American message. Nothing in the Arab 
or Islamic world suggests that this public subscribes to a one-way, 
transmission model of communication. The culture and society are built 
around relationships. Relationships-building strategies tend to be more 
long-term, but they are more in tune with the culture of the people in 
the Arab and Muslim world.
    Second, American officials may need to address the reasons why 
public diplomacy is generating more anti-American sentiment before it 
takes further steps to intensify public diplomacy efforts. In this 
regard, American public diplomacy may opt for less visible and 
aggressive communication strategies. Currently, American public 
diplomacy officials appear to be focused on the technical problem of 
disseminating information without accounting for how that information 
is being interpreted by foreign publics In the course of disseminating 
information, it appears that problems of conflicting messages, 
different communication styles, and cultural insensitivity are causing 
American efforts to backfire. The United States is trying to hammer 
home its message to the Arab and Muslim world; ``they'' aren't getting 
it, but America's image is taking a beating. Until the counter-
productive factors are addressed, disseminating more of the same 
information in the same manner is likely to compound America's image 
problem, not lessen it.
    Strategically, whenever an image is highly negative, the goal is to 
deflect the audience's attention away and downplay the negatives. 
Communication professionals skilled in crisis communication management, 
more commonly found in the corporate or private sector, have often been 
quite effective in deflecting public criticism and minimizing the 
negative effect of unpopular actions.
    Given the possibility of the United States launching a pre-emptive 
strike into a large Arab country that is predominantly Muslim, crisis 
public diplomacy may be the most strategic communication option and 
most prudent course of action at this time.
    Finally, the possibility of American military action and a 
continued military presence in Iraq raises special concerns for 
American public diplomacy. The American military will likely become the 
face of American public diplomacy, overshadowing all forms of verbal or 
mass media efforts. The direct interaction between American military 
personnel and the local population will be the message as well as the 
medium.
    The American military enters with a distinct disadvantage. Already 
the media has spoken extensively about an American ``military 
occupation'' and setting up ``a civil administration.'' The American 
association with military occupation is fundamentally positive; the 
American occupation of Germany and Japan helped transform both into 
world economic powers. In the Arab and Muslim world, military 
occupation conjures up images of Israeli military occupation; images 
that are in no way benign or positive. These negative images are 
fertile ground for rumors, stereotypes and fears that will shape the 
public perception of an American military occupation of Iraq. 
Similarly, the use of the term civil administration is associated with 
Israeli attempts to take control of the Palestinian people. Again, the 
association is quite negative and ripe for being perceived as negative 
no matter how positive American intentions may be.
    Lastly, cultural awareness and sensitivity will be key for helping 
the American military to put its best face forward, avoid tensions and 
ensure the safety of both American military personnel and the people 
they encounter. If American troops have not been trained in important 
cultural differences in behavior, such as eye contact, they need 
training so that they do not misinterpret a harmless stare as an 
aggressive challenge. If there are not sufficient female soldiers to 
interact with the local female population, there will likely be no 
interaction and thus an opportunity for relationship building may be 
lost. If religious practices such as covering one's hair is looked down 
up or reverence to holy sites or religious rituals are not up held, 
American military will lose important opportunities for demonstrating 
tolerance and respect for the religious beliefs of the local people. 
All of these seemingly small, concrete gestures by the American 
military will to much to shape the face of American public diplomacy 
during this critical time.

    The Chairman. Thank you very much, Dr. Zaharna. Each of you 
have raised so many interesting and complex questions that it 
is difficult to concentrate, at least in direct questions to 
you, all of this material.
    Let me just indicate at the outset that certainly, Mr. 
Kohut, in your polling you have found--and at least you are 
finding I guess in the second round--freedom of expression is 
highly valued, and we would hope that that would be so and the 
building of democratic institutions. The dilemma I suppose some 
of us have is that in many countries in which you have done 
your polling, there does not appear to be much freedom of 
expression. That is, the governments do not at this point 
appear to be honoring that type of idea. It may be that the 
``people,'' in quotes, who are not a part of the elite, the 
administration, the governing power, would like to have more 
expression, and most of us as human beings would. We as a 
Nation try to appeal to that.
    But we are in a cross current here. The Israeli-Palestinian 
issue keeps coming up in one form or another, sometimes 
euphemistically called Mideast policy. The intersection that 
Dr. Zaharna mentioned in many of these relationships, including 
our own foreign policy, our military or so forth, not only is 
reflected in potential conflict with Iraq, but the failure to 
make headway with the Palestine and Israeli issue. If these two 
things are almost insuperable, probably you are right, Dr. 
Kohut. You are simply polling to show that things are not going 
well, but what we heard in the first panel with regard to 
public diplomacy only, at least in your judgment, will 
marginally affect this.
    Or as you were saying, Mr. Keith, or maybe Dr. Zaharna, 
turn the volume down--one or the other of you said this--
because essentially you are getting very hyped up and very 
enthusiastic about all this, but you may in fact be 
exacerbating the problem.
    That is the reason we asked the three of you to come, not 
to be counter-distinct to the first panel, but there are many 
views in this country from veterans of the trail like 
yourselves who have been in this business a long time.
    I am still left, after listening to all this, with the 
thought that probably, all things being considered, we should 
increase our public diplomatic efforts. That is, that the first 
panel probably in many ways is on the right track even though 
each of our hearings, one the chairman had last year and this 
one this year, are more informative each time as to what we are 
doing or who is doing it.
    The exchange problem we have sort of highlighted, but you 
have put a new dimension on that, Dr. Keith, suggesting that 
$100 million should be spent really, as I understand, on 
exchanges with regard to the target audiences we are talking 
about today, that is, the Mideast, Near East, and that may be 
right. The construction of these exchange programs, which you 
know from your own experience as Ambassador, is not an easy 
task. There are some ongoing propositions that have worked well 
and we are inclined, I think, in this committee to support at 
least the level we have been doing as opposed to cutting back 
on that. And really we will look forward to experts like 
yourselves as to how, if the money were authorized and 
appropriated, it could be wisely spent, who selects the people, 
where do they go.
    As you have suggested, Mr. Keith, in our universities 
presently in one of your four points, the visa issues are very 
difficult for students. Purdue University in my own home State 
I cite simply because there are 5,000 international students 
there. This is a huge problem not just for the students but the 
administration of the university in working with the 
authorities in Indiana or Chicago or wherever these people 
intersect.
    And yet, I have encouraged them there, as well as at other 
universities, that the administration take a lot of time really 
to work with the students, to accompany them often to the 
immigration offices or wherever. I think that kind of 
relationship and the sensitivity of that may encourage them to 
stay in the United States, to stay on the course because they 
came here to begin with, as many university students did, from 
around the world because we have a lot to offer. And we want 
them and we want their leadership. These, once again, are 
relationships which are tremendously important if we are to 
have this public diplomacy and have some sustaining value.
    So I take each of the points you have made without having a 
firm conviction, as each of you do, as sort of 1, 2, 3, 4, how 
we proceed in this. This is an area of sensitization of this 
committee, but finally we have to make some decisions, as will 
our administration, as will our colleagues and the rest of the 
Congress.
    So let me just ask for sake of argument. I come down on the 
thought that we probably should increase our exchange efforts, 
that clearly we ought to try to work out with immigration ways 
in which the antagonisms that come from exchange are mitigated, 
or even if they are not exchange students, just people paying 
toll or freight coming here to the United States, that we are 
helpful to this, that we continue to boost international 
students coming here.
    With regard to the issue of how we get across freedom, this 
probably is a basic thing that we could have a hearing about 
all by itself. In other words, today I think in a way we have 
been talking about tactics, but the overall strategy probably 
is a world that shares some common values of freedom, freedom 
of speech, freedom of religion. And with many of the countries 
we are talking about, we are not witnessing a whole lot of 
this. Why? And what should be our foreign policy with regard to 
these countries that appear to inhibit their citizens?
    And if in fact we have an opportunity in Iraq, if the 
aftermath of Iraq is United States involvement plus, hopefully, 
many, many other countries, most people who have testified 
before this committee say that will be a daunting task. The 
numbers of institutions in Iraq specifically that are there to 
build upon for democracy are pretty thin, and it is a longtime 
quest even in a situation that has some resources that could 
ultimately be fairly prosperous on behalf of the people. The 
old idea we had earlier on with Chairman Biden's hearings of 
people dancing in the streets and going off in freedom was 
clearly very naive. There may be a short amount of dancing, but 
then not very much democracy. And how you get the structure 
there so that people build this is still not clear to many of 
us although we may be involved in that very soon.
    This is why we have been trying to stress to our own 
administration planning as thorough as the military planning 
because it probably will have to come in an immediate 
transition from our military. General Franks, we have heard, 
will not be ruling Iraq in the event we come to that situation, 
nor anybody else of his stature. But there will be thousands of 
Iraqi bureaucrats or public servants or however you wish to 
characterize them who will have to be enlisted to feed, to 
police, to do these things. And will they be democratic? Will 
they be able to get across the boundaries of Sunnis and Shiite 
Muslims and Kurds, quite apart from Iranian tribes and others 
that are in the country? You know, all of us are going to 
school very rapidly and trying to really help each other.
    But let me just ask generally if you have any comment about 
what should be the strategy of our committee or our government 
at least in the foreseeable future, the next 90 days, in which 
very fateful decisions may be made. Does anyone want to have a 
try at that?
    Mr. Kohut. I just want to emphasize one thing. I am not 
trying to be pessimistic or discourage public diplomacy. It is 
certainly the right thing to do. It is the only thing we can 
do. But our committee's policies are the 800-pound gorilla in 
terms of these people's attitudes, and one point I have not 
made is as bad as it has been in the Mideast area in the region 
of conflict, it is not that bad in Africa, but it is getting 
bad in Africa because the African Muslims are beginning to look 
at the Mideast issue and the Palestinian issue and say America 
really does not care about people like us.
    So barring dealing with that 800-pound gorilla, one of the 
things that we have to offer as the oldest democracy is some 
way of addressing the aspirations of these people. You are 
right. They do not have democracy, but they want it. And I was 
surprised and I cannot wait until I can report to you how 
clearly they want it and how much they understand what it has 
to offer them. If we do Iraq and in the aftermath of Iraq we 
can make the case to them, well, it will not obviate the 
problems with the 800-pound gorilla, but it is something we can 
do that is really concrete and important.
    The Chairman. Thank you. Well, that data on the aspirations 
for freedom will be very important. There is some skepticism, 
but if that is true, that really offers something to build on 
even as we try to contrive how you do the building.
    Ambassador Keith. Mr. Chairman, if I could speak for a 
moment to the 800-pound gorilla. If you have been around as 
long as I have in the Middle East working on this issue--and 
that is the issue that I have been dealing with since my first 
post in Baghdad in 1966. I was in the Middle East for the 1967 
war, for the 1973 war, for the 1991 peace conference in Madrid. 
I can tell you that opposition to American policy and 
particularly opposition to the unquestioned support of the 
United States and its people for Israel and Israel's interests 
is not new. It has been a consistent thing. Nevertheless, our 
unfavorable rating at the present moment is much lower than it 
has been at many points during this period.
    I think Mr. Kohut's baseline study is extremely important, 
but for those of us who have gone through this process, we 
understand that when the United States has been perceived as 
taking an active role in trying to pursue its stated policies 
in the Middle East, a just solution to the Palestinian issue 
and security for both sides, security for the State of Israel, 
there has never been any confusion about where we stand on 
that. But when it appears that we are actively pursuing those 
goals, our stock goes up. It is easier for us to work. It is 
easier for us to deal with our interlocutors. It is easier for 
us to pursue other public diplomacy goals and other foreign 
policy issues. When it is perceived, as it is today, that the 
Middle East problem has taken a back seat, is being put off to 
the side while the United States pursues the anti-terrorism 
issue, then our popularity, approval ratings go straight to the 
bottom, and it makes it very difficult for us to achieve 
anything.
    The Chairman. Thank you.
    Dr. Zaharna.
    Dr. Zaharna. Thank you.
    I would say, yes, the policy addressing that has definitely 
been a factor.
    I also want to go to the training. There has been a lack of 
cultural sensitivity in the area, and the more culturally 
sensitive we are, I think the better we will be on that. And so 
training.
    And when I talk about turning down the volume, I am not 
talking about no public diplomacy, but there are many things 
that we can do in the meantime, the training, the exchanges, 
the working with the American public on that, also the USIS. 
The loss of that was a tremendous loss. It lost the agility. It 
lost the field-driven initiatives.
    My only concern with the television is what is the buy-in 
for the audience. For radio American music is wildly popular. 
To have a television program on the CNN format that focuses on 
our policies that are not wildly popular is almost like shining 
the spotlight on the 800-pound gorilla, and that is my concern 
there.
    The Chairman. Well, perhaps the television, to pick up one 
of your points earlier on, can indicate Senator Biden going to 
a mosque in his district or likewise our doing that or maybe 
even hearings like this. People I suspect in some of the areas 
that we are discussing today would like to know that sensitive 
Americans are trying to talk about this intelligently and 
trying to bring forward from experts like yourselves some ideas 
that could affect public policy. That remains for others to 
decide.
    I just thank each one of you, and I want to recognize my 
colleague, Senator Biden.
    Senator Biden. Thank you very much and thank you all for 
being here. It is an important contribution you are making.
    In the previous hearing we had on this subject, we had 
witnesses from the public sector like all of you who gave a 
similar perspective. I have been, as the chairman and others I 
am sure have been doing, gathering in my office for the past 9 
to 10 months experts on the Middle East, actually quite frankly 
more broadly experts, academics from around the Nation and from 
around the world on Islam. As a matter of fact, 3 years ago, 
realizing how little I knew about Islam, I hired a Ph.D. 
anthropologist from Harvard whose expertise is Islam to begin 
to try to educate me.
    And I have come up with a few tentative conclusions of my 
own which I would like to just put out there, not for pride of 
authorship but for your constructive criticism to maybe help me 
further fashion what role I think we should be playing in 
trying to affect policy as it relates to public diplomacy. But 
quite frankly, I think you all have made a similar point.
    The Middle East, the ``Palestinian issue,'' is of gigantic 
consequence, and I would agree with you, Mr. Ambassador, that 
there is a direct correlation between our benign neglect and 
that translates into opposition. I have been, not a lone voice, 
but an unheeded voice for this administration from day one that 
this would be the result of their failure. It is better to act 
and make a mistake in my view than to have the posture which 
this administration took when they came in, which was 
literally, and almost formally announced, we are not getting 
involved in that. We are not getting involved in the Middle 
East. Period. If you remember the first 8 months, that is what 
the policy was, including things like messages being sent that 
we were going to draw down forces in the Sinai. We were talking 
about a relatively few forces.
    But that reverberated. I remember I was meeting with 
Mubarak in his office in Egypt and him looking at me like what 
in the hell are you doing, my phrase, not his. The message sent 
around the world was we are getting out of this deal. We will 
let the parties take care of this which translates everywhere 
else in the world--as much as we are disliked by many, 
including the Palestinians, doctor, as you know, having worked 
for the Authority, there is this notion that they know the 
ultimate answer rests with us as well as them. I do not know a 
single Palestinian leader who thinks there can be any prospect 
of a solution in the Middle East without the United States 
being a player.
    So I start off where I think most of you start. There is an 
800-pound gorilla sitting in the middle of the room.
    I would argue further it is aggravated by the fact that if 
we claim our shift in priorities relates to terrorism, everyone 
in the Middle East knows Saddam is not the worst actor. The 
bulk of the terrorism affecting the Middle East coming out of 
Iraq compared to Iran or Syria is minuscule. I do not know 
anybody in the Middle East who thinks that the hot bed of 
support for liberators from the Palestinian perspective, 
terrorists from the Israelis' perspective--the locus is 
Baghdad. Nobody believes that. I do not know anybody who 
believes that. Let me ask you a question. Do you think anyone 
in the Middle East believes the locus of terror is Baghdad? I 
am not being facetious now. I am being serious.
    The reason I raise this, it seems to me it matters. It 
matters about policy. So one of the problems I have on the one 
hand is that all the experts with whom I have spoken over the 
last year basically say, Joe, you could get all the public 
diplomacy in the world right. If you do not get the policy 
adjusted--and it is not just Israeli-Palestinian issues, but 
policy relative to oligarchic regimes. Everybody forgets. How 
did bin Laden get his start? Was his focus on the United 
States? No. Does he give a damn about a single Palestinian you 
have tried to help, doctor? No. Did he ever evidence any 
interest in the Palestinian people? No, never. It was all about 
a regime he thought had gone bad.
    But here is my dilemma. My dilemma is that I am not going 
to get to change the policy of this administration, which I 
think is wrong-headed in terms of its priorities. I agree with 
a number of specific things it is doing, but prioritizing how 
to approach it I disagree with.
    But here is what bothers me and the reason why I think 
public diplomacy done well may very well mitigate. A group of 
Arab specialists, several of whom are Arabs, academics who have 
spent time with me, say we are not going to win the hearts and 
minds of the Arab world unless there is a fundamental shift in 
policy, which I am not proposing a fundamental shift because I 
do not agree with--at any rate, that is another issue.
    But what we have to do is give the moderates in the Arab 
world something that they can fall back on, some place to push 
off of. That is what public diplomacy might be able to do.
    Now, let me get right to a specific point. I recently was 
in Davos at the World Economic Forum, and I got so tired of 
being lectured by the world about the United States. I found it 
interesting when I had an opportunity to be on a panel with one 
of my French colleagues. And this goes to your point, doctor. 
When religious leaders who are wrong-headed and ignorant, like 
those who spoke out about Islam being a religion of terror, 
paraphrasing what was said--that was not a quote--that gets 
immediate coverage throughout the world, particularly in the 
Muslim world.
    I for one have visited our mosques. I go. I engage the 
Islamic community in my State and many others do. I would argue 
that the record, in the face of the terrorist acts that 
occurred here which were the product of those who happened to 
be Muslim and the deafening silence of religious leaders in the 
Muslim world--deafening silence in the Muslim world. I would 
argue that say the United States has acted better than any 
other country in the world in terms of how it treats the 
minority of Muslim American citizens. Remarkable.
    And I would point out, look how the Muslim community is 
treated in France. It is outrageous. If we treated the Muslim 
minority, which in that country is significant, like the French 
do, we would be justifiably vilified in the whole world. So why 
is it that France gets no criticism in the Muslim world? It is 
outrageous. Their visa policy, their policy toward allowing 
participation in their democracy within their country by Arab 
citizens of France is despicable. I do not hear any of you at 
all talking about that. I do not hear anybody talking about 
that in the Middle East.
    Which takes me to the point that I think what you had to 
say, doctor, is meaningless. This notion of cultural 
sensitivity, which is real, obviously does not get us much. 
Because name me a European country, doctor, that is remotely as 
sensitive to Muslim culture as America is in its insensitivity. 
Name me one. That is a question. Can you name one? One European 
country where the treatment of Arab Muslims, citizens or those 
on visas in those countries, are treated as well by the laws 
that are on the books, by the actions of their citizens, and by 
the general media in that country, as well as Muslims in the 
United States are treated. Can you name me one country in 
Europe?
    Dr. Zaharna. Senator Biden, I did not mean to----
    Senator Biden. That is a question. But can you name me one? 
Because it is a larger point I am trying to make.
    Dr. Zaharna. I was just trying to bring a different 
perspective.
    Senator Biden. No, I understand that. But I am looking for 
perspective. Can you name me one country?
    Dr. Zaharna. I did not mean to row and ruffle.
    Senator Biden. No. I am not ruffled. Look, this is an 
important academic point, doctor, because if your point is 
right, that if we are more sensitive----
    Dr. Zaharna. Yes.
    Senator Biden [continuing]. We would not be facing this 
dilemma in the Middle East among Arab Muslims, which I do not 
discount, if that is correct, then you would be able to say, if 
this were a debate, which it is not, let me give you evidence. 
If countries in Europe are less sensitive to Muslim interests 
in their country and yet are viewed better than we are, then 
obviously cultural sensitivity is not a defining element of how 
we are viewed. It goes back to policy. I stand to be corrected 
by any of you.
    Dr. Zaharna. I am not saying that it is the only thing or 
that one discounts the other, but greater cultural 
sensitivity----
    Senator Biden. Is always good.
    Dr. Zaharna. And that was my point.
    Senator Biden. Well, but it is marginal. What frustrates me 
is I find it to be so marginally different. I find myself 
caught between two poles here, an administration whose general 
insensitivity is boundless in my view by the way it treats our 
friends and allies, and on the other hand, the generic 
criticism of American society in a way that I find not 
sustainable in fact.
    So I would like to know for the record is there any 
European country that any of you are aware of that are more 
sensitive culturally, politically, judicially, or in any 
fashion to Arab Muslim interests than we are? That is just a 
question.
    Mr. Kohut. I would like to both give you some fodder for 
your argument and perhaps give you an explanation. I have some 
comparisons I am going to send along to you about the way the 
American public reacted to the Japanese in 1941 after the Pearl 
Harbor attack.
    Senator Biden. Exactly. It is remarkable how they acted.
    Mr. Kohut. Not behavior. Polls. The differences between 
reaction to the Japanese then and attitudes toward the Muslims 
now are extraordinary, just extraordinary. The American public 
has become more civil, more tolerant, and both Gallup and our 
surveys showed after 9/11 favorability ratings of Muslim 
Americans actually rising. This is not well known.
    But now I want to go to your second point. How can the 
French get away with what they do and our rather civil reaction 
to Muslim Americans and the larger Muslim world exists? And the 
difference is we are not France. We are the most powerful 
Nation in the world, clearly the most powerful Nation in the 
world.
    Senator Biden. Good point.
    Mr. Kohut. And that power breeds two things. It breeds 
suspicion and it breeds resentment.
    I was struck. When we did a survey with the International 
Herald Tribune after the 9/11 attacks, there was a great 
outpouring of sympathy, but the No. 1 thing--not the No. 1 
thing but a very prevalent view in every part of the world, 
even Europe, was it is good that the Americans know what it is 
like to be vulnerable.
    Senator Biden. Precisely.
    Mr. Kohut. And that reflects the resentment of our power.
    This business in our survey about thinking that we want to 
do this for oil, even when the Europeans share--they do not 
share our strategies and tactics, but they share our concerns 
with Saddam Hussein, is a measure of suspiciousness about our 
power.
    So, how do you deal with that? You deal with that, when you 
are the most powerful Nation in the world, by acting humbly, 
more humbly than you might act in a rational way.
    Senator Biden. The example I give to people in my home 
State, to reinforce that point, is your very good friend and 
next door neighbor working for the DuPont Company just came 
home to his wife and said, by the way, I just lost my job to 
downsizing. And you just purchased a brand new Lexus for your 
wife, and you drive up the driveway and your wife comes out and 
says, by the way, Charlie just lost his job. If you are a good 
neighbor, you would park the Lexus in the garage. You do not go 
next door and knock on the door and say, Charlie, guess what I 
just got Jill. A new Lexus. Average people understand that. We 
do not do that very well at all.
    But the reason I pursue this--and I realize I am keeping 
you, Mr. Chairman--is we tend to have an instinct for the 
capillary instead of the jugular around here. It is not a 
criticism of any witness. I sincerely mean this. My word. 
Because I think your testimony is vitally important. But for us 
to figure out what really is at stake here.
    I would argue the point you just made, and that is it seems 
self-evident to me as a plain old politician that our 
ascendancy, beyond all proportion to any other nation in the 
last several centuries in terms of cultural superiority--by 
superiority I mean not really superiority. If you are a 
Frenchman and you want to get on the Internet, you better speak 
in English. It is highly resented. We did not say you have got 
to use English. There is no trade agreement saying it has to be 
in English. And what I say to America is imagine if in order to 
log on the Internet, you would have to be able to speak French. 
You would be angry as hell about the French. Period.
    So what I am trying to get at here is what are the things 
we can actually do because the root of this, even if we could 
sit down and agree on what the absolute best policy in the 
world is, the most just, the clearest, if we had Plato's 
philosopher king sitting here making these judgments, I would 
respectfully submit we would still have a problem.
    Now, that does not mean we ignore things we can do, but it 
does mean we should have a sense of proportion about what we 
are likely to be able to do.
    And what we need to do I think in America is not only make 
the case for more sensitivity, but acknowledge what the 
American public has done, what they have done. They have been 
incredibly tolerant. Look what happened. I am so sick of the 
Europeans. I have had it up to here. Look what happened when in 
fact there were population shifts. What caused La Pen's rise to 
power? A virtual Nazi in France. Anti-Arab sentiment. Where do 
we see that in this country?
    We have some idiot preacher mischaracterizing the Islamic 
religion and it is treated in the Middle East as if he were a 
Presidential candidate, and La Pen in his xenophobia got 
virtually no attention in the Middle East among Palestinians or 
anyone else. As you can tell, it frustrates me.
    And so as much as my criticism of this administration--and 
it is real. It is deep. I disagree in fundamental ways with the 
way they are going about their policies and diplomacy. I find 
this difficult to draft, in effect, or come up with even in my 
own head what it is that our policy should be relative to the 
public diplomacy. It should be more exchanges. It should be, it 
seems to me, to focus on the tolerance in this country.
    But by the way, I can picture this television station 
working extremely well. All I would like to do is they could 
put on a morning show just going to one of the several thousand 
mosques in the United States. These folks are not dumb, if they 
do it like the radio station. The people putting this together 
are pretty smart. They could focus on pointing out that there 
are more Muslims in America than there are Episcopalians. There 
are more Muslims in America than most of the mainstream 
Protestant religions. The point is that it is very, very 
difficult to get that message through in any way, shape, or 
form.
    So I just hold out, not for the panel, the rhetorical 
challenge, find me a single country in the world, a single, 
solitary country in the world, that is as open, as tolerant and 
that you would argue would have reacted--possibly one of the 
Scandinavian countries, I would argue. Find me any beyond that 
that would have acted as nobly as I think the American people 
have acted in the face of what has happened to them.
    I apologize for my frustration, but I hope you understand 
it is borne out of a failure in my own mind to figure out where 
the jugular is. All I know is we have been fooling around with 
the capillaries an awful lot here. It is not to suggest we need 
not be more sensitive. We should. It is not to suggest we 
should not be educating in our schools children on Islam and 
the background and in the universities. It is not to suggest 
any of that. But it is to suggest that that is not going to 
solve the problem.
    The problem is a lot deeper than that, and it goes to the 
fact that we are the big guy on the block and we do not handle 
it very well. I think history is going to go back and show that 
it is not surprising that after the walls come down, it has 
taken us a decade or more to try to figure out our place in the 
world.
    I will conclude with this. You know, most people, when I go 
abroad, think Americans love us being a super power. I do not 
know about what is happening out in your State, Mr. Chairman, 
but my folks think if there has got to be one super power, it 
might as well be us, but they would rather not be the super 
power because guess what. We did not get one single word of 
credit for the tens of thousands of Muslim women we kept out of 
rape camps in Bosnia. We did not get one single, solitary piece 
of credit in the Middle East for risking the lives of young 
women and men for one reason, to save Muslims, Bosniaks, 
Kosovars, Muslims. And it frustrates me.
    So if Middle Eastern countries want to be treated like 
mature nations, they have to start acting like mature nations. 
And you cannot have the front page of the Saudi-run newspaper 
talking about how for Purim the blood of Arab children is 
needed in order to make the pastries. You cannot have the 
Ambassador from Saudi Arabia in London writing poetry that is 
hailing suicide bombers as martyrs for Islam and keep his job 
and pretend to be you are a responsible country.
    Enough of my editorializing. I thank you for your 
testimony. I apologize for the time.
    The Chairman. Thank you, Senator Biden.
    Dr. Zaharna, you have a thought.
    Dr. Zaharna. Yes. I want to say, yes, that I am 
Palestinian, a Palestinian Texan and Muslim, and this exchange 
has been enlightening for me. It is the first time for me, and 
I do sense your frustration very strongly and clearly. It has 
been an educational point that I will take with me with the 
later writing. It has been educational, just as I have been 
involved with the Jewish American dialog. And one of my 
colleagues is here with me today. So I will take that back and 
absorb it.
    Senator Biden. There is nothing to be sorry about. It does 
not have anything to do with you, doctor. I am just trying to 
figure out what it is we have got to do. What do we have to 
focus on to change this.
    The Chairman. We will all struggle with that.
    I appreciate very much your comments, Dr. Zaharna, likewise 
Mr. Keith and Mr. Kohut. I appreciate the publications that you 
all have given us, but I want to commend the Global Project 
Attitudes publication. There are so many interesting tables 
here that are grist for the mill maybe for further hearings of 
our committee, as we come to understanding--for example, the 
charts that you have--why some countries believe HIV/AIDS is 
the primary problem in the world. Some believe misunderstanding 
among races and cultures. Some think nuclear weapons. The 
United States believes that is the major problem. These are 
very diverse major problems and the orientation of these 
countries, and sometimes unpredictably, is astonishing but 
certainly worthy of all of our sensitivity and our thorough 
study. We thank you very much for contributing so much to our 
hearing.
    Senator Biden. Thank you. It was very helpful.
    The Chairman. And the hearing is adjourned.
    [Whereupon, at 12:32 p.m., the committee adjouned, to 
reconvene subject to the call of the Chair.]
                              ----------                              


             Additional Questions Submitted for the Record


  Responses of Hon. Charlotte L. Beers, Under Secretary of State for 
        Public Diplomacy and Public Affairs, Department of State

    Question. Since September 11, 2001 how have you changed resource 
allocations--people and programs--in order to put greater priority on 
countries with significant Muslim populations? Please provide detail.

    Answer. Public diplomacy resources have been shifted since 9/11, 
with a significant emphasis on foreign Arab and Muslim populations. 
Funds were increased 34% in FY 2002 and 13% in FY 2003 for the South 
Asian geographic bureau; and 15% in FY 2002 and 19% in FY 2003 for the 
Near Eastern geographic bureau.
    These increases reflect the priority attention given to the 
Afghanistan war and the continuing war on terrorism in these regions. 
They also demonstrate the large adjustments that we made immediately 
following 9/11 and are continuing in FY 2003 to reflect public 
diplomacy priorities in those regions.
    While no program increase for public diplomacy is requested for FY 
2004, funding will increase 3% for the Near Eastern bureau and 5% for 
the South Asian bureau in FY 2004 to maintain current services.
    An additional $35 million in FY 02 supplemental funding for public 
diplomacy initiatives has also been directed to foreign Arab and Muslim 
populations. These activities included television broadcasts, speakers, 
and foreign journalist tours on values and religious tolerance; English 
language programs, English teaching, and educational reform prejects; 
American studies programs in universities; and programs on Iran and 
Iraq. They also included exchanges involving youth, women, the 
Fulbright program, media training, English language instruction, and 
American studies.
    In addition, a number of programs and activities were initiated at 
Headquarters and provided to field posts to reach Arab and Muslim 
populations. We have begun publication of a magazine for young Arabic 
speakers. The pilot phase of this project, with four initial print 
editions, is under way with the first scheduled in April. We have 
expanded translations of our print and electronic publications into 
Arabic and other languages, including ``Network of Terrorism'' and 
``Muslim Life in America.'' We are launching a Persian-language Web 
site and have increased foreign journalist tours and briefings and 
television cooperative productions with broadcasters from countries 
with significant Muslim populations.
    In FY 2002 the Bureau of Educational and Cultural Affairs 
redirected 5% of its base exchange resources ($12 million) to 
engagement with the Muslim world and the war on terrorism. The FY 2003 
exchanges plan maintains this emphasis, increasing the Middle East's 
share of worldwide exchange resources to 15%, compared to 11% in FY 
2002 and 10% in FY 2001. The bureau's Partnerships for Learning 
exchanges funded by the supplemental funds target youth in specific 
world regions, focusing 50% on the Middle East, 20% on South Asia, and 
approximately 10% each on East Asia, Africa, and Eurasia.

    Question. In 1998, Congress approved legislation to merge the U.S. 
Information Agency into the Department of State. It was understood at 
the time that it would take time for the two cultures to be fully 
integrated. A recent Inspector General report reviewing the work of the 
Bureau of African Affairs contains this quotation: ``Public diplomacy 
officers believe that they are often not included in policy 
deliberations, even those with a clear public diplomacy content, 
because policy officers are not interested in public diplomacy.'' 
That's not heartening, but I don't know if it is representative of the 
entire Department.
    Please provide your assessment of how the culture of the State 
Department is changing to better incorporate public diplomacy 
perspectives. What more needs to be done to encourage this 
transformation?

    Answer. Since integration, public diplomacy is more tightly 
connected than previously with the policy formulation process. The 
Secretary and Deputy Secretary understand and support public 
diplomacy's role in policy formulation. The Under Secretary of State 
for Public Diplomacy and Public Affairs participates in the Secretary's 
daily meeting with other policymakers. Deputy Assistant Secretaries 
with responsibility for public diplomacy in regional and other bureaus 
bring public diplomacy concerns to discussions throughout the policy 
process, and PD directors in the bureaus provide the operational link 
between programs and policy.
    Public diplomacy is integrally connected with the policy process on 
our top priority issues of anti-terrorism and Iraq. The Strategic 
Communications Policy Communication Committee (PCC), which is chaired 
by the Under Secretary, includes a very active sub-group on public 
diplomacy, which is directly connected with the policymaking PCC on 
Iraq.
    Enhanced research provides important data on foreign attitudes to 
be considered as policy is formulated. Resources are being provided to 
the Bureau of Intelligence and Research to further strengthen our 
research capability.
    We are taking steps to increase coordination between the Office of 
the Under Secretary and the regional bureaus. For example, the Under 
Secretary and her staff have increased interaction with bureau public 
diplomacy offices. New responsibilities for the Under Secretary's staff 
now include individual points of contact for each regional bureau, 
scheduling bi-weekly meetings with the public diplomacy office 
directors from the regional bureaus and responsible Deputy Assistant 
Secretaries, and working with Bureaus to integrate public diplomacy 
strategies into bureau and mission program plans. In addition to the 
above measures, we continue to seek full integration at all levels.

    Question. Are all public diplomacy officers physically co-located 
with their colleagues in the regional bureaus? Do any public diplomacy 
officers assigned to regional bureaus remain at SA-44?

    Answer. No public diplomacy officers assigned to the regional 
bureaus remain at SA-44. All regional bureau public diplomacy offices 
at Main State are located in close proximity to the respective regional 
bureau's management suite and other offices.

    Question. Public diplomacy is not just about programs or budgets, 
it's about people--it's about Ambassadors and diplomats in the field 
getting out and engaging foreign publics. It's about making speeches, 
not only to elites but to mainstream audiences. It's about doing 
interviews on local media, rather than only talking to the foreign 
ministry. Every ambassador should be asked: what are you doing? What 
have you achieved? What more can you do? What do you need from us in 
Washington?
  <bullet> What is your view on what's happening out in the field? How 
        do you monitor these activities? How are posts held accountable 
        by Washington?

    Answer. Secretary Powell has made it clear that all our diplomats 
overseas must be actively engaged in forwarding our public diplomacy 
mission. In March, the Secretary sent a personal message to ambassadors 
urging them to make special efforts in public outreach on Iraq. With 
strong support of the regional assistant secretaries, I constantly urge 
our Public Affairs Offices to take full advantage of all Mission assets 
to take our messages to the general public, not just government leaders 
and opinion makers. Mission outreach programs drawing on political, 
economic, commercial and other sections as well as public affairs and 
the ambassadors, are increasingly active in missions from Beijing to 
London and Mexico City.
    To reach broader audiences, I have made development of our 
television capabilities, a priority. In addition to the very far-
reaching mini-documentaries and related materials of the Shared Values 
initiative, which reached 288 million people in the Middle East, South 
Asia, East Asia and elsewhere, we are developing electronic town hall 
meetings between Americans and foreign audiences. A very successful 
town hall meeting between students in Washington and counterparts in 
Jakarta will serve as a model for similar programs in the future. TV 
co-ops, with the Department providing expertise to foreign broadcasters 
to develop programs highlighting America's contribution to development 
in other countries, is another very promising model.
    I receive weekly reports from all regional bureaus accounting for 
their primary public diplomacy activities in the field. I also meet 
regularly with the regional bureaus to review priorities and progress 
towards meeting them. Because, as Under Secretary for Public Diplomacy 
and Public Affairs, I have authority over public diplomacy funding, 
including funding for programs implemented by the regional bureaus, I 
am able to set strategic goals according to which funding requests can 
be measured. If necessary, I am able to reprioritize funding 
disposition, as I did to support the war on terrorism after September 
11, 2001. I believe relations between my office and the regional 
bureaus are good and growing stronger and continue to build on the 
strengths of integration.

    Question. In your testimony, you give strong support for 
international exchanges. You say that they ``are almost always 
positive, literally transforming, experiences.'' You say that the 
number of exchanges is ``nowhere near enough and should be expanded in 
the future.'' Yet the President's budget for Fiscal Year 2004 reduces 
international exchanges. This will result in real reductions: the 
Committee staff was informed that it will result in 2,450 fewer 
exchange participants in 2004.
  <bullet> What is the rationale for these reductions? Why are we 
        cutting these programs at this time? Is this based on a view 
        that these programs are not worthwhile?

    Answer. We need ways to reach the youth of the world, to build 
appreciation for American values as an example of applying universal 
aspirations of human dignity and freedom; to quell hostility towards 
us, and to engage in constructive dialogue that increases mutual 
respect, and changes anti-American attitudes. Exchanges are central to 
that longterm effort.
    The reduction to exchanges is budget-driven, not policy-driven. It 
is the result of overall federal budget constraints.
    The President's FY 2004 request for Educational and Cultural 
Exchange Programs is $345 million, consisting of:
  <bullet> $245 million for base exchanges, which is straight-lined 
        from the FY 03 level. The Department will pursue prioritization 
        of effort and achievement of efficiencies to maximize the 
        utilization of these funds.
  <bullet> The request also includes $100 million, for the merger of 
        FSA/SEED exchanges from the Foreign Assistance appropriation 
        into the Educational & Cultural Exchanges (ECE) appropriation. 
        In the past, the Department has used. Foreign Assistance 
        transfers from USAID to support these key education, visitor, 
        and citizen exchange activities in the NIS and southeastern 
        Europe.

    Question. In January, President Bush issued an Executive Order 
created a White House Office of Global Communications.
          a. How does the State Department interact with the White 
        House Office?
          b. What is your role in ensuring interagency coordination on 
        public diplomacy issues?
          c. The Pentagon has a lot of resources for ``information.'' 
        How are those efforts coordinated, if at all, with your office?

    Answer. State Department Public Diplomacy and Public Affairs 
remains at the frontlines of international communications but the 
Office of Global Communications (OGC) effectively coordinates the 
efforts of many agencies involved in reaching overseas audiences, 
including the Pentagon. This coordination helps to make public 
diplomacy programs and activities more effective.
    We work closely with the OGC, and through the OGC we have the White 
House fully engaged in our efforts. We have White House leadership, 
authority, and support on critical matters. It makes coordination among 
agencies easier, faster, and gives greater priority to the need for 
influencing international public opinion.
    In addition to our tactical work with the OGC, I co-chair a Policy 
Coordinating Committee on Strategic Communications (SC/PCC) along with 
the NSC Senior Director for Democracy, Human Rights and International 
Operations. Members represent the OGC, NSC, DOD, BBG, AID and elements 
in the State Department, all with responsibility to communicate with 
international publics.
    This committee was created late last summer in order to ensure that 
agencies work together and with the White House to develop and 
disseminate the President's messages across the globe. The SC/PCC is 
responsible for coordinating interagency support for public diplomacy, 
international broadcasting and international information programs; and 
promoting the strategic communication capabilities throughout the 
government. It is imperative that there be transparent, systematic 
coordination.
    The PCC member organizations include the White House Office of 
Global Communications (OGC), which coordinates broad Presidential 
priorities, special initiatives and planning for principals.
    To date, the SC/PCC has four subcommittees, all dedicated to 
devising unified strategy: Iraq, Afghanistan Reconstruction, Education, 
and Future Directions. The last is developing a national communication 
strategy.

    Question. Your predecessor commissioned a survey of U.S. 
ambassadors about public diplomacy programs. One in ten ambassadors put 
in a plea for an increase of ``American cultural exhibits, artists, and 
performer programs.'' The budget for these programs is minuscule--
running at a few million dollars a year, at most.
    Section 224 of the Foreign Relations Authorization Act, Fiscal Year 
2003, establishes a new Advisory Committee on Cultural Diplomacy.
          a. What has been done in the last year to try to increase 
        support for, and funding of, cultural diplomacy programs?
          b. It's been nearly five months since the Foreign Relations 
        Authorization Act was enacted. When do you expect to establish 
        the Advisory Committee?

    Answer. In response to the direct need for more cultural engagement 
with countries with significant Muslim populations, ECA increased its 
funding for cultural and arts programming by almost 60% in FY 2002, 
from $1.6 million in FY 2001 to $2.5 million. While this is still not 
adequate to meet the demand from our embassies abroad, this increased 
funding did enable the bureau to enhance the Department's cultural 
outreach.
    In FY 2002, the Bureau held a grant competition that resulted in 
three grants of $200,000 each to fund exchange programs run by UCLA's 
Asian Pacific Performance Exchange, Carnegie Hall and the Sundance Film 
Festival. These programs are specifically designed to engage Muslim 
audiences in Indonesia, the Middle East and Central Asia. The Bureau 
also launched in February 2002 the ``After September 11: Images from 
Ground Zero'' exhibit of photographs by American photographer Joel 
Meyerowitz. Shown without editorial comment, this exhibit of 27 
powerful, large-format images of the destruction and recovery at 
``ground zero'' in New York documents the true face of terrorism and 
the determined response to it of the American people. Thirty sets of 
these photographs were put in circulation overseas, and in the first 
year were shown in over 150 galleries and museums in 143 cities in 71 
countries. ECA estimates that over 600,000 people have seen the exhibit 
in the past year, and media coverage has been very heavy and positive. 
The exhibit will continue its international showings until early 2005.
    In FY 2003, ECA is launching its ``Culture Connect'' program, 
designed to send the finest in American performing and creative artists 
overseas to engage with youth audiences. This program will focus on 
promoting in-depth, people-to-people connections between prominent 
American artists of all genres and future leaders overseas.
    The Department is working to establish the Advisory Committee on 
Cultural Diplomacy. We welcome this opportunity to reach out to the 
American private sector and obtain advice on increasing the 
presentation abroad of the finest of the creative, visual, and 
performing arts of the United States and developing strategies for 
increasing public-private partnerships to sponsor cultural exchange 
programs.
    We have researched the issues involved in establishing and 
launching this committee. Now, with the passage of the Department's FY 
03 appropriations, funding for implementing this new initiative is 
available. As a result, we are taking the necessary steps to officially 
establish the committee, fulfilling the requirements of the Federal 
Advisory Committee Act (FACA).
    I have designated a point of contact in my office to serve as 
liaison with designated ECA staff, and I have tasked ECA to work with 
me in developing a strategy to identify potential Committee members, 
define the Committee's operational procedures, guidelines and rules of 
order. At this writing, the Committee's charter and organizational 
structures are being drafted in compliance with existing regulations.

    Question. The Congressional Budget Presentation for public 
diplomacy the Department of State shows $103.3 million for American 
salaries in FY 2004 (compared to $100.9 million in FY 2003) and $159.9 
million in Bureau managed funds in FY 2004 (compared to $154.2 million 
in FY 2003). Of the increases requested for FY 2004 for each component 
(i.e., American salaries and Bureau managed funds), how much represents 
program increases and how much is current services?

    Answer. The FY 2004 public diplomacy budget request includes no 
program increases. All funds requested cover current services only.

    Question. In 2002, the Department launched the ``Shared Values'' 
campaign--the multi-media campaign of advertisements to Islamic 
countries focusing on Muslim life in America.
          a. What was your rationale for this undertaking? What did you 
        hope to accomplish? Do you believe you accomplished your 
        objectives?
          b. Do you intend to continue this effort? Is continuing it a 
        question of the effectiveness or a question of resources?
          c. Which countries refused to broadcast the advertisements on 
        state-run television? What was the basis for such refusal? How 
        hard did we press diplomatically to obtain a positive response?

    Answer. Independent research conducted in several predominantly 
Muslim countries after September 11, 2001 revealed widespread 
misperceptions about America throughout the Muslim world. This research 
obtained from many different sources showed there is an urgent need for 
Americans to better communicate with the Muslim world. Misperceptions 
about the United States are widespread and are perpetuated daily by 
governmental and non-governmental sources, biased media reports, 
extremist groups, and false rumors. Additionally, this research and 
other studies clearly demonstrate that Americans and Muslims share 
similar core values: family, faith, charity and learning. The Shared 
Values Initiative is an opportunity for people from all walks of life 
to communicate with each other about shared values and concerns. So, in 
an effort to highlight those similarities and reach out to the Muslim 
world, the State Department formed a unique partnership with the 
Council of American Muslims for Understanding (CAMU), which served as 
the basis for the Shared Values Initiative.
    The Shared Values Initiative was designed to be inclusive of many 
voices--not just diplomats and policymakers--but also professional 
people, entrepreneurs, educators, students, and religious leaders--from 
both the United States and the Muslim world to build a foundation for 
free, candid, and respectful engagement and exchange between Americans 
and people from the Muslim world.
    The Shared Values Initiative in 2002 succeeded in meeting its 
initial goal of stimulating dialogue between Americans and people from 
predominantly Muslim countries.
    The Shared Values Initiative will continue through many different 
applications. This Initiative was never meant to stand alone, but to be 
an integral part of our overall outreach efforts. The Department will 
continue to reach out to the Muslim world to demonstrate the values we 
share.
    The television spots that, along with radio spots, and print 
treatments, as well as a booklet on ``Muslim Life in America'' and 
speakers' tours, formed the core of the Shared Values Initiative, were 
offered to several pan-Arab satellite television channels and to 
television networks in Indonesia, Malaysia, Pakistan, Kuwait, Egypt, 
Lebanon, and Morocco. While the pan-Arab channels and the television 
networks in Indonesia, Malaysia, Pakistan, and Kuwait accepted the 
spots, thus ensuring a wide audience throughout the Arab and Muslim 
worlds, the authorities in Egypt and Lebanon refused to allow our spots 
to run on their networks, while the authorities in Morocco asked that 
we delay. In Egypt, the spots were judged to be too ``political;'' in 
Lebanon, they were considered ``tangential to the real concerns of our 
people;'' and in Morocco, they were seen as ``untimely.'' Our 
Ambassadors in each country supported our requests at the political 
level, but the refusals in Egypt and Lebanon and the request to delay 
in Morocco could not be reversed.

    Question. In your testimony, you refer to polling conducted in 
Indonesia following the use of advertisements from the ``Shared 
Values'' campaign. Please provide any relevant polling data.

    Answer. Research indicates that the paid media, events and 
publicity provided new information to Indonesians and encouraged them 
to rethink some of their preconceptions about America. Messages that 
the campaign delivered were:
  <bullet> The U.S. guarantee of equal opportunities and protection of 
        people's rights.
  <bullet> Muslims are accepted in the U.S.
  <bullet> There is respect and tolerance among people from different 
        backgrounds.
    The Mini-documentaries were viewed as good intention to foster 
understanding between the U.S. and Indonesia. The following is a 
summary of the research data:
    In only three weeks of the mini-documentaries' five week flight, 
roughly 91 million Indonesians were made aware of the individual 
executions of the campaign.


------------------------------------------------------------------------
                                                  Prompted Recall
------------------------------------------------------------------------
Journalist Devianti......................        67%  91 million people
Teacher Rawia Ismail.....................        56%  76 million people
Baker Abdul-Raouf Hammuda................        48%  66 million people

------------------------------------------------------------------------
Source: NFO Worldwide.
**Based on 231MM total population, 88% Muslim, 75% Media Penetration,
  90% Reach, the universe totals 137MM people.


    Levels are at or above those of major U.S. consumer campaigns after 
four to six months of significantly higher spending.


------------------------------------------------------------------------
                                                  Prompted Recall
------------------------------------------------------------------------
Journalist Devianti......................                           67%
Teacher Rawia Ismail.....................                           56%
Baker Abdul-Raouf Hammuda................                           48%

------------------------------------------------------------------------
**During last two weeks of a five week campaign.
Source: NFO Worldwide.



------------------------------------------------------------------------
                                                  Prompted Recall
------------------------------------------------------------------------
Leading Soft Drink Campaign..............                           36%
Leading Credit Card Campaign.............                           54%
Leading Computer Hardware Campaign.......                           47%

------------------------------------------------------------------------
**After 4 to 6 months of heavy spending.



------------------------------------------------------------------------
                                                  Prompted Recall
------------------------------------------------------------------------
United Way 2001 Ad Awareness.............                           62%
Ad Council Colon Cancer Prevention.......                           40%

------------------------------------------------------------------------
**After 1 Year.
Source: United Way & Ad Council


    When asked what new information they received from the mini-
documentaries, research indicates that approximately 63 million people 
``learned'' that Islam is not discriminated against in America.


------------------------------------------------------------------------

------------------------------------------------------------------------

                             Message Recall

Islam is not discriminated/equal                 46%--63 million people
 treatment...............................
Freedom in doing religious duties........        44%--60 million people
Inter religion tolerance/respect each            35%--48 million people
 other...................................
Islam is well accepted in America........        23%--32 million people

------------------------------------------------------------------------
Source: NFO Worldwide.
**Based on 231MM total population, 88% Muslim, 75% Media Penetration,
  90% Reach, the universe totals 137MM people.


    Message Playback levels after 3 weeks is comparable to those of 
major consumer brands after four to six month campaigns.


------------------------------------------------------------------------

------------------------------------------------------------------------
Islam is not discriminated/equal                                    46%
 treatment...............................
Freedom in doing religious duties........                           44%
Inter religion tolerance/respect each                               35%
 other...................................
Islam is well accepted in America........                           23%

------------------------------------------------------------------------
**During last 2 weeks of 5 week campaign.
Source: NFO Worldwide



------------------------------------------------------------------------

------------------------------------------------------------------------
Software helps you stay ahead of                                    51%
 competition.............................
Is a leading provider of wireless                                   40%
 software................................
Has powerful products to meet highest                               24%
 demand..................................

------------------------------------------------------------------------
**After 4 to 6 months of heavy spending.
Source: Audits and Surveys.


    Question. The contract for this campaign was awarded by means other 
than full and open competition. What was the justification for doing 
so?

    Answer. The Department relied upon the ``unusual and compelling 
urgency'' exception to other than full and open competition (Federal 
Acquisition Regulation (FAR) 6.302-2 (48 C.F.R. 6.302-2)) in awarding 
the contract for this campaign. While the law and the FAR require that 
a contracting officer specify government needs and solicit offers in a 
manner designed to achieve competition, both also include language that 
indicates it may not be ``practicable'' to do so in all circumstances.
    In this particular time-sensitive effort to address terrorism, the 
Department determined that it was not possible to prepare a 
sufficiently definitive statement of work in time to serve as a basis 
of competition. Furthermore, it would have been necessary to develop 
evaluation factors, which undoubtedly would have included market 
breadth and depth, as well as price--all of which, it was felt, would 
likely lead us to McCann-Erickson.
    In light of these considerations, as well as our belief that the 
likely outcome of any competition would have been the same, the 
Department determined that the urgent and compelling nature of the 
activity to be undertaken warranted this alternative, non-competitive 
approach. It was felt that competition could not be accomplished 
effectively and efficiently without harming the ability to commence 
program performance.

    Question. Have there been other contracts awarded in connection 
with public diplomacy campaigns in FY 2002 or 2003 which were awarded 
by means other than full and open competition?. If so, please provide 
detail about the number of such contracts, the value of such contracts, 
and the purpose of such contracts.

    Answer. There were no contracts that were awarded for public 
diplomacy campaigns in FY 2002 or FY 2003 without full and open 
competition, other than simplified acquisition, such as small purchases 
under $100,000, which require three bids, as the requirement for full 
and open competition does not apply.

    Question. The contract with McCann-Erickson for the ``Shared 
Values'' campaign provides for a ``placement fee'' for the agency for 
the placement of the advertisements. The fee is a fixed amount. The 
country placement costs in the Task Order (#2) are not. What was the 
final cost for country placement? Was the fee within the prescribed 
range of 6 to 12%? Is such a fee comparable to industry standards?

    Answer. The following includes the proposed breakout per country 
for the placement of advertisements and the contractor fee per country 
under Task Order #2:


----------------------------------------------------------------------------------------------------------------

----------------------------------------------------------------------------------------------------------------
Projected Placement Costs:

  Indonesia.....................................................      $2,000,000
  Egypt.........................................................      $2,800,000
  Kuwait........................................................        $350,000
  Lebanon.......................................................        $350,000
  Jordan........................................................        $350,000
  Turkey........................................................      $2,000,000
  Morocco.......................................................        $750,000
                                                                 ----------------
    Total.......................................................      $8,600,000

Fixed Placement Fees (rounded to the nearest whole percentage):

  Indonesia.....................................................        $230,000   12% of total placement costs
  Egypt.........................................................        $230,000    8% of total placement costs
  Kuwait........................................................         $20,000    6% of total placement costs
  Lebanon.......................................................         $20,000    6% of total placement costs
  Jordan........................................................         $20,000    6% of total placement costs
  Turkey........................................................        $230,000   12% of total placement costs
  Morocco.......................................................         $50,000    7% of total placement costs
                                                                 ----------------
    Total.......................................................        $800,000                     overall 9%
----------------------------------------------------------------------------------------------------------------


    The following includes the media costs to date per country for the 
placement of advancements and the contractor's invoiced fee under Task 
Order #2:


------------------------------------------------------------------------

------------------------------------------------------------------------
Indonesia............................................         $1,753,000
Kuwait...............................................           $219,000
Lebanon..............................................                 $0
Morocco..............................................                 $0
Malaysia.............................................           $925,000
Pakistan.............................................           $659,000
Pan Arab.............................................         $1,309,000
Middle East & South Asia.............................                 $0
                                                      ------------------
    Total............................................         $4,865,000

  Placement Fee......................................           $795,000
------------------------------------------------------------------------


    It should be noted from the above, that all placements have not yet 
been completed. Placements continue and all costs have not yet been 
incurred. When all costs are incurred and billed, the final fee is 
anticipated to be approximately 9 percent as originally estimated. Such 
a fee is within or below industry standards.

    Question. The contract with McCann-Erickson expired on September 
30, 2002. Was it extended? How? To what date? Please provide a copy of 
any extension(s).

    Answer. The ordering period for the contract with McCann-Erickson 
expired on September 30, 2002. The contract did not require completion 
of all tasks by that date, but rather, that further orders could not be 
placed after that date. The three task orders under Delivery Order # S-
LMAQM-02-F-4393 were awarded on August 23, 2002. Work on those task 
orders continues. No additional delivery orders have been awarded under 
this contract. The contract's period of performance has not been 
extended.

    Question. With regard to the contract for the ``Shared Values'' 
campaign, was any official from the White House or any government 
department involved in any respect in the decision to--
          a. Use other than full and open competition?
          b. Select McCann-Erickson as the contractor?

    Answer. No official from the White House or any government 
department was involved in the decision to use other than full and open 
competition or to select McCann-Erickson as the contractor.


</pre></body></html>
